CAPITAL CASE
No.
IN THE
SUPREME COURT OF THE UNITED STATES

STEPHEN HUGUELEY,

Petitioner,
vs.

TONY MAYS, WARDEN RIVERBEND MAXIMUM SECURITY INSTITUTION

Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE TENNESSEE SUPREME COURT
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
AMY D. HARWELL
Assistant Chief Capital Habeas Unit
*Counsel of Record
MARSHALL JENSEN
Research and Writing Attorney
FEDERAL PUBLIC DEFENDER
Middle District of Tennessee
Capital Habeas Unit
810 Broadway, Suite 200
Nashville, TN 37203
(615) 736-5047
Amy_Harwell@fd.org

Counsel for Petitioner

APPENDIX TO PETITION FOR WRIT OF CERTIORARI

1a-17a

Hugueley v. Mays, 964 F.3d 489 (6th Cir. 2020)

18a-19a

Order Denying Petition for Rehearing, Hugueley v. Mays, No. 17-6024 (6th Cir.
Aug. 20, 2020

20a-161a

Order Denying Petition for Writ of Habeas Corpus, Hugueley v. Westbrooks, No. 09-1181, 2017 WL
3325008 (W.D. Tenn. Aug. 3, 2017).

Case: 17-6024

Document: 55-2

1a

Filed: 07/01/2020

Page: 1

RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0199p.06

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

STEPHEN HUGUELEY,
Petitioner-Appellant,

┐
│
│

>

v.
TONY MAYS, Warden,
Respondent-Appellee.

│
│
│
│
│
┘

No. 17-6024

Appeal from the United States District Court
for the Western District of Tennessee at Jackson.
No. 1:09-cv-01181—J. Daniel Breen, District Judge.
Decided and Filed: July 1, 2020
Before: BOGGS, GRIFFIN, and KETHLEDGE, Circuit Judges.
_________________
COUNSEL
ON BRIEF: Amy D. Harwell, Dee R. Goolsby, OFFICE OF THE FEDERAL PUBLIC
DEFENDER FOR THE MIDDLE DISTRICT OF TENNESSEE, Nashville, Tennessee, for
Appellant. Richard D. Douglas, OFFICE OF THE TENNESSEE ATTORNEY GENERAL,
Nashville, Tennessee, for Appellee.
_________________
OPINION
_________________
BOGGS, Circuit Judge. Stephen Lynn Hugueley, a death-row inmate at Tennessee’s
Riverbend Maximum Security Institution, appeals the denial of his 28 U.S.C. § 2254 habeas
petition, which alleged various violations of his constitutional rights. We granted a certificate of
appealability on only one issue, whether Hugueley’s counsel at trial was ineffective. In the

(3 of 19)

Case: 17-6024

No. 17-6024

Document: 55-2

2a

Filed: 07/01/2020

Page: 2

Hugueley v. Mays

(4 of 19)

Page 2

proceedings below, the federal habeas court concluded that this claim had been procedurally
defaulted. Hugueley originally raised the claim in his state post-conviction proceedings, but he
waived the claim when he decided to voluntarily withdraw his petition. Hugueley now argues
that he should have been declared incompetent to withdraw his post-conviction petition, and that
the state-court procedures that determined that he was competent were procedurally deficient
under Panetti v. Quarterman, 551 U.S. 930 (2007). He therefore contends that the court’s ruling
of procedural default was incorrect. In the alternative, he argues that his default should be
excused under Martinez v. Ryan, 566 U.S. 1 (2012), because his state post-conviction counsel
was ineffective, and her deficient performance caused his default.
For the following reasons, we reject Hugueley’s arguments and affirm the district court’s
denial of his habeas petition.
I. FACTUAL BACKGROUND
In 2003, Stephen Hugueley was convicted and sentenced to death for the January 17,
2002 killing of correctional counselor Delbert Steed at Tennessee’s Hardeman County
Correctional Facility. On the day of the murder, Hugueley, an inmate at the facility at the time,
approached Steed from behind as he was sitting a table and began stabbing Steed with a
homemade weapon fashioned out of a sharpened metal rod attached to a marker. Hugueley
stabbed Steed thirty-six times and stopped only after the handle of his weapon broke off. Steed
was carried out of the room with the sharpened portion of the weapon still embedded in him, and
he died shortly thereafter. At trial, Hugueley testified that he had planned the attack on Steed
because the victim “had a smart ass mouth,” which was a “problem.” State v. Hugueley,
185 S.W.3d 356, 366 (Tenn. 2006) (“Hugueley I”).

Hugueley also admitted that had his

homemade weapon not broken, he would have kept stabbing Steed, and that it was his intention
to drive the weapon “plumb through and hit the concrete below him.” Id. at 365.
The jury convicted Hugueley of first-degree murder.

Hugueley then waived the

presentation of any mitigating evidence during the penalty phase of the trial. However, the jury
still considered several potential aggravating factors. In 1986, Hugueley was convicted of firstdegree murder for killing his mother. In 1992, he was convicted again of first-degree murder

Case: 17-6024

No. 17-6024

Document: 55-2

3a

Filed: 07/01/2020

Hugueley v. Mays

Page: 3

(5 of 19)

Page 3

after killing a fellow inmate, James Shelton. In 1998, Hugueley was convicted of attempted
first-degree murder after stabbing another inmate, Timerall Nelson.

The jury sentenced

Hugueley to death based on four aggravating factors: (1) he had several prior convictions for
violent felonies; (2) the murder was especially heinous, atrocious, or cruel; (3) the murder was
committed in a place of lawful confinement; and (4) the victim of the murder was a corrections
employee. See Tenn. Code Ann. § 39-13-204(i)(2), (5), (8), (9); Hugueley I, 185 S.W.3d at 363.
Following his conviction, Hugueley expressed a desire to waive his direct appeal, but since
Tennessee law requires an automatic appeal from a death sentence, his direct appeal was heard
by the Tennessee Court of Criminal Appeals and then by the Tennessee Supreme Court. Both
courts affirmed his conviction and death sentence. State v. Hugueley, No. W2004-00057-CCAR3-CD, 2005 WL 645179 (Tenn. Crim. App. Mar. 17, 2005); Hugueley I, 185 S.W.3d at 387.
II. PROCEDURAL BACKGROUND
A. State Post-Conviction Proceedings
On July 24, 2006, Hugueley filed a pro se petition for post-conviction relief as well as a
pro se motion requesting that post-conviction counsel be appointed for him. Although the court
appointed counsel to represent him, Hugueley later objected to the representation, and—in
November 2006—notified the court that he wished to withdraw the petition. In January of 2007,
Hugueley’s appointed counsel, Kelly Gleason, filed an amended petition for post-conviction
relief, which detailed thirty-one possible claims for relief, including a claim that Hugueley’s trial
counsel was ineffective for failing to request a competency hearing before trial and for
permitting Hugueley to waive the presentation of mitigating evidence.
In a June 22, 2007 letter to the court, Hugueley reiterated his request to withdraw his
post-conviction petition.1

But at an August 2007 hearing, Gleason raised concerns about

Hugueley’s competency to withdraw his petition. In support, she provided the court with several

1In

a series of letters sent to the court in the summer of 2007, Hugueley expressed that he had only filed his
post-conviction petition to “stall” his execution because he learned that he might not be able to receive visitors while
on “death watch”—a three-day period of increased supervision and security before an inmate’s scheduled execution.
He stated that he “had no intention of pursuing post-conviction until the end” and that after his visitation issues were
resolved, he wished to withdraw his petition.

Case: 17-6024

No. 17-6024

Document: 55-2

4a

Filed: 07/01/2020

Page: 4

Hugueley v. Mays

(6 of 19)

Page 4

pieces of evidence that had been developed for Hugueley’s trial, including a notebook detailing
Hugueley’s history of mental illness, and a social history and mitigation report that had been
prepared for but—by Hugueley’s choice—not submitted at trial. Gleason also submitted recent
affidavits from two doctors who had evaluated Hugueley prior to trial. Although both doctors
had originally declared him competent to stand trial, they both expressed the view that further
evaluation of Hugueley’s competency was warranted. Furthermore, Gleason filed motions for
additional expert assistance, requesting funding for a neuropsychological expert, a
psychopharmacology expert, and a psychiatrist. She also filed a motion requesting that funds be
provided for a variety of brain-imaging scans. The court denied these requests.
However, after concluding that there was a genuine issue as to Hugueley’s competency,
the court directed Gleason and the state to each submit a list of mental-health experts who could
evaluate Hugueley. On January 23, 2008, the court appointed Dr. John Hutson, an expert
suggested by the state, and Dr. Peter Brown, an expert suggested by Gleason, for the evaluation.
The court set a deadline of March 6, 2008 for their reports to be submitted. However, in a July
24, 2008 order, the court noted that Dr. Brown, after having received several extensions, had yet
to evaluate Hugueley. The court also noted that Dr. Hutson had been mistakenly paid with funds
from the Tennessee District Attorney General’s Conference rather than with court funds; and
although there were no indications of impropriety, the court concluded that it could not rely on
Dr. Hutson’s findings. The court thus disqualified both Dr. Brown and Dr. Hutson and directed
the parties to submit a second list of experts who could evaluate Hugueley by August 25, 2008.
Tennessee submitted a new list of experts. Gleason also submitted a list of experts but
noted that none of them would be able to complete the evaluation within the court’s proposed
timeframe. She requested additional time and funding to continue her search, or an extended
timeframe within which the evaluation could be completed. However, the court stated that it was
concerned with avoiding further delay and appointed Dr. Bruce Seidner, one of the state’s
recommended experts, on August 1, 2008. After evaluating Hugueley, Dr. Seidner concluded
that he was competent to waive post-conviction review. Approximately two weeks before a
November 14, 2008 competency hearing, Gleason filed a renewed motion for expert assistance,
again requesting funding for brain-imaging scans and expert evaluations from three doctors.

Case: 17-6024

Document: 55-2

5a

No. 17-6024

Filed: 07/01/2020

Hugueley v. Mays

Page: 5

(7 of 19)

Page 5

The court again denied the motion. The court then held an evidentiary hearing where Dr. Seidner
testified and was cross-examined. After the hearing, Hugueley was given the opportunity to
present additional evidence regarding his competency, and Gleason supplemented the record
with a report that questioned the adequacy and reliability of Dr. Seidner’s evaluation. On
January 8, 2009, the court concluded that Hugueley was competent and granted his request to
withdraw his post-conviction petition.
Although Hugueley had made the decision to voluntarily withdraw his post-conviction
petition, he nonetheless appealed the post-conviction court’s decision to the Tennessee Court of
Criminal Appeals. While his appeal was pending, Hugueley also filed an affidavit in that court
stating that he wished to revoke the withdrawal of his petition and to resume proceedings.
However, the Tennessee Court of Criminal Appeals noted that the affidavit—filed on August 10,
2009—was filed more than eight months after the withdrawal was granted, after the requisite
thirty-day period necessary for a Tennessee court to reinstate the post-conviction petition. See
Pike v. State, 164 S.W.3d 257, 267 (Tenn. 2005). It therefore affirmed the trial court’s decision.
Hugueley v. State, No. W2009-00271-CCA-R3-PD, 2011 WL 2361824 (Tenn. Crim. App. June
8, 2011) (“Hugueley II”).
B. Federal Habeas Proceedings
In 2009, Hugueley filed a 28 U.S.C. § 2254 habeas petition in federal court, which forms
the basis of this appeal. In the petition, he raised twelve separate claims for relief, all of which
the district court rejected. We ultimately granted Hugueley a certificate of appealability on one
issue: whether Hugueley’s trial counsel was ineffective. The district court had rejected this claim
because it concluded that Hugueley had procedurally defaulted it by withdrawing his state postconviction petition. See Hugueley v. Westbrooks, 2017 WL 3325008, at *67 (W.D. Tenn. Aug. 3,
2017) (“Hugueley III”).
The gist of Hugueley’s claim is that his trial counsel failed to adequately develop
evidence of his alleged incompetency, which resulted in him improperly standing trial and
receiving the death penalty. Both experts who examined Hugueley before trial had concluded
that while he had suffered from a long history of psychiatric disorders, he could still understand
the nature of judicial proceedings and was therefore competent to stand trial. However, in 2013,

Case: 17-6024

No. 17-6024

Document: 55-2

6a

Filed: 07/01/2020

Hugueley v. Mays

Page: 6

(8 of 19)

Page 6

as part of his federal habeas proceedings, Hugueley had MRI scans conducted on his brain.
Although Hugueley had CT scans taken in 2003, which did not reveal any abnormalities, two
new experts—Doctors George Woods and Siddhartha Nadkarni—concluded from the 2013 MRI
that Hugueley’s brain was not fully developed, suggesting that he is not able to correctly perceive
reality or respond rationally. Based on four separate examinations of Hugueley (in 2001, 2011,
2013, and 2014), the MRI scans, and documents from Hugueley’s prior evaluations, Dr. Woods
expressly concluded that Hugueley had been “incompetent to stand trial in his capital case.” Dr.
Nadkarni—who did not evaluate Hugueley but had access to the MRI scans and prior
evaluations—concluded that Hugueley currently did “not meet either the federal or state
competence standard.” Dr. Nadkarni did not offer an opinion as to Hugueley’s competence
during his 2003 trial.2
Hugueley argues that these new evaluations demonstrate that his counsel at trial was
wholly ineffective for failing to fully develop evidence of his alleged incompetency. More
specifically, Hugueley separates his claim into two categories: (1) that his trial counsel was
ineffective for failing to fully investigate and litigate his competency to stand trial; and (2) that
his trial counsel was ineffective for failing to investigate his competency when he committed his
prior murders, each of which was an aggravating factor that resulted in his capital sentence. In
short, Hugueley asserts that had his trial lawyers conducted a full investigation into his
competency, there would have been a reasonable probability that either he would not have stood
trial, the jury would not have convicted him, or he would not have been sentenced to death.
Tennessee responds by arguing that because Hugueley made a competent withdrawal of
his post-conviction petition, he never fully developed any of these claims before the Tennessee
courts and has procedurally defaulted them. See Tenn. Sup. Ct. R. 28; Coleman v. Thompson,
501 U.S. 722, 750 (1991) (“In all cases in which a state prisoner has defaulted his federal claims
in state court pursuant to an independent and adequate state procedural rule, federal habeas
2During

the pendency of Hugueley’s federal habeas proceedings, he also filed a petition for a writ of error
coram nobis in state court, arguing that the new mental-health conclusions by Doctors Nadkarni and Woods meant
that Hugueley was incompetent to stand trial and that he was incompetent to withdraw his state post-conviction
proceedings. The state trial court denied the petition as meritless, and the Tennessee Court of Criminal Appeals
affirmed. Hugueley v. State, No. W2016-01428-CCA-R3-ECN, 2017 WL 2805204 (Tenn. Crim. App. June 28,
2017).

Case: 17-6024

Document: 55-2

7a

No. 17-6024

Filed: 07/01/2020

Page: 7

Hugueley v. Mays

(9 of 19)

Page 7

review of the claims is barred unless the prisoner can demonstrate cause for the default and
actual prejudice as a result of the alleged violation of federal law, or demonstrate that failure to
consider the claims will result in a fundamental miscarriage of justice.”).
Hugueley counters that his procedural default was invalid, or in the alternative, that it
should be excused.
III. LEGAL OVERVIEW
In reviewing the denial of a habeas petition, we review a district court’s legal
determinations and mixed questions of law and fact de novo while factual determinations are
reviewed for clear error. Moore v. Mitchell, 708 F.3d 760, 774 (6th Cir. 2013).
Generally, “a federal court will not review the merits of claims, including constitutional
claims, that a state court declined to hear because the prisoner failed to abide by a state
procedural rule.” Martinez v. Ryan, 566 U.S. 1, 9 (2012); see also Davila v. Davis, 137 S. Ct.
2058, 2062 (2017) (“Federal habeas courts reviewing convictions from state courts will not
consider claims that a state court refused to hear based on an adequate and independent state
procedural ground.”). This rule was “designed to ensure that state-court judgments are accorded
the finality and respect necessary to preserve the integrity of legal proceedings within our system
of federalism.” Martinez, 566 U.S. at 9.
It is undisputed that Hugueley’s withdrawal of his state post-conviction petition resulted
in a failure to present his ineffective-assistance-of-trial-counsel claim for review on the merits by
the Tennessee courts. The federal habeas court in the current proceeding thus concluded that the
claim had been procedurally defaulted and dismissed it. Hugueley III, 2017 WL 3325008 at *67.
However, the doctrine of procedural default is not without exceptions. “A prisoner may obtain
federal review of a defaulted claim by showing cause for the default and prejudice from a
violation of federal law.” Martinez, 566 U.S. at 10. Additionally, “[i]nadequate assistance of
counsel at initial-review collateral proceedings may establish cause for a prisoner’s procedural
default of a claim of ineffective assistance at trial.” Id. at 9.

Case: 17-6024

No. 17-6024

Document: 55-2

8a

Filed: 07/01/2020

Hugueley v. Mays

Page: 8

(10 of 19)

Page 8

On appeal, Hugueley argues his waiver of his claim was not a valid procedural default
and that, even if the default was valid, it should be excused. First, he contends that the state
court’s procedures in determining his competency to withdraw his post-conviction petition
violated due-process requirements because they failed to provide him with sufficient time or
resources to adequately demonstrate his incompetency, rendering the default of his claims
invalid. Second, he contends that even if the procedural default was valid, his post-conviction
counsel was ineffective, thereby creating cause and prejudice to excuse the default. For the
following reasons, we reject both arguments and affirm the district court’s denial of Hugueley’s
habeas petition.
IV. DISCUSSION
A. Process of State-Court Competency Determination under Panetti v. Quarterman
Hugueley claims that his procedural default is invalid because the state post-conviction
court’s procedures in determining his competency to withdraw his petition violated due process.
In support, Hugueley relies on Panetti v. Quarterman, which held that once a death-row
petitioner who is alleging that he is too incompetent to be executed has made a substantial
showing of his incompetency, he is entitled to “an adequate means by which to submit expert
psychiatric evidence in response to the evidence that had been solicited by the state court.”
551 U.S. 930, 948 (2007).

In particular, the petitioner is entitled to a “fair hearing,” an

“opportunity to be heard,” and a “determination of sanity” that has not “been made solely on the
basis of the examinations performed by state-appointed psychiatrists.” Id. at 949 (citations
omitted).
Hugueley argues that the post-conviction court’s actions in evaluating his competency did
not conform to these procedural requirements. He takes issue with the court’s refusal to grant
him additional time or funding to secure another expert after Dr. Brown was disqualified, which
he claims resulted in his inability to “make an adequate response to evidence solicited by the
state” and prevented him from submitting “psychiatric evidence as a counterweight to the report
filed by the court-appointed expert.” Id. at 952. He also objects to the court’s denial of his
request for funding to obtain brain scans, claiming that had the motion been granted, the scans
would have revealed—as he contends that his 2013 MRIs do now—that he was incompetent.

Case: 17-6024

Document: 55-2

No. 17-6024

9a

Filed: 07/01/2020

Page: 9

Hugueley v. Mays

But Hugueley’s arguments are unavailing for several reasons.

(11 of 19)

Page 9
Panetti, and its

predecessor case, Ford v. Wainwright, 477 U.S. 399 (1986), each considered a death-row
petitioner’s claim that he would be ineligible for execution because of his incompetency, not a
claim that he was incompetent to waive state post-conviction review. This is a distinction with
constitutional implications. “The Eighth Amendment prohibits the State from inflicting the
penalty of death upon a prisoner who is insane.” Id. at 410; see also Thompson v. Bell, 580 F.3d
423, 435 (6th Cir. 2009) (noting that the Eighth Amendment requires “that a prisoner must be
able to understand the impending execution and the reason for it”). The procedural safeguards
mandated by Panetti and Ford ensure that a petitioner will not be executed if he cannot fully
understand the reasons behind his execution. Thus, we have held that if there is “a genuine issue
about [a petitioner’s] competency” to understand his execution, then an evidentiary hearing is
“warrant[ed].” Thompson, 580 F.3d at 436.
A similar constitutional concern does not animate a claim that the petitioner is
incompetent to waive state post-conviction review.

“State collateral proceedings are not

constitutionally required as an adjunct to the state criminal proceedings and serve a different and
more limited purpose than either the trial or appeal.” Murray v. Giarratano, 492 U.S. 1, 10
(1989) (plurality opinion); see also Lackawanna Cty. Dist. Att’y v. Coss, 532 U.S. 394, 402
(2001) (noting that each state has created procedures for post-conviction review, “even though
there is no constitutional mandate that they do so”). States are under “no obligation” to establish
procedures for evaluating collateral attacks on a conviction because post-conviction proceedings
are “not part of the criminal proceeding itself” but are instead “civil in nature.” Pennsylvania v.
Finley, 481 U.S. 551, 557 (1987). It therefore follows that states are under no obligation to
provide a petitioner with his preferred procedural framework when evaluating his competency to
withdraw his post-conviction review.3

3This

conclusion does not preclude Hugueley from raising the issue of his competency to be executed at a
later time, because “[a] competency claim under Ford . . . does not become ripe until an execution date is set” and
“the limitation on second-or-successive habeas petitions does not apply, so long as the second-in-time petition is
filed as soon as it becomes ripe.” In re Campbell, 874 F.3d 454, 466 (6th Cir. 2017) (per curiam). However, it does
foreclose Hugueley’s argument that the state court’s dismissal of his post-conviction petition was not in accordance
with due process.

Case: 17-6024

Document: 55-2

No. 17-6024

10a

Filed: 07/01/2020

Hugueley v. Mays

Page: 10

(12 of 19)

Page 10

Importantly, even if Panetti did apply to Hugueley’s situation, there is no indication that
the post-conviction court failed to comply with its due-process requirements. Assuming that
Hugueley has made a substantial showing of his incompetence, due process required only that he
receive a fair hearing on the matter and an opportunity to be heard. See Panetti, 551 U.S. at 949;
Bedford v. Bobby, 645 F.3d 372, 380 (6th Cir. 2011) (per curiam). As noted earlier, the postconviction court held an evidentiary hearing to determine Hugueley’s competency, where Dr.
Seidner testified and was cross-examined. Indeed, the court noted that at the hearing, Dr.
Seidner’s conclusions and credentials were “vigorously challenged” and that he was “questioned
at length about his testing methodology.”

Hugueley also had the opportunity to submit

additional evidence after the hearing, and he supplemented the record with arguments for why
Dr. Seidner’s evaluation should not be relied upon.
Nevertheless, Hugueley argues that the court relied only on the opinion of Dr. Seidner—
the expert recommended by the state—and thus contravened Panetti’s prohibition against
competency determinations “made solely on the basis of the examinations performed by stateappointed psychiatrists.” Panetti, 551 U.S. at 949. However, when compared to the underlying
situation from Ford v. Wainwright that prompted this rule, Hugueley’s attempts to analogize fall
short. In Ford, the Supreme Court held that Florida’s procedure for evaluating the competency
of a condemned inmate violated due process. Under a state statute, the Governor of Florida
could appoint of a panel of three psychiatrists who would together evaluate the inmate at a single
meeting for thirty minutes. Ford, 477 U.S. at 403–04. Each doctor then filed a separate report
with the Governor, who would decide whether the execution would proceed by either signing or
refusing to sign the inmate’s death warrant. Id. at 404. The statute did not require a hearing of
any kind, any presentation of evidence from the prisoner, or any opportunity for the prisoner to
respond to the state-appointed psychiatrists’ conclusions. In short, there was no requirement that
the Governor “consider materials submitted by the prisoner,” thus depriving the prisoner of “an
opportunity to be heard.” Id. at 424 (Powell, J., concurring) (internal quotation marks and
citations omitted). The procedure therefore necessarily resulted in an evaluation of materials that
had only been prepared by the state.

Case: 17-6024

No. 17-6024

Document: 55-2

11a

Filed: 07/01/2020

Page: 11

Hugueley v. Mays

(13 of 19)

Page 11

In contrast to the situation in Ford, Hugueley was able to submit several pieces of
evidence for the post-conviction court’s consideration. He submitted his mental-health records,
and his social history and mitigation reports—which had been prepared for but were not
submitted at trial. He also submitted new affidavits from the two doctors who had examined him
previously. The court also provided Hugueley with ample opportunity to obtain an evaluation
from his preferred expert, Dr. Brown. Indeed, Dr. Brown was appointed in January of 2008 and
had over six months to evaluate Hugueley but had not even begun to do so by the time he was
disqualified. See Hugueley II, 2011 WL 2361824, at *26. Hugueley argues that it was the
court’s manner of setting short deadlines—requiring Hugueley’s counsel to request and receive
several extensions on Dr. Brown’s behalf—that prevented Dr. Brown from evaluating him. But
Dr. Hutson, the state’s preferred expert, was subject to the same procedures and was able to
finish his evaluation on time (although he was later disqualified for other reasons). Even after
Dr. Brown was disqualified, Hugueley was given an opportunity to secure another expert, but did
not do so. Put simply, Hugueley was not subject to a process that was unfair to him in any
material way. Any deficiency that ultimately resulted in Dr. Seidner being the only one to
evaluate Hugueley cannot be attributed to a due-process violation by the post-conviction court.
Nothing in Panetti and Ford adverts to the conclusion that a petitioner is entitled to the
procedure of his choice, or an expert of his choice in making the competency determination. As
such, we hold those cases cannot be a basis to invalidate Hugueley’s withdrawal of his postconviction petition.
B. Excuse of Procedural Default Under Martinez v. Ryan
Hugueley argues, in the alternative, that even if the ruling of procedural default was valid,
his procedural default of his ineffective-assistance-of-trial-counsel claim should be excused. In
support, he claims that his post-conviction counsel was ineffective in developing evidence of his
alleged incompetency, thereby causing the court to make an incorrect determination that he was
able to voluntarily withdraw his post-conviction review.
Hugueley’s argument relies on Martinez v. Ryan, which held that “a procedural default
will not bar a federal habeas court from hearing a substantial claim of ineffective assistance at
trial if, in the initial-review collateral proceeding, there was no counsel or counsel in that

Case: 17-6024

Document: 55-2

12a

No. 17-6024

Filed: 07/01/2020

Hugueley v. Mays

Page: 12

(14 of 19)

Page 12

proceeding was ineffective.” 566 U.S. at 17. Although the situation in Martinez involved a state
procedural framework that required prisoners to raise an ineffective-assistance-of-trial-counsel
claim for the first time on collateral review, the Supreme Court has since clarified that this
exception also applies where a state’s “procedural framework, by reason of its design and
operation, makes it unlikely in a typical case that a defendant will have a meaningful opportunity
to raise a claim of ineffective assistance of trial counsel on direct appeal[.]” Trevino v. Thaler,
569 U.S. 413, 429 (2013). For all intents and purposes, Martinez created a very “narrow
exception,” to the procedural-default bar, Martinez, 566 U.S. at 9, and “treats ineffective
assistance by a prisoner’s state postconviction counsel as cause to overcome the default of a
single claim—ineffective assistance of trial counsel—in a single context—where the State
effectively requires a defendant to bring that claim in state postconviction proceedings rather
than on direct appeal.” Davila, 137 S. Ct. at 2062. We have held that because Tennessee courts
advise prisoners to file ineffective-assistance-of-trial-counsel claims for the first time in postconviction proceedings, defendants in the state are “highly unlikely to have a meaningful
opportunity to raise a claim of ineffective assistance of trial counsel on direct appeal,” and thus
the Martinez exception applies in Tennessee. Sutton v. Carpenter, 745 F.3d 787, 792 (6th Cir.
2014).

However, to succeed on his claim, Hugueley must still demonstrate that the

ineffectiveness of his post-conviction counsel was the “cause” of his default, and that his
underlying ineffective-assistance-of-trial-counsel claim was “substantial.” Trevino, 569 U.S. at
423 (citing Martinez, 566 U.S. at 17).
Hugueley argues that Gleason’s performance was deficient and was therefore the “cause”
of his default because she failed to take certain actions to develop evidence of his alleged
incompetency. In support, he notes that several of Gleason’s motions for expert assistance were
denied because she failed to abide by a Tennessee Supreme Court rule that required counsel to
make “every effort” to obtain experts located within 150 miles of the court. See Hugueley II,
2011

WL

2361824,

at

*22.

Each

of

Gleason’s

proposed

neuropsychological,

psychopharmacology, and psychiatric experts was located outside of the geographic boundaries
set out by the rule and so the post-conviction court denied funding for them. Hugueley also
objects to Gleason’s inability to secure funding for brain-imaging scans. Although Gleason

Case: 17-6024

No. 17-6024

Document: 55-2

13a

Filed: 07/01/2020

Hugueley v. Mays

Page: 13

(15 of 19)

Page 13

ultimately filed two motions requesting such funding (both of which were denied), Hugueley
suggests that Gleason should have pushed the issue further.
We hold that Gleason’s performance was not a “cause” of Hugueley’s default because she
properly raised a claim of ineffective assistance of trial counsel in the state collateral
proceedings. Martinez and the cases that follow it indicate that the Supreme Court’s rationale in
creating the exception was the concern that deficient (or nonexistent) post-conviction counsel
would fail to ever raise a prisoner’s ineffective-assistance-of-trial-counsel claim, not a concern
that the claim would be raised but ultimately be underdeveloped.

Put another way, post-

conviction counsel’s failure to take all possible steps to fully develop a claim cannot be the
“cause” of a default as long as counsel properly raised the claim and made a good-faith effort in
presenting it.
Let us start with the basics: The nature of an ineffective-assistance-of-trial-counsel claim
is that it “normally requires a different attorney, because it often ‘depend[s] on evidence outside
the trial record[.]’” Trevino, 569 U.S. at 422 (citation omitted). Such a claim “generally cannot
be presented until after the termination of direct appeal” and thus “necessarily must be heard in
collateral proceedings.” Davila, 137 S. Ct. at 2068. Yet there is no constitutional right to
counsel in collateral proceedings, and so prisoners seeking to allege a violation of their
fundamental right to counsel at trial are often unrepresented. See ibid. This creates a situation in
which a prisoner who believes that he was provided inadequate counsel at trial, but who has no
counsel (or ineffective counsel) in collateral proceedings, might “fail[] to raise” the claim,
thereby “depriv[ing] a defendant of any review of that claim at all.” Trevino, 569 U.S. at 423;
see also Martinez, 566 U.S. at 7 (noting that Martinez was denied relief in state court “because
he failed to raise his claims in the first collateral proceeding”). Not excusing a procedural
default even though the failure to raise it was not attributable to the petitioner would render the
possible constitutional violation permanently unremedied. Thus, the problem that Martinez
identified (and hoped to remedy) was that “it would be inequitable to refuse to hear a defaulted
claim of ineffective assistance of trial counsel . . . where the prisoner might lack the assistance of
counsel in raising it.” Davila, 137 S. Ct. at 2068 (emphasis added); see also Trevino, 569 U.S. at

Case: 17-6024

No. 17-6024

Document: 55-2

14a

Filed: 07/01/2020

Page: 14

Hugueley v. Mays

(16 of 19)

Page 14

429 (noting that it was concerned with prisoners having a “meaningful opportunity to raise a
claim of ineffective assistance of trial counsel”).
Martinez and its progeny clearly establish that post-conviction counsel’s failure to raise a
substantial claim of ineffective-assistance-of-trial-counsel constitutes deficient performance.
However, because there is no right to counsel in post-conviction proceedings, a showing of
deficient performance for failure to take certain actions after the claim has been properly raised
is extremely difficult. A counsel’s performance is deficient only if she performed at a level
below that of “the ‘counsel’ guaranteed the defendant by the Sixth Amendment.” Strickland v.
Washington, 466 U.S. 668, 687 (1984). Since a petitioner has no Sixth Amendment right to
counsel in a post-conviction proceeding, it therefore follows that counsel cannot be ineffective
for not taking all possible steps to fully develop the claim that the petitioner wishes she had.
Here, it is undisputed that Gleason vigorously raised Hugueley’s ineffective-assistanceof-trial-counsel claim, including how trial counsel failed to properly litigate his competency to
stand trial or to waive the presentation of mitigating evidence. Starting in January 2007, Gleason
also spent several months exploring avenues for evidence in support of the claim, including
filing motions for experts and submitting Hugueley’s mental-health reports into the record.
When Hugueley first expressed a desire to withdraw his petition, Gleason also independently
raised her own concerns about his competency, and successfully demonstrated that a genuine
issue existed on that point. This resulted in the post-conviction court’s careful review of the
issue, and its appointment of Dr. Seidner. Throughout the process, Gleason also repeatedly
sought to obtain funding for expert services and brain-imaging scans on behalf of Hugueley and
apparently made several attempts to arrange Dr. Brown’s evaluation of him.
Even if Gleason had filed repetitive motions for additional expert assistance or brainimaging scans, there was no indication that the post-conviction court would have granted them.
And even if the motions were granted, there was no indication that additional experts or new
brain scans would have so obviously revealed Hugueley’s alleged incompetency that the postconviction court’s conclusion to the contrary was clearly incorrect. See Franklin v. Bradshaw,
695 F.3d 439, 447 (6th Cir. 2012) (“A state-court determination of competence is a factual
finding, to which deference must be paid.”); 28 U.S.C. § 2254(e)(1) (“[A] determination of a

Case: 17-6024

No. 17-6024

Document: 55-2

15a

Filed: 07/01/2020

Page: 15

Hugueley v. Mays

(17 of 19)

Page 15

factual issue made by a State court shall be presumed to be correct. The applicant shall have the
burden of rebutting the presumption of correctness by clear and convincing evidence.”). Every
mental-health expert who had evaluated Hugueley up to that point had determined that he was
competent, and upon granting Hugueley’s motion to withdraw his petition, the post-conviction
court remarked that “[i]t seems clear from petitioner’s statements that he not only understands
the ramifications of the choice he is making; but, clearly understands the legal process involved
in exercising such a choice.” The court further stated that Hugueley “appears particularly adept
at manipulating the system to suit his purpose. Thus, his choices appear both cogent and
rational.” Put simply, even if Gleason had pursued all possible avenues to further develop
evidence of Hugueley’s alleged incompetency, it is far from certain that any of the additional
steps that could have been taken would have resulted in a different ruling from the postconviction court.
The “equitable judgment” animating Martinez was that a state could “deliberately
choos[e] to move trial-ineffectiveness claims outside of the direct-appeal process, where counsel
is constitutionally guaranteed,’” into a proceeding where counsel was not guaranteed, thereby
“significantly diminish[ing] prisoners’ ability to file such claims.” Martinez, 566 U.S. at 13.
Such a concern is not present in situations such as Hugueley’s, where the claim is fully raised,
but defaulted due to the petitioner’s own choices. Despite Gleason’s efforts in raising and
attempting to present Hugueley’s ineffective-assistance-of-trial-counsel claim, the postconviction court was prevented from evaluating the claim because Hugueley chose to withdraw
his petition. Therefore, Martinez cannot provide a basis to excuse the default.4

4On

this appeal, Hugueley raises a new theory of relief that was never raised before: that his trial attorneys
were ineffective for failing to investigate whether he was competent when he was convicted of his prior violent
felonies, each of which was an aggravating factor that resulted in him receiving the death penalty. Hugueley argues
that the failure to raise this argument demonstrates a cause to excuse his procedural default. However, even if this
theory of relief was not raised in the state post-conviction proceedings, the vehicle through which Hugueley could
obtain relief through the theory—his ineffective-assistance-of-trial-counsel claim—unquestionably was. “Once a
federal claim is properly presented, a party can make any argument in support of that claim; parties are not limited to
the precise arguments they made below.” Yee v. City of Escondido, 503 U.S. 519, 534 (1992); see also Leonor v.
Provident Life & Accident Co., 790 F.3d 682, 687 (6th Cir. 2015) (“We have recognized a distinction between
failing to properly raise a claim before the district court and failing to make an argument in support of that claim.”).
Hugueley’s post-conviction counsel could not have been ineffective by not raising one theory of relief that could
have possibly underpinned his ineffective-assistance-of-trial-counsel claim. Holding that Hugueley’s postconviction counsel was ineffective on such a shaky basis would permit future petitioners seeking relief under

Case: 17-6024

No. 17-6024

Document: 55-2

16a

Filed: 07/01/2020

Hugueley v. Mays

Page: 16

(18 of 19)

Page 16

***
For the foregoing reasons, the denial of Hugueley’s habeas petition is AFFIRMED.

Martinez to take multiple bites at the apple, as they could simply argue that their post-conviction counsel did not
raise one (of possibly many) theories of relief in support of a traditional ineffective-assistance-of-trial-counsel claim.

Case: 17-6024

Document: 55-3

17a

Filed: 07/01/2020

Page: 1

(19 of 19)

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 17-6024

FILED

STEPHEN HUGUELEY,

Jul 01, 2020
DEBORAH S. HUNT, Clerk

Petitioner - Appellant,
v.
TONY MAYS, Warden,
Respondent - Appellee.

Before: BOGGS, GRIFFIN, and KETHLEDGE, Circuit Judges.

JUDGMENT
On Appeal from the United States District Court
for the Western District of Tennessee at Jackson.
THIS CAUSE was heard on the record from the district court and was submitted on the briefs
without oral argument.
IN CONSIDERATION THEREOF, it is ORDERED that the district court’s denial of Stephen
Hugueley’s petition for a writ of habeas corpus is AFFIRMED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: 17-6024

Document: 58-1

18a

Filed: 08/20/2020

Page: 1

No. 17-6024
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

STEPHEN HUGUELEY,

FILED

Aug 20, 2020
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
TONY MAYS, WARDEN,
Respondent-Appellee.

(1 of 2)

ORDER

BEFORE: BOGGS, GRIFFIN, and KETHLEDGE, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: 17-6024

Document: 58-2

19a

Filed: 08/20/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: August 20, 2020

Ms. Amy D. Harwell
Federal Public Defender's Office
810 Broadway
Suite 200
Nashville, TN 37203
Re: Case No. 17-6024, Stephen Hugueley v. Tony Mays
Originating Case No.: 1:09-cv-01181
Dear Ms. Harwell,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Beverly L. Harris
En Banc Coordinator
Direct Dial No. 513-564-7077
cc: Mr. John H. Bledsoe
Mr. Richard Davison Douglas
Dee R. Goolsby
Enclosure

(2 of 2)

20aFiled 08/03/17
Case 1:09-cv-01181-JDB-egb Document 144

Page 1 of 142

PagelD 7697

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
EASTERN DIVISION ·

STEPHEN HUGUELEY,
Petitioner,
vs.
BRUCE WESTBROOKS, Warden,
Riverbend Maximum Security
Institution,
Respondent.

)
)
)
)
)
)
)
)
)
)
)

No. 09-1181-JDB-egb

)
)

ORDER DIRECTING CLERK TO CHANGE RESPONDENT,
GRANTING RESPONDENT'S MOTION FOR SUMMARY JUDGMENT,
DENYING PETITION PURSUANT TO 28 U.S.C. § 2254,
GRANTING A LIMITED CERTIFICATE OF APPEALABILITY,
AND CERTIFYING THAT AN APPEAL WOULD BE TAKEN IN GOOD FAITH

Contents
I.
STATE COURT PROCEDURAL HISTORY ........................................................................ 1
II. FEDERAL COURT PROCEDURAL HISTORY ................................................................ 11
III. FACTUAL BACKGROUND ............................................................................................... 13
IV. HUGUELEY'S FEDERAL HABEAS CLAIMS ................................................................. 16
V. RESPONDENT'S MOTION TO DISMISS ......................................................................... 18
VI. STATUTE OF LIMITATIONS ............................................................................................ 19
A.
Ineffective Assistance - Investigation, Preparation & Penalty Phase (Claims 1(1-4) &
K(l & 3)) ................................................................................................................................... 22
B.

Ineffective Assistance of Appellate Counsel (Claim L(l)) ............................................ 26

C.

Ineffective Assistance - Hugueley's Prior Convictions (Claims 1(5), K(2) & L(2)) ... 27

VIL THE LEGAL STANDARD .................................................................................................. 31
A.
Merits Review under § 2254 .......................................................................................... 31
B.

Waiver and Procedural Default ...................................................................................... 33

C.

Summary Judgment Standard ......................................................................................... 35

21a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 2 of 142

PagelD 7698

VIII.ANALYSIS ........................................................................................................................... 36
A.
Batson ............................................................................................................................. 37
I.

Procedural Default - Hudson, Gibbs & Pirtle ............................................................ 37

2.

The Exhausted Batson Claim ..................................................................................... 42

B.

Peremptory Challenges Based on Gender ...................................................................... 62

C.

Prospective Juror Barry Watkins .................................................................................... 64

D.

Insufficient Evidence of Aggravating Circumstances .................................................... 75

E.

Jury Instruction on the Aggravating Circumstance of Killing A Correctional Employee
81
1.

Plain Error Review & Procedural Default .................................................................. 82

2.

Merits .......................................................................................................................... 84

F.

Waiver of Mitigation Evidence ...................................................................................... 91

G.

Weighing of Aggravating & Mitigating Circumstances ................................................ 98

H.

Death is a Disproportionate Penalty ............................................................................. 100

I.

Ineffective Assistance of Counsel - Investigation, Preparation & Penalty Phase Defense

(Claims I & K) ........................................................................................................................ I 05
1.

The Strickland Standard ........................................................................................... I 07

2.

Procedural Default .................................................................................................... 108

3.

Merits ........................................................................................................................ 127

J.

Ineffective Assistance of Counsel - Jury Selection (Claim J) ..................................... 135

K.

Ineffective Assistance of Counsel - Direct Appeal (Claim L) ..................................... 136
11

22a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 3 of 142

PagelD 7699

IX. CONCLUSION ................................................................................................................... 137
X. APPEAL ISSUES ............................................................................................................... 138

lll

23aFiled 08/03/17 Page 4 of 142
Case 1:09-cv-01181-JDB-egb Document 144

PagelD 7700

In 2002, while Petitioner, Stephen Hugueley, was incarcerated at the Hardeman County
Correctional Facility ("HCCF") on two murder convictions and one attempted murder conviction,
he stabbed corrections counselor Delbert Steed multiple times killing him.

Hugueley was

convicted of first degree premeditated murder and sentenced to death for Steed's murder. State v.

Hugueley, 185 S.W.3d 356, 363 (Tenn. 2006). He now seeks federal habeas relief. For the
reasons addressed below, summary judgment is GRANTED, and Hugueley's habeas petition is
DENIED.
I.

ST ATE COURT PROCEDURAL HISTORY

The trial in Hugueley's case was held on September 15-16, 2003, before Judge Jon Kerry
Blackwood in the Circuit Court of Hardeman County, Tennessee. (See ECF No. 41-2 at PageID
369.) Hugueley was represented by Michie Gibson and T. J. Cross-Jones.

(Id.)

Assistant

District Attorneys General ("ADA") Terry Dycus and Colin Campbell represented the State. (Id.)
In the guilt phase, the State presented the testimony of six witnesses: Judy Ranne, Mary
Harris, Donald Watkins, Joseph "Joe" Vernon, Don Dunaway, and Dr. O'Brien Clary Smith.

(See ECF No. 41-4 at PageID 586-87.) The defense called two witnesses: Hugueley and Howard
Cook. (See id. at PageID 588.) On September 16, 2003, at 11:33 a.m. the jury retired for
deliberations. (Id. at PageID 679.) At noon, the jury returned with a verdict finding Hugueley
guilty of first degree murder. (Id. at PageID 682.)
The penalty phase began that afternoon, and the State presented the testimony of Vernon,
Dunaway, Smith, and Willie Leroy Steed.
September 16, 2003.

(Id. at PageID 588-89.)

(ECF No. 41-5 at PageID 729.)

The State rested on

Hugueley decided not to present a

mitigation case, however, defense counsel asked that Hugueley's social history be made an exhibit

24aFiled 08/03/17
Case 1:09-cv-01181-JDB-egb Document 144

Page 5 of 142

PagelD 7701

to the record to show that a mitigation investigation was conducted. (Id. at PagelD 730.) The
jury heard closing arguments, were given the jury instructions, and retired for deliberations at 3: 13
p.m. (Id. at PageID 738.) The jury returned to court at 4:07 p.m. with the pronouncement of a
death sentence. (Id.)
Hugueley did not want to appeal. (See id. at PagelD 749-50.) Nonetheless, the trial court
advised him that the Tennessee Supreme Court ("TSC") will automatically review his conviction.
(Id. at PageID 745-46, 750.) Petitioner was told that a motion for new trial was filed to initiate the

appellate process. (Id. at PageID 746.) The trial court informed him of his right to an appeal and
assured that Hugueley had not been coerced into a decision to waive his appeal rights. (Id. at
PageID 749-50, 752.) The record states,
Hugueley is one of the more intelligent individuals that I've come across. He does
not display any signs of mental illness or any mental defect. He appears to know
exactly what he wants and he appears to understand his rights as well as any
criminal defendant that I've ever dealt with.
(Id. at PagelD 755.) The inmate said, "I'm still sane." (Id.) The court allowed Hugueley to

withdraw his motion for new trial and relieved his attorneys of the obligation to file a notice of
appeal on his behalf. (Id. at PageID 750.)
On January 13, 2004, a hearing was conducted concerning Hugueley's appeal rights. (See
id. at PageID 756.) The court summarized what had occurred previously and noted that it had

consulted with capital case attorneys about how to proceed since the appeal would take place
regardless of Petitioner's attempts to waive his appeal rights. (Id. at PageID 756-59.) Gibson
was appointed as counsel and the motion for new trial was overruled. (Id. at PageID 759; see ECF
No. 41-1 at PageID 354.) The trial court noted that Hugueley wrote a letter stating he did not
2

25a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 6 of 142

PagelD 7702

want Gibson to proceed with an appeal, did not desire to have an appeal, and that any work done by
the attorney to further an appeal would be against Hugueley's wishes. (Id. at PageID 360; see
ECF No. 41-5 at PageID 759-60.)

If the appeal was mandatory, the inmate wanted to represent himself. (Id. at PageID
760-61.) The trial court examined Hugueley to present a clear record to the TSC. (Id. at PageID
761-65.) Gibson was discharged as counsel, and the court arranged for Hugueley to obtain the
transcripts and records needed to represent himself on appeal. (Id. at PageID 765-68; see ECF
No. 41-1 at PageID 364-65.)
On March 17, 2005, t]le Tennessee Court of Criminal Appeals ("TCCA") affirmed
Hugueley's conviction and death sentence. (ECF No. 41-12 at PagelD 1380.) See State v.

Hugueley, No. W2004-00057-CCA-R3-CD, 2005 WL 645179 (Tenn. Crim. App. Mar. 17, 2005).
On March 15, 2006, the TSC affirmed. (ECF No. 41-15 at PagelD 1503.) State v. Hugueley,
185 S.W.3d 356 (Tenn. 2006).
On July 24, 2006, Petitioner filed a Pro Se Petition for Relief From Conviction or
Sentence.

(ECF No. 42-1 at PageID 1547-55.)

On July 21, 2006, the Office of the

Post-Conviction Defender ("PCD") was appointed as counsel for him. (Id. at PageID 1557.) On
October 5, 2006, Hugueley submitted a petition for an "Order barring attorney Kelly Gleason and
the Post-Conviction Defender's Office from raising ANY issues other than those issues raised on
his Direct Appeal." (Id. at PageID 1561-63.) On October 13, 2006, the State filed a motion to
dismiss Hugueley's petition, arguing that only raising the issues that had been previously
determined on direct appeal amounted to a waiver of the grounds for post-conviction relief
available under Tenn. Code Ann. § 40-30-101, et seq. (Id. at PagelD 1564.) On October 19,
3

26a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17

Page 7 of 142

PagelD 7703

2006, Hugueley's counsel responded to the State's motion, argued that he had represented that his
counsel can "raise any claims without limitation," and requested that the motion to dismiss be
denied. (Id. at PageID 1583-85.) 1
At a motion hearing on November 3, 2006, the court addressed Hugueley's prose motions.
(ECF No. 42-13 at PagelD 2992.)

Petitioner's counsel expressed concerns about Hugueley

addressing the issues raised in the pro se motions because of: his lack of sleep; unhappiness about
being transported to court; physical ailments; not "feeling very good today"; "his mental state in
terms of how he feels about being here"; and his "emotional state [which] depends upon, ... his
conditions of confinement, his personal situation and particularly with his girlfriend." (Id. at
PageID 2998-3004.) Hugueley was argumentative with the judge stating,
No. Fuck you and your questions.

I waived my right to be at this hearing. Don't want to be here. Want to be
back at the prison. I got better things to do with my time than be in this fucking
courthouse.
(Id. at PageID 3010-11.) The imnate initially refused to answer questions about whether he
wanted to represent himself. (Id. at PageID 3011-13.) He stated that he did not "want them
raising mental health and all that crap unless they've got to go through me to get my permission to
do so first."

(Id. at PageID 3016.)

Hugueley wanted to control his case.

(Id. at PageID

3016-17.)

1

Counsel stated that "Hugueley's intentions and pronouncements shift radically
depending upon his conditions of confinement, personal situation, and mental state." (ECF No.
42-1 atPageID 1585.)
4

27a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 8 of 142

PagelD 7704

On December 6, 2006, Petitioner sent the court a handwritten letter stating that he wanted
his post-conviction petition dismissed. (See ECF No. 42-4 at PageID 2104; see ECF No. 131-7 at
PageID 7441-43.) His counsel filed an Amended Petition for Post-Conviction Relief on January
3, 2007, and a motion for an extension of time to file an amended petition and for a continuance of
the January 29, 2007 hearing. (ECF No. 42-1 at PageID 1622; see ECF No. 42-4 at PageID
2111.)
At a hearing on January 10, 2007, the court addressed the pending motions, Hugueley's
letter, and his counsel's concerns about his competency. (See id. at PageID 2104; see ECF No.
42-14.) The inmate wanted to dismiss the post-conviction petition and refused further mental
health evaluations.

(Id. at PageID 3052-55.)

His attorney expressed concerns about his

competency because of "a very lengthy history of head trauma and ... brain surgery to remove a
brain tumor," tremors in his hand that could be related to brain trauma, neuropsychological testing
consistent with damage to the right side of his brain, impulsivity, and a long history of mental
illnesses and treatment with antipsychotic medication. (Id. at PageID 3055-58.)2 Hugueley was
not on psychotropic medication at the time of the hearing. (Id. at PageID 3061.) He was not
being forced and not promised anything to withdraw his petition. (Id.) Hugueley stated that he
only agreed to sign the petition for post-conviction relief because he was not going to be allowed
visitors while on death watch; he no longer wished to pursue the petition now that his visitation

2

On October 31, 1986, Hugueley was admitted to the Tennessee State Prison hospital and
See Hugueley v. State, No.
had surgery to remove a right frontal brain tumor.
W2009-00271-CCA-R3-PD, 2011 WL 2361824 (Tenn. Crim. App. June 8, 2011) 2361824, at
*12-13.
5

28aFiled 08/03/17
Case 1:09-cv-01181-JDB-egb Document 144

Page 9 of 142

PagelD 7705

problem was resolved. (Id. at PagelD 3062-63.) He did not want to be represented by the PCD
or other counsel. (Id. at PageID 3063-64.)
In an order dated January 16, 2007, the post-conviction court found that "a genuine issue as
to Hugueley's competency had been raised by post-conviction counsel" and determined that
Hugueley's competency be evaluated before he be allowed to withdraw his post-conviction
petition. (ECF No. 42-4 at PageID 2106-08.) The court denied the motion for a continuance.
(Id. at PageID 2107-08.)3
Petitioner was granted permission to appeal the Court's order denying the motion for a
continuance. (Id. at PageID 2109-14.) On January 25, 2007, the TCCA stayed proceedings in
the trial court pending the interlocutory appeal. (Id. at PagelD 2123-24.) The State filed an
answer to the amended petition on January 26, 2007. (Id. at PageID 2117-20.) On June 12,
2007, the TCCA denied the application for interlocutory appeal and vacated the stay of
proceedings. (Id. at PageID 2125-27.)
On June 22, 2007, Hugueley wrote a letter to Judge Weber McCraw stating "I still DO
NOT wish to proceed with a post-conviction appeal[,] therefore please keep that in mind for the
next hearing you schedule in my case." (ECF No. 131-14 at PageID 7464; ECF No. 42-4 at
PageID 2128.) Hugueley sent a handwritten document to ADA Dycus, which he also provided to
the court, to make them "aware of facts which his [a]ppointed [c]ounsel Ms. Kelly Gleason failed
to mention in her petition" including that he gave permission to file the post-conviction petition to

3

Hugueley contacted his counsel the following day, January 17, 2007, deciding that he
wanted to go forward with his post-conviction petition under certain conditions. (See ECF No.
131-9 at PageID 7446-47.)
6

29aFiled 08/03/17
Case 1:09-cv-01181-JDB-egb Document 144

Page 10 of 142

PagelD 7706

stall for time to resolve issues with his visitation while on "death watch." (Id. at PageID 2130-31;
see ECF No. 42-5 at PageID 2175.) Hugueley sought to gain control of his case because the PCD

"feel[s] that the[y] can file in court saying what they want about anything in my life without
talking to me about. it or giving me the option of whether it is filed or not." (ECF No. 42-4 at
PageID 2131.)
After the visitation problem was resolved, the inmate no longer wanted to pursue
post-conviction relief. (Id. at PageID 2131-32.) He disputed his attorney's representation that
he changed his mind based on his mood and asserted that he told Gleason what he planned to do in
July 2006. (Id. at PagelD 2132.) Hugueley disagreed with Gleason's statem_ent that he sustained
a head injury in a motorcycle accident. (Id. at PageID 2134.)
Hugueley stated that he "should NOT have to go through any type of Mental Health
evaluation" since he never signed the petition, and it was filed without his consent. (Id. at PageID
2123.) He wanted to rely on the 2003 mental evaluation and stated "I will NOT take any more
test[s] .... " (Id. at PageID 2134.)
At a hearing on August 29, 2007, Hugueley again expressed a desire to withdraw his
petition, and his counsel asserted that he was incompetent to do so. (See ECF No. 42-5 at PageID
2176-78.)

Gleason noted inconsistencies with her client's desire to proceed with the

post-conviction petition; an incident in March 2007, where he smeared feces on the walls of his
cell (purportedly as a form of protest); the termination of his engagement; and depression. (Id. at
PagelD 2177-78; see ECF No. 131-11 at PageID 7454-56 (mental health referral related to
smearing feces and "saying that[']s the way he is going to live from now on"); see also ECF No.
131-13 at PagelD 7460-62 ("gone 'cave man' again").) Gleason did not present witnesses to

7

30aFiled 08/03/17 Page 11 of 142
Case 1:09-cv-01181-JDB-egb Document 144

PagelD 7707

support her claims of Hugueley's incompetence, but she entered on the record a social history and
mitigation report, a notebook about his history of mental illness, and reports and affidavits from
neuropsychologist Pam Auble and psychologist Keith Caruso. (See ECF No. 42-5 at PageID
2178-79.)
On December 3, 2007, the court entered an order addressing Hugueley's desire to
withdraw his post-conviction petition, his competency, and counsel's representations that her
client wished to proceed. (Id. at PageID 2168-95.) The court found that "there is in fact a
genuine issue regarding petitioner's competency to withdraw his post conviction petition." (Id. at
PageID 2169, 2192.) The court ordered the parties to submit a list of mental health professionals
to evaluate Hugueley's competency. (Id. at PageID 2194-95.) Further, the court stated that, if
the inmate decided he wanted to proceed, he should inform the court and that decision would be
final. (/d.)
On January 23, 2008, the court entered an order appointing John Hutson and Peter Brown,
the parties' proffered mental health professionals, to evaluate Hugueley.

(ECF No. 42-5 at

PageID 2273-79.) The court further stated,
should petitioner refuse to participate in the ordered mental health evaluations, then
this court will proceed with post conviction review. Such failure to cooperate can
only be viewed by this court as either a statement by petitioner that he wishes to
proceed with post conviction review or as evidence that he is not competent to
waive post conviction review. Moreover, once a decision to proceed has been
made, the court will not entertain further motions by petitioner to waive post
conviction review. Thus, this court advises petitioner to participate in the
evaluations. His cooperation in these matters is the clearest path to achieving his
stated goals of waiving post conviction review and terminating further proceedings
in this matter.

8

31a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 12 of 142

PagelD 7708

(Id. at PageID 2278.) The parties had until March 6, 2008, to complete their evaluations. (Id. at

PageID 2283.) In an order entered May 19, 2008, the court granted additional time until June 30,
2008, for Brown's evaluation. (Id. at PagelD 2324.)
On May 28, 2008, Hugueley filed a document complaining about the mental health
evaluations, the waste of taxpayers' dollars, and the judge's inexperience with capital cases; he
refused to meet with Brown and again stated that he did not want post-conviction review. (ECF
No. 42-6 at PageID 2329-34.)
On June 30, 2008, the court received a letter from Petitioner that he wanted the PCD
removed from his case and be allowed to represent himself. (ECF No. 42-7 at PageID 2512.) He
noted that he had been declared competent by every mental health professional who had evaluated
him since 2003, including Hutson's evaluation on February 29, 2008. (Id. at PageID 2512-13.)
Hugueley stated that he did not want the PCD to appeal his case further. (Id. at PageID 2514,
2521-22.)
On July 24, 2008, the court noted that Brown had not evaluated Hugueley and that "it
cannot trust that Dr. Brown will be able to expeditiously perform an evaluation of petitioner."
(Id. at PageID 2564.)

The court ordered counsel to provide a new list of mental health

professionals for Hugueley's competency evaluation by July 29, 2008. (Id. at PageID 2568.)
On July 28, 2008, the inmate filed a motion to remove appointed counsel and to represent
himself which stated that he would withdraw the post-conviction petition after counsel had been
removed. (Id. at PageID 2520-26.)
On August 1, 2008, the trial court appointed Bruce Seidner to evaluate Hugueley. (Id. at
PageID 2569, 2573-74.) Seidner's report was filed on or about November 14, 2008, and a hearing
9

32a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 13 of 142

was held.

(See id. at PagelD 2595-2613; see ECF No. 42-12.)

PagelD 7709

Seidner testified that he

interviewed Hugueley for mental status and that Hugueley had been "reticent to do further
testing," believed there was sufficient testing in the record, and asserted that his competence had
never been an issue. (Id. at PageID 2872.)
Petitioner agreed to psychological testing in a "no contact visit"; a personality test using
the Personal Assessment Inventory (P Al), a malingering test called the Validity Indicator Profile
(VIP), the Wisconsin Card Sort test, which tests for cognitive ability and rational processes, and
the Wechsler Adult Intelligence Scale IQ test. (Id. at PageID 2873, 2914-15, 2920.) Hugueley
presented "as really quite capable" with an IQ in the high average range; he was fully oriented and
did not appear to be struggling with major depression. (Id. at PageID 2873.) Seidner testified
that the inmate talked about "his self responsibility and his self interests" and noted that there was
"no condition that I can find that affects his thinking process or the consequences of that." (Id.)
Seidner found no impairment to Hugueley's capacity.

(Id.)

Seidner read Pamela Auble's

findings and testified that "there was nothing that questioned his capacity from her findings and
there was a psychiatrist as well from his psychiatric perspective that did not question [Hugueley's]
capacity in 2003." (Id. at PageID 2880.) Hugueley performed better on these tests than any
previous tests and explained that he had been repressing his actual ability in previous tests. (Id. at
PageID 2912.)

4

4

In addition to finding Hugueley competent, Seidner noted his high verbal IQ of 127 in the
superior range of intelligence and that there was no evidence of mood disorder, depression,
excessive guilt, internalizing, flight ideas, excessive externalization, delusions, thought blocking,
hallucinations, thinking disorder, or neurological defects. (ECF No. 42-8 at PageID 2713-14.)
10

33aFiled 08/03/17
Case 1:09-cv-01181-JDB-egb Document 144

Page 14 of 142

PagelD 7710

On January 8, 2009, the court dismissed the post-conviction petition. (ECF No. 42-8 at
PageID 2688-2749.)

Seidner concluded that Hugueley was competent to withdraw his

post-conviction petition and waive further post-conviction review, and the court found that
counsel had failed to demonstrate, by clear and convincing evidence, that Hugueley lacked the
competence required to withdraw his post-conviction petition and forego further review of his
claims. (Id. at PageID 2713, 2749.)
On February 9, 2009, Petitioner appealed. (Id. at PageID 2754.) On June 8, 2011, the
TCCA affirmed the judgment of the post-conviction court. (ECF No. 43-9 at PagelD 4148-98.)
See Hugueley, 2011 WL 2361824, at *44. Hugueley filed a petition for rehearing, which the

TCCA denied on July 27, 2011. (ECF Nos. 43-10 & 43-11.)
On or about September 26, 2011, Hugueley filed an application for permission to appeal to
the TSC.

(ECF No. 43-12 at PageID 4339.) On December 13, 2011, the TSC denied the

application. (ECF No. 43-13 at PageID 4341.)

II.

FEDERAL COURT PROCEDURAL HISTORY
On August 20, 2009, Hugueley filed a prose petition for writ of habeas corpus pursuant to

28 U.S.C. § 2254 and motions for leave to proceed in forma pauperis and to appoint counsel.
(Electronic Case Filing ("ECF") Nos. 1-3.) On August 27, 2009, the Court granted his motions
and directed the Clerk to serve the habeas petition. (See ECF No. 4.)
On October 29, 2009, the inmate filed a motion to stay proceedings. (ECF No. 10.) The
case was stayed and administratively closed pending the completion of state court post-conviction
proceedings. (ECF No. 11.) On February 26, 2013, the stay was lifted, and the case reopened.
(ECF No. 23.)

11

34aFiled 08/03/17 Page 15 of 142
Case 1:09-cv-01181-JDB-egb Document 144

PagelD 7711

On March 19, 2013, Hugueley moved for leave to amend his petition to assert ineffective
assistance of trial and appellate counsel claims. (ECF No. 27 at PagelD 88-113.) On March 22,
2013, he filed a corrected motion. (ECF No. 29.) The Court granted the motion in part and
required Hugueley to file an amended petition. (See ECF No. 52 at PagelD 4433.)
On July 9, 2013, Respondent5 filed the state court record. (ECF Nos. 41-43.) On August
30, 2013, Petitioner filed the Petition Amended As Ordered By the Comt, and on November 8,
2013, he submitted the Second Petition Amended As Ordered By the Court ("Second Amended
Petition"). (ECF Nos. 53 & 58.) On February 12, 2014, Respondent filed an Answer to the
Second Amended Petition. (ECF No. 78) On March 14, 2014, Hugueley filed a reply. (ECF
No. 81.)
On February 2, 201"5, Warden Westbrook moved to dismiss Claims I, J, and K or to
prohibit Hugueley's reliance on undisclosed facts or evidence to support those claims. (ECF No.
110.) On February 3, 2015, Hugueley filed a response. (ECF No. 111.) On April 16, 2015, the
Court denied Respondent's motion to dismiss and directed the parties to confer in good faith about
the discovery dispute that was the basis for the motion. (ECF No. 119.) The parties presented a
joint status report addressing the dispute and agreeing to go forward. (ECF No. 122 at PageID
5509-10.)

5

The proper respondent to a habeas petition is the petitioner's custodian. Rumsfeld v.
Padilla, 542 U.S. 426, 434-35 (2004). Hugueley is currently incarcerated at Riverbend Maximum
Security Institution ("RMSI") where Bruce Westbrooks is the warden. See Tennessee Felony
Offender Information Lookup, https://apps.tn.gov/foil/search.jsp (last visited Apr. 4, 2017); see
Tennessee Department of Correction, http://www.tn.gov/correction/institutions/rmsi.html (last
visited Apr. 4, 2017). The Clerk shall record the respondent as RMSI Warden Bruce Westbrooks
and terminate all references to Wayne Carpenter.
12

35aFiled 08/03/17
Case 1:09-cv-01181-JDB-egb Document 144

Page 16 of 142

PagelD 7712

Respondent filed a motion for summary judgment on March 16, 2015. (ECF No. 112.)
On June 19, 2015, the inmate responded to the motion with multiple attachments. (ECF Nos.
127-132.) On October 5, 2015, Respondent filed a reply. (ECF No. 137.)
III.

FACTUAL BACKGROUND

The TSC summarized the evidence presented at trial as follows:
The evidence adduced at Defendant's trial established that, on January 17,
2002, Defendant was an inmate at the Hardeman County Correctional Facility,
where he was housed in the "F" pod. That day, correctional counselor Delbert
Steed entered the "F" pod in order to counsel imnates. Mr. Steed was sitting at a
table when Defendant approached from behind and began stabbing Mr. Steed with
a homemade weapon. Defendant stabbed Mr. Steed a total of thirty-six times.
Defendant did not cease stabbing the victim until the handle of his homemade
weapon broke off. Once Defendant was unable to continue using his weapon, he lay
down on the floor of the pod and permitted other correctional officers to restrain
and remove him. The victim was recovered with the sharpened portion of the
weapon still embedded in his back, and he was transported to the infirmary.
Mary Harris testified that she was working in the control room from which
she could view the activity occurring in the pod. She observed Defendant approach
the victim from behind and begin stabbing him. Upon witnessing Defendant's
attack on Mr. Steed, she called for assistance. Another female officer opened the
door to the pod and told Defendant to stop. At that, Defendant rose and started
toward the officer "with the knife drawn back like he was going to stab her." The
officer closed the door, and Defendant returned to the victim, recommencing his
attack. Ms. Harris testified further that Officer Donald Watkins entered the pod and
told Defendant to stop. According to Ms. Harris, Defendant stabbed the victim once
or twice more and then stopped when the handle on the weapon broke. At that
point, Defendant allowed himself to be taken into custody.
Donald Watkins testified that he is a Senior Correctional Officer at the
Hardeman County Correctional Facility. He responded to Ms. Harris' call for
assistance. As he looked through the door into the pod, he saw Defendant kneeling
down next to the victim. When he saw Defendant stab the victim with a homemade
weapon, he entered the pod shouting, "Drop your weapon! Drop your weapon!"
Mr. Watkins stated that Defendant complied immediately and lay face down on the
floor. Mr. Watkins called for medical assistance, and when he heard the victim
making a groaning noise "like he was in pain," Mr. Watkins tried to reassure the
victim that help was coming.
13

36a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17

Page 17 of 142

PagelD 7713

Pursuant to his employment by the Tennessee Department of Correction as
an Internal Affairs Investigator, Mr. Joseph Vernon reported to the crime scene
where he collected evidence and took photographs. Mr. Vernon was present when
the murder weapon was removed from Mr. Steed's body. He described the weapon
as a "quarter inch rod that ha[ d] been sharpened to a very fine point" on one end.
Mr. Vernon stated that the point was "razor sharp." The weapon measured
approximately eleven inches long. The handle of the weapon was a "Magic
Marker" pen.
Mr. Don Dunaway, also an Internal Affairs Investigator with the Tennessee
Department of Correction, interviewed Defendant after the killing. After being
informed of his rights and agreeing to waive them, Defendant gave Mr. Dunaway a
lengthy statement in which he described his intense dislike of the victim. Mr.
Dunaway testified about the statement. Additionally, an audio tape of Defendant's
statement was played for the jury, and a transcript of the tape was provided.
:Qefendant described numerous conflicts and confrontations that he had had with
Mr. Steed in his capacity as a correctional officer. Defendant claimed that Mr.
Steed had threatened to write him up and told Defendant that he was "friends with
these gangs around here! They like me! They love me! ... you ain't nothing!"
Defendant killed the victim on a Thursday. Defendant told Mr. Dunaway
that he began thinking about killing the victim on the previous Monday. On that
day, he got his weapon but then decided to "just ... leave it alone." Defendant
described to Mr. Dunaway what then occurred on Thursday, while Mr. Steed was in
the pod:
I started to walk up and say something to him, and one of the little gang
members that he talked to a lot there, run up and set down at the table and
started talkin' to him. And I stood over to the side for a few minutes, and he
looked at me, and he just shook his head ... just turned around and faced the
other direction. And I said, "F[-]k this!" And I went to the house, and got my
damn knife and packed my property up real quick ... throwed my s[-]t in a
box and un-done my TV, and set it over to the side, and went and killed his
ass! It was that plain and simple.
Defendant admitted to Mr. Dunaway that he intended to kill the victim by
stabbing "the most vital organs first ... the heart and the lung."
Mr. Dunaway testified that in May of 2003, Defendant wrote a letter to the
district attorney. Mr. Dunaway obtained this letter and subsequently verified with
Defendant that he had written and signed it. This letter was admitted into evidence
and states, in pertinent part, the following: "I did with malicious intent
14

37a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 18 of 142· PagelD 7714

premeditatedly murder Delbert Steed, and as indicated in my statement to Internal
Affairs, I have no regret or remorse for this crime and I fully intended to kill others
that day but was unable to do so because the handle on my weapon broke."
Dr. O'Brian Clary Smith testified as an expert in the field of forensic
pathology about the autopsy to the victim. Dr. Smith removed the murder weapon
from the victim's back. He stated that the victim's cause of death was "[m]ultiple
stab wounds, thirty-six." Twelve of these wounds were lethal. Dr. Smith testified
that there were ten wounds to the victim's chest area, three of which were fatal.
There were fourteen wounds to the victim's back area, nine of which were fatal.
Additionally, there was one wound to the victim's abdomen and eleven wounds to
the victim's left arm.
Defendant testified at trial. He stated about his attack on the victim:

I was stabbing Counselor Steed. He was laying on the floor, stomach down. I
was trying to drive it plumb through and hit the concrete below him. That was
my intentions. I heard the door pop behind me. I turned around and it was the
Watkins guy that testified yesterday, and a little girl named Perry. When I
seen them, I took one and a half steps toward them. At that time, I still had the
weapon in my hand. And they said, "He's got a knife," and slammed the
door.
And they stood outside the door while I stabbed the man while he was laying
on the floor, face down, I stabbed him about eight more times trying to run it
plumb through him. They didn't come in until when I drawed back going to
hit him again, I didn't see nothing but a piece of pen, Magic Marker sticking
out of my hand ....
At that point, Defendant threw the weapon handle away and lay down on
the floor. Defendant also testified about a grievance he had filed in which he set
forth various complaints about the victim and the victim's supervisor. He explained
that he had made numerous cell change requests and requests to be placed in the
anger management program, "all in an effort to get away from Counselor Steed"
and the unit manager. Defendant stated that the victim "had a smart ass mouth"
which was the source of their "problem." Defendant continued: "He had a habit of
shooting his mouth off to inmates, threatening them, and I wasn't going to stand for
it in any way, shape or form."
On cross-examination, Defendant stated, "In the world I live in, you die for
disrespect. It should apply to both employee and inmate." He explained that he had
made the murder weapon from a piece of metal removed from a laundry cart. He
used sandpaper from a belt sander to sharpen the point. He stated that he would not
15

38aFiled 08/03/17 Page 19 of 142
Case 1:09-cv-01181-JDB-egb Document 144

PagelD 7715

have quit stabbing the victim if the handle of the weapon had not broken off. He
admitted that he aimed for the victim's vital organs.
Defendant acknowledged that his actions in killing the victim were both
intentional and premeditated. He also acknowledged that during his conversations
with defense counsel he had consistently maintained that he wanted the death
penalty.
Upon considering this proof, the jury returned a verdict of guilty on
Defendant's charge of first degree premeditated murder.

Hugueley, 185 S.W.3d at 363-66.
The State argued the following four aggravating circumstances in the penalty phase:
(1) Defendant was previously convicted of one or more felonies whose statutory
elements involved the use of violence to the person;
(2) the murder was especially heinous, atrocious, or cruel in that it involved torture
or serious physical abuse beyond that necessary to produce death;
(3) Defendant committed the murder while he was in a place of lawful
confinement; and
(4) the victim was a corrections employee.

Id. at 363, 367; see Tenn. Code Ann. § 39-13-204(i)(2), (5), (8), (9) (Supp. 1999). The jury
determined that the aggravating circumstances outweighed the mitigating circumstances beyond a
reasonable doubt. Hugueley, 185 S.W.3d at 363,367.

IV.

HUGUELEY'S FEDERAL HABEAS CLAIMS
Hugueley alleges that his Sixth, Eighth and Fourteenth Amendment rights were violated

when:
A.
The State exercised peremptory challenges on the basis of race in violation
of the dictates of Batson v. Kentucky, 476 U.S. 79 (1986).

16

39aFiled 08/03/17 Page 20 of 142
Case 1:09-cv-01181-JDB-egb Document 144

PagelD 7716

B.
The State exercised peremptory challenges against female jurors on the
basis of their gender in violation of J.E.B. v. Alabama ex rel. T.B., 511 U.S. 127,
129 (1994).
C.
The trial comt erred in refusing to dismiss for cause potential juror Barry
Watkins, whose brother worked at the prison where the murder occurred and who
Mr. Watkins knew was a potential witness for the prosecution.
D.
The evidence was insufficient to support the jury's finding of the
aggravating circumstances.
E.
The trial court erred in instructing the jury as to the aggravating
circumstances relating to the killing of a correctional employee by failing to charge
the jury as to all of the elements of the offense.
F.
The trial court erred by allowing Mr. Hugueley to waive the presentation of
mitigation evidence.
G.
The proof presented as to the aggravating circumstances was insufficient to
outweigh the mitigating circumstances presented in the guilt/innocence portion of
the trial.
H.

The death sentence is disproportionate to the penalty in similar cases. 6

Hugueley's counsel rendered ineffective assistance of counsel in their
investigation and preparation for the capital case against him.
I.

J.

Hugueley's counsel was ineffective during the jury selection process.

K.
Hugueley's counsel rendered ineffective assistance of counsel in their
defense of him at the penalty phase of his trial.

L.
Hugueley's counsel rendered ineffective assistance of counsel on direct
appeal.
(ECF No. 58 at PagelD 4663-78.)

6

Hugueley also asserts a violation of Tennessee law. (See ECF No. 58 at PageID 4666.)
17

40aFiled 08/03/17 Page 21 of 142
Case 1:09-cv-01181-JDB-egb Document 144

V.

PagelD 7717

RESPONDENT'S MOTION TO DISMISS
When the Warden filed the motion for summary judgment, he asserted that he was not

abandoning his motion to dismiss, but merely intended to supply the Court with alternative bases
for dismissing Claims I, J, and K. (ECF No. 112-1 at Pagelb 5440.) Respondent refers to his
arguments in the motion to dismiss to support his request for summary judgment for Claims I, J,
and K. (Id. at PageID 5468, 5470-71.)
On April 16, 2015, after Respondent's motion for summary judgment was filed, the Court
denied his motion to dismiss. (ECF No. 119.)
In a joint status report addressing the discovery dispute underlying the Warden's motion to
dismiss filed April 27, 2015, Respondent stated that the denial of the motion was without prejudice
and indicated that the parties agreed not to further pursue dismissal of Claims I, J, and K under
Federal Rule of Civil Procedure 37(b)(2)(A). (ECF No. 120 at PagelD 5503.)
The parties stated their positions about the discovery dispute:

I.
Respondent contends that Petitioner's delay in providing documents and
failure to respond to interrogatories has irrevocably frustrated Respondent's desire
to obtain discovery before the Court imposed deadline for filing dispositive
motions. Respondent also contends that Petitioner has an "on-going duty" (D.E.
119 at 4 n.2) to provide interrogatory responses and documents in accordance with
the Court's order granting him discovery. (D.E. 103) Given the late stage of
proceedings and the fact that Petitioner's dispositive motion response is due June
13, 2015, Respondent further contends that Petitioner's April 24, 2015, offer for
him to review 34 boxes of documents without at least pre-marking the responsive
documents therein has irrevocably prejudiced Respondent by frustrating the
purpose for seeking and obtaining discovery in this case. Respondent requests
exclusion of any evidence proffered in support of Petitioner's Claims I, J, and K
under Fed. R. Civ. P. 37(b)(2)(A)(ii).
2.
Petitioner contends that because of Respondent's rejection of every effort
Petitioner made to provide Respondent the discovery, including Respondent's
decision to not review the 34 boxes Petitioner made available, Respondent's failure
18

41aFiled 08/03/17 Page 22 of 142
Case 1:09-cv-01181-JDB-egb Document 144

PagelD 7718

to confer from January 14 until April 24, 2015, and Respondent's filing of his
motion for summary judgment while the discovery dispute was still pending with
this Com1, the Court should not exclude any evidence offered in support of
Petitioner's Claims I, J, and K.
(ECF No. 122 at PageID 5503-04.)
The parties agreed to the following going forward:
1.
Respondent will not further seek dismissal of Petitioner's Claims I, J, and K
based on the alleged discovery violation. Nor will Respondent amend the grounds
for his motion to exclude evidence to encompass the time period since the Court
ordered the parties to confer.

2.
Petitioner's on-going duty to supplement the discovery provided in this case
will necessarily be fulfilled when Petitioner files his response to Respondent's
motion for summary judgment.
3.
Any additional relief requested from this Court will be requested by the
parties in the regular course of summary judgment litigation. The parties will more
fully brief their position on Respondent's Rule 37 motion as part of the summary
judgment litigation.

(Id. at PageID 5504-05 (citation omitted).)
In Respondent's reply to the motion for summary judgment, he incorporated his motion to
dismiss by reference and argued that the motion to dismiss should be considered in the Court's
determination that Respondent is entided to summary judgment as a matter of law. (ECF No. 13 7
at PageID 7664, 7687.) Respondent relies on his motion to dismiss to assert that Hugueley did
not timely disclose evidence relevant to Claims A, I, J, and K. (Id. at PageID 7669, 7683-84.)

VI.

STATUTE OF LIMITATIONS
Although the Court addressed the timeliness of the ineffective assistance of counsel claims

in its Order on Hugueley's motion to amend the petition, Respondent reasserted the statute of
limitations as an affirmative defense to the amended claims in the Second Amended Petition.
19

42a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 23 of 142

PagelD 7719

(See ECF No. 52 at PagelD 4414, 4419-22; ECF No. 112-1 at PageID 5441 n.2.) The Warden
argued that the amended claims were raised after the expiration of the one-year limitations period
and were time-barred because these claims do not relate back to the prose petition. (Id. at PageID
5441-50.) He contended that the facts underlying the claims differ in time and type. (Id. at
PageID 5445-46, 5449-50.) Respondent insisted that Hugueley is not entitled to equitable tolling
and seeks reconsideration of the Court's determination that the amended claims relate back to the
prose petition. (Id. at PageID 5451.) Hugueley asserted that the Court had already determined
that his ineffective assistance claims were timely. (ECF No. 127 at PageID 5621-23.)
In Mayle v. Felix, the United States Supreme Court held that an amended habeas petition
"does not relate back when it asserts a new ground for relief supported by facts that differ in both
time and type from those the original pleading set forth." 545 U.S. 644, 650 (2005)7; see Cowan
v. Stovall, 645 F.3d 815,818 (6th Cir. 2011).
The Sixth Circuit recently addressed relation back of an untimely amendment to a habeas
petition in Watkins v. Deangelo-Kipp, 854 F.3d 846, 849-50 (6th Cir. 2017),
An untimely amendment to a habeas petition "relates back" to an original
petition filed within the Antiterrorism and Effective Death Penalty Act's (AEDPA)
one-year limitations period if the original petition and the amended petition arise
out of the same "conduct, transaction, or occurrence." Fed. R. Civ. P. 15(c)(l)(B);
see also 28 U.S.C. §§ 2242, 2244(d)(l). The Supreme Court in Mayle defined the
standard for relation back in the context of a habeas petition. There, the petitioner
argued that his amended petition, which alleged his Fifth Amendment rights were
violated during pretrial interrogation, related back to his original petition, filed pro
se, where he argued that the admission of videotaped evidence during trial violated
his rights under the Sixth Amendment's Confrontation Clause. 545 U.S. at 648-49,
651-52, 125 S. Ct. 2562. The Court emphasized that, in filing the petition, the

7

In Pinchon v. Myers, 615 F.3d 631,642 (6th Cir. 2010), the Sixth Circuit recognized the
retroactive application of Mayle as a clarification of existing law.
20

43aFiled 08/03/17
Case 1:09-cv-01181-JDB-egb Document 144

Page 24 of 142

PagelD 7720

petitioner must specify all grounds for relief, stating the facts supporting each
ground. Id. at 649, 655, 661, 125 S. Ct. 2562. Consequently, it held that an amended
habeas petition does not relate back to the original petition "when it asserts a new
ground for relief supported by facts that differ in both time and type from those the
original pleading set forth." Id. at 650, 125 S. Ct. 2562. Rather, to qualify for
relation back, the original and amended petitions must "state claims that are tied to
a common core of operative facts." Id. at 664, 125 S. Ct. 2562. The Court cautioned
not to read the "conduct, transaction, or occurrence" requirement, so broadly as to
render meaningless the statute of limitations. Id. at 662-64, 125 S. Ct. 2562.
Turning to the facts of the case, the Court concluded that the petitioner's untimely
amended petition did not relate back to the timely original petition because the two
petitions "targeted separate episodes": the pretrial inten-ogation of the witness, and
the petitioner's own interrogation, which occurred "at a different time and place."
Id. at 660, 125 S. Ct. 2562.

Though Mayle dealt with two separately designated claims-a Fifth
Amendment violation versus a Sixth Amendment violation-its reasoning equally
applies to claims with the same designation-here, ineffective assistance of
counsel-that do not rely on the same common core of operative facts, or that target
separate episodes.
In Watkins, the petitioner filed a timely habeas petition alleging ineffective assistance of
counsel for "failure to investigate and raise a defense." Watkins, 854 F.3d at 847, 849. Nearly
four years later, he filed an amended petition arguing ineffective assistance of counsel for "failure
to request another psychiatric evaluation after Watkins' conduct during trial." Id. The district
court granted habeas relief but the Sixth Circuit determined that the amendment was untimely.

Id. at 847. The Sixth Circuit held that, because Watkins' original petition did not raise facts
supporting the underlying ineffective assistance of counsel claims, the amended petition did not
relate back. Id. at 850-51.
In Hill v. Mitchell, the Sixth Circuit described cases where relation back had been upheld
because the amended claim arose out of the same set of operative facts as the original claim and
expanded on or amplified the facts alleged in the original claim. 842 F.3d 910, 924 (6th Cir.
21

44aFiled 08/03/17
Case 1:09-cv-01181-JDB-egb Document 144

Page 25 of 142

PagelD 7721

2016). Although both the original and amended claims were Brady claims, the original claim
"did not even raise a potential claim for relief' and was "completely bereft of specific fact
allegations or evidentiary support and was not tied to any particular theory of relief." Id. at 924.
The court noted the "utter lack of substance" in the original claim and determined that the claims
did not share a common core of operative facts. Id. at 924-25.
Respondent argues that the amended claims do not relate back to the prose petition. (ECF
No. 112-1 at PageID 5442.) He asserts that the Supreme Court rejects a broad interpretation of
Fed. R. Civ. P. I S's "conduct, transaction or occurrence" language. (Id. at PagelD 5442-43.)
A.

Ineffective Assistance - Investigation, Preparation & Penalty Phase (Claims
1(1-4) & K(l & 3))

The Warden contends that the amendment allowing Claims I(l-4) and K(l & 3) is not
proper and that these claims are time-barred because they do not relate back to the prose petition.
(ECF No. 112-1 at PageID 5442-43.) Claim I addresses ineffective assistance of counsel in the
preparation and investigation of Hugueley's capital case including the failure to: (1) fully
investigate, raise, and litigate his competence to waive the presentation of mitigation evidence
(formerly Claim 14 ~ l(c)); (2) investigate issues related to Hugueley's competence to stand trial
and assist in his defense (formerly Claim 14 ~ 2); (3) investigate his social history to determine his
incompetence to waive the presentation of mitigation evidence (formerly Claim 14 ~ 7(a)(2)); and
(4) retain the proper experts pre-trial to discover his incompetence to waive the presentation of
mitigation evidence (formerly Claim 14

~

1 l(k)). (See ECF No. 58 at PageID 4666-67.) In

Claim K( 1), Petitioner alleges that his trial counsel failed to fully investigate his social history in
their defense of him at the penalty phase and discover that he was incompetent to waive the
22

45aFiled 08/03/17 Page 26 of 142
Case 1:09-cv-01181-JDB-egb Document 144

PagelD 7722

presentation of mitigation evidence ((formerly Claim 17 ,1(a)(2)). (Id. at PagelD 4673-74.) In
Claim K(3), he claims that his trial counsel failed to move for a hearing and establish that he was
incompetent to waive the presentation of mitigation evidence. (Id. at PageID 4676.)
The Court addressed these claims in the motion to amend stating,
4. Waiving Presentation of Mitigation Evidence
In Paragraph 11 of the prose petition, Petitioner includes Sixth, Eighth, and
Fomteenth Amendment violations concerning waiver of the presentation of
mitigation evidence. (D.E. 1 at 4.) In Claim 14 Paragraphs l(c), 2, 7(a)(2), and
l l(k) of the proposed amendment, he alleges ineffective [assistance] of counsel
because counsel failed to fully investigate, raise, and litigate Petitioner's
competency to waive the presentation of mitigation evidence and investigate
Petitioner's social history to discover that he was incompetent to waive the
presentation of mitigation evidence. (D.E. 29 at 9-12.) Petitioner makes similar
allegations in Claim 17 Paragraphs 1(a)(2) and 5 related to the penalty stage (id. at
12-22 & 25) and Claim 18 Paragraph 2 related to counsel's performance on direct
appeal (id. at 26-27). These claims share a common core of operative facts with and
relate back to Paragraph 11 of the prose petition. Petitioner has stated a reasonable
argument to establish cause for procedural default, see supra pp. 12-16.
Amendment would not be futile, and he is entitled to amend his petition to add the
allegations in Claim 14 Paragraphs l(c), 2, 7(a)(2), and l l(k), Claim 17 Paragraphs
l(a)(2) and 5, and Claim 18 Paragraph 2.
(ECF No. 52 at PagelD 4421-22.)
Paragraph I I states, "[i]n violation of the Sixth, Eighth, and Fourteenth Amendments, the
trial court erred by allowing Mr. Hugueley to waive the presentation of mitigation evidence."
(ECF No. 1 at PagelD 4.) The Warden contends that the facts underlyingpro se Paragraph 11 and
the amended claims differ in time and type because prose Paragraph 11 involves a trial court error
claim, relying on the trial court records, and the amended ineffective assistance claims involve a
question of trial counsel's performance and required further development in the waived state
post-conviction proceedings. (Id. at PageID 5443-44.) Respondent argues that prose Paragraph
23

46a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 27 of 142

PagelD 7723

I I does not assert trial counsel's ineffective assistance or Hugueley's incompetence. (Id. at
PageID 5444-45.) Further, Respondent submits that the claims differ in time because the prose
claim involved the trial court allowing waiver of mitigation evidence and the ineffective assistance
claim concerned the adequacy of counsel's representation based on his investigation efforts before
trial and sentencing. (ECF No. 112-1 at PageID 5444.)
In Zagorski v. State, 983 S.W.2d 654, 660-61 (Tenn. I 998), the TSC sets out steps the trial
court must take to protect a defendant's interests when he goes against counsel's advice and
refuses to permit the investigation and presentation of mitigation evidence. Id. 8 The procedure
was to insure that the waiver was "intelligently and voluntarily made." Id. at 660. Further, with
regard to defense counsel's performance, the court stated,
We recognize the professional, personal, and moral conflicts that lawyers
encounter when representing a defendant who chooses to forego the use of
mitigating evidence. Nevertheless, we must preserve a competent defendant's right
to make the ultimate decisions in his or her case once having been fully informed of
the rights and the potential consequences involved.
Accordingly, when a defendant instructs counsel not to investigate or
present mitigating evidence, counsel must follow the procedure outlined in this
case to insure on the record that the defendant is competent and fully aware of his
rights and the possible consequences of that decision. Thereafter, counsel will not

8

Zagorski requires the trial court to: (I) inform the defendant of his right to present
mitigating evidence and make a determination on the record whether the defendant understands
this right and the importance of presenting mitigating evidence in both the guilt phase and
sentencing phase of trial; (2) inquire of both the defendant and counsel whether they have
discussed the importance of mitigating evidence, the risks of foregoing the use of such evidence,
and the possibility that such evidence could be used to offset aggravating circumstances; and (3)
after being assured the defendant understands the importance of mitigation, inquire of the
defendant whether he or she decides to forego the presentation of mitigating evidence. Zagorski,
983 S.W.2d at 660; see State v. Johnson, 401 S.W.3d 1, 16 (Tenn. 2013) (same).

24

47a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17

Page 28 of 142

PagelD 7724

be adjudged ineffective for abiding by the defendant's lawful decision.

Id. at 661.
Hugueley did not plead facts in the pro se petition related to Paragraph 11 or in relation to
the amended claims now being disputed as time-barred. However, the same core of operative
facts surrounding the waiver of mitigation evidence and counsel's actions related to that waiver are
at issue in the pro se and amended claims. Unlike the Brady claim in Hill, where there was a
complete lack of factual support and pure speculation, the state court record in this case
demonstrates the colloquy that occurred when Hugueley expressed his desire to waive the
presentation of mitigation evidence and counsel's representations to the trial court about the
waiver. (See ECF No. 41-5 at PageID 730-38.) Despite the lack of fact pleading on the issues,
the record demonstrates common facts that support these claims. The Court, however, notes that
additional facts beyond the scope of the record may support Hugueley's ineffective assistance of
counsel claims.
Petitioner alleged an unspecified Sixth Amendment violation surrounding the trial court's
purported error in allowing him to waive the presentation of mitigation evidence. The ineffective
assistance of counsel claims in Claim I and K are Sixth Amendment violations, the same type of
claim alleged in the pro se petition.
To the extent Respondent contends that Hugueley's competence was not specifically raised
in the pro se petition, the defendant's competence to make such a decision is inherent in
determining trial court error and whether counsel were ineffective.

See State v. Smith, 993

S. W .2d 6, 8 (Tenn. 1999) ("[T]he trial court had no authority to override the will of a competent
and informed defendant and force Smith to present mitigation evidence . . . in his capital
25

48a

Case 1:09-cv~01181-JDB-egb Document 144 Filed 08/03/17 Page 29 of 142

PagelD 7725

sentencing hearing."); id. at 15-16 ("[W]e have no doubt that these experienced attorneys would
have presented [the issue of defendant's competency] to the trial court at the jury-out hearing,
particularly in light of the trial court's specific questions regarding its existence.").
In the instant case, the inmate was acting against the advice of counsel, and it was
necessary to ascertain his state of mind. See id. at 14 ("counsel will not be adjudged ineffective
for following the decision of a competent and fully informed defendant who chooses to forego
investigation and presentation of mitigating evidence at the sentencing phase of a capital trial").
The TSC acknowledges the right to waive mitigation, while requiring that the defendant be
competent to do so. Johnson, 401 S.W.3d at 16-17.
Competence to waive mitigation is equated with competence to stand trial. Id. at 17.
Therefore, the timing of the claims, whether in the preliminary stages or at the penalty phase has
no bearing, because the same competence is required to stand trial and to waive mitigation.
The amended claims share common facts and are similar in time and type as Paragraph 11.
As this Court has previously stated, the amendments specifying an examination of Hugueley's
competence in light of his desire to waive mitigation proofrelate back and are not time-ban-ed.
B.

Ineffective Assistance of Appellate Counsel (Claim L(l))

The Court allowed amendment of Claim L(l), that Hugueley's appellate counsel were
ineffective for "failure to raise and litigate his incompetence to waive the presentation of
mitigation (formerly claim I 8 ~ 2)," based on a common core of operative facts with Paragraph 11
of the prose petition. (See ECF No. 52 at PageID 4421-22.) The Warden argues that Claim
L(l),istime-ban-ed. (ECFNo.112-1 atPage!D5445.)

He contends that the amended claim

differs in time and type from the Paragraph 11 in the pro se petition. (ECF No. 112-1 at Page ID
26

49a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 30 of 142

PagelD 7726

5446.) Based on Fifth and Eighth Circuit cases, Respondent maintains that failure to file an
appeal is a separate occurrence in both time and type from conduct that occurs at the sentencing
phase and before trial. (Id. at ,r PagelD 5446-47 (citing United States v. Gonzalez, 592 F.3d 675,
680 (5th Cir. 2009) and United States v. Craycraft, 167 F.3d 451 (8th Cir. 1999).)
Respondent contends that Claim L(l) differs in time and type because the prose petition
does not include claims of ineffective assistance, incompetency or appellate error and offers no
factual basis to support the assertion that the trial court erred in permitting Hugueley to waive
mitigating evidence or that he is or was incompetent. (Id.) Although Hugueley raises a Sixth
Amendment violation related to his right to effective counsel at trial and the purported trial court
error of allowing him to waive mitigation evidence, he does not address the performance of Jones
and Gibson as appellate counsel in his prose petition. 9 There is some difference in time relevant
to Claim L(l) and the pro se petition, although the operative facts and the players are the same.
Both claims require an assessment of the counsels' effectiveness at trial with regard to the waiver
of mitigation evidence. Claim L(l) relates back to the pro se petition. See Lee v. Haas, l 97 F.
Supp. 3d 960, 970 (E.D. Mich. 2016) (finding that claim of ineffective assistance of appellate
counsel arises from the same core of operative facts as and relates back to the self-representation
claim in the original habeas petition).
C.

9

Ineffective Assistance - Hugueley's Prior Convictions (Claims 1(5), K(2) &
L(2))

Jones and Gibson represented Hugueley both at trial and on appeal. (See ECF No. 58 at
PageID 4677.)
27

50a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 31 of 142

PagelD 7727

With regard to the allegations about Hugueley's counsels' failure to investigate and
challenge the validity of his prior violent convictions in Claims 1(5) and K(2), Respondent
disagrees with the Court's reasoning that Paragraphs 9 and 12 of the pro se petition share a
common core of operative facts and asserts that the facts underlying the claims differ in time and
type. (ECF No. 112-1 at PagelD 5447-48.) The Court stated,
2. Aggravating Circumstances
Hugueley presented several claims related to aggravating circumstances in
In Paragraph 9 of the prose
petition, he alleges violations of the Sixth, Eighth, and Fourteenth Amendments
based on insufficient evidence to support the jury's finding of the aggravating
circumstances related to his prior convictions; the heinous, atrocious, and cruel
killing; the fact that the defendant was in lawful custody at the time of the murder;
and the fact that the victim was a corrections employee. (D.E. 1 at 3.) In
Paragraph 12, Petitioner submits Sixth, Eighth, and Fourteenth Amendment
violations based on the proof of aggravating circumstances being insufficient to
outweigh the mitigating circumstances. (Id. at 4.)
both the prose petition and the proposed amendment.

In Claim 14 Paragraph 13 of the proposed amendment, the inmate alleges
ineffective assistance of counsel in the investigation and preparation of his capital
case, specifically failure to investigate the circumstances surrounding Petitioner's
prior violent convictions which were used as statutory aggravating circumstances.
(D.E. 29 at 14-18.) In Claim 17 Paragraph 2 of the proposed amendment,
Petitioner contends ineffective assistance of counsel in the penalty phase of trial for
counsel not investigating or challenging the validity of the prior violent crimes used
as aggravating circumstances. (D.E. 29 at 22-25.) In Claim 18 Paragraph 5 of the
proposed amendment, Hugueley includes ineffective assistance of counsel on
direct appeal for the failure to investigate and challenge Petitioner's prior violent
convictions which were used as aggravating factors. (Id. at 27.)
The assertions in Claims 14, Paragraph 13; 17, Paragraph 2; and 18,
Paragraph 5 share a common core of operative facts with and relate back to
Paragraphs 9 and 12 of the pro se petition. Petitioner has stated a reasonable
argument to establish cause for procedural default, see supra pp. 12-16.
Amendment would not be futile and he is entitled to amend his petition to add these
allegations.
(ECF No. 52 at PageID 4419-20.)
28

51aFiled 08/03/17 Page 32 of 142
Case 1:09-cv-01181-JDB-egb Document 144

PagelD 7728

Respondent contends that the pro se claims challenge the sufficiency of proof of
aggravating circumstances offered by the State and the jury's weighing of that proof against
mitigating circumstances. (ECF No. 112-1 at PageID 5448.) He contends that resolution of the
pro se claims is dependent on the trial record, while the amended ineffective assistance claims
"necessarily" involve facts outside the state-court record. (Id.) The Warden argues that the facts
supporting the pro se and amended claims differ in time because the pro se claims involve proof
offered during trial and the amended claims inquire into counsel's representation before trial and
sentencing. (Id. at PagelD 5448-49.) He acknowledges that the claims share the fact of the
jury's reliance on the prior aggravating circumstances, but he contends the claims do not share a
'"common core of operative facts' given the divergence, in both time and type." (Id. at PageID
5449.)
To prove the sufficiency of the evidence claims alleged in the original petition, Hugueley
must show that a rational trier of fact could have found proof beyond a reasonable doubt that he
had the prior violent convictions that were presented before the trial court. See Jackson v.
Virginia, 443 U.S. 307,324 (1979). The convictions and the violent nature of the crimes were the
evidence needed to prove the aggravating circumstances and required for weighing those
circumstances against mitigating !actors.
That same information is needed to determine if Hugueley's counsel conducted a
reasonable investigation and appropriately challenged the aggravating circumstances at trial.
Although additional evidence may support the ineffective assistance of counsel claims, the pro se
and amended claims arise out of a common core of operative facts, namely the convictions and the

29

52a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 33 of 142

PagelD 7729

° Further, although Respondent attempts to delineate the timing

nature of the underlying crimes. 1

associated with these claims, the claims all surround the preparation for and presentation of the
penalty phase case. The allegations in Claims 1(5) and K(2)) relate back to the prose petition.
With regard to the allegations in Claim L(2), that Hugueley's appellate counsel failed to
investigate and challenge their client's prior violent convictions which were used as aggravating
factors in the case against him, Respondent argues that Claim L(2) does not relate back to Claims 9
and 12 of the prose petition because they differ in time and type, and again notes that resolution of
the pro se claims follows from the trial record where the amended claims require information
external to the state court record. (ECF No. 112-1 at PagelD 5449-50.) Further, the Warden
avers that the pro se petition does not raise any claims of appellate error or ineffective assistance
and differs in time from the amended appellate level claims. (Id. at PageID 5450.) Respondent
acknowledges that the prose and amended claims share the fact of the jury's reliance on the prior
aggravating convictions, but he contends that the claims do not share a common core of operative
facts. (Id. at PageID 5451.) Because both the pro se and amended claims require an assessment
of counsel's effectiveness at trial with regard to addressing the aggravating circumstance of
Hugueley's prior violent convictions, Claim L(2) relates back to the prose petition.

10

Although Hugueley contends that his counsel should have investigated the
circumstances surrounding these convictions (see ECF No. 58 at PagelD 4667-72), the
circumstances do not eliminate the violent nature of the crimes and would be more useful in
mitigation, which he waived, than to combat the finding of an aggravating circumstance.
30

53a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17

VII.

Page 34 of 142

PagelD 7730

THE LEGAL ST AND ARD
Relevant legal standards for purposes of summary judgment review of this petition include

the habeas standard for merits review, waiver and procedural default standards, and the summary
judgment standard as it applies to habeas cases.

A.

Merits Review under § 2254

The statutory authority for federal courts to issue habeas corpus relief for persons in state
custody is provided by 28 U.S.C. § 2254, as amended by the Antiterrorism and Effective Death
Penalty Act of 1996 ("AEDPA"). A federal court may grant habeas relief to a state prisoner "only
on the ground that he is in custody in violation of the Constitution or laws or treaties of the United
States." 28 U.S.C. § 2254(a).
Where a claim has been adjudicated in state court on the merits, a habeas petition can only
be granted if the resolution of the claim:
(1)

resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the
Supreme Court of the United States; or

(2)

resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.

28 U.S.C. § 2254(d)(l)-(2). The petitioner carries the burden of proof for this "difficult to meet"
and "highly deferential [AEDPA] standard," which "demands that state-court decisions be given
the benefit of the doubt." Cullen v. Pinholster, 563 U.S. 170, 181 (2011) (quoting Harrington v.

Richter, 562 U.S. 86, 102(2011), and Woodfordv. Visciotti, 537 U.S. 19, 24 (2002) (per curiam)).
Review under § 2254(d)(l) is limited to the record that was before the state court that
adjudicated the claim on the merits.

Pinholster, 563 U.S. at 181-82, 185.
31

A state court's

54a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 35 of 142

PagelD 7731

decision is "contrary" to federal law when it "arrives at a conclusion opposite to that reached" by
the Supreme Court on a question of law or "decides a case differently than" the Supreme Court has
"on a set of materially indistinguishable facts."

Williams v. Taylor, 529 U.S. 362, 412-13

(2000). 11 An "unreasonable application" offederal law occurs when the state court "identifies the
correct governing legal principle from" the Supreme Court's decisions "but unreasonably applies
that principle to the facts of the prisoner's case." Id. at 413. The state court's application of
clearly established federal law must be "objectively unreasonable" for the writ to issue. Id. at
409. The writ may not issue merely because the habeas court, in its independent judgment,
determines that the state court decision applied clearly established federal law erroneously or
incorrectly. Renico v. Lett, 559 U.S. 766, 773 (2010) (citing Williams, 529 U.S. at 411). "As a
condition for obtaining habeas corpus from a federal court, a state prisoner must show that the state
court's ruling on the claim being presented in federal court was so lacking in justification that there
was an error well understood and comprehended in existing law beyond any possibility for
fairminded disagreement." Richter, 562 U.S. at 103.
As for challenges under § 2254(d)(2), "when a federal habeas petitioner challenges the
factual basis for a prior state-court decision rejecting a claim, ... [t]he prisoner bears the burden of
rebutting the state court's factual findings 'by clear and convincing evidence."' Burt v. Titlow,
134 S. Ct. 10, 15 (2013) (quoting 28 U.S.C. § 2254(e)(l)). A state-court factual determination is
not "unreasonable" merely because the federal habeas court would have reached a different

11

The "contrary to" standard does not require citation of Supreme Court cases "so long as
neither the reasoning nor the result of the state-court decision contradicts them." Early v. Packer,
537 U.S. 3, 8 (2002) (per curiam).
32

55a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 36 of 142

conclusion.

PagelD 7732

Wood v. Allen, 558 U.S. 290, 301 (2010); see also Rice v. Collins, 546 U.S. 333,

341-42 (2006) ("R~asonable minds reviewing the record might disagree" about the factual finding
in question, "but on habeas review that does not suffice to supersede the trial court's . . .
determination."). 12

The Supreme Court has described this standard as "demanding but not

insatiable" and has emphasized that "deference does not by definition preclude relief." Miller-El

v. Dretke, 545 U.S. 231, 240 (2005) (internal quotation marks and alteration omitted).
B.

Waiver and Procedural Default

A federal court may not grant a writ of habeas corpus on behalf of a state prisoner unless,
with certain exceptions, the prisoner has exhausted available state remedies by presenting the same
claim sought to be redressed in a federal habeas court to the state courts pursuant to 28 U.S.C. §
2254(b) and (c). Pinholster, 563 U.S. at 181. The petitioner must "fairly present" 13 each claim
to all levels of state court review, up to and including the state's highest court on discretionary

12

In Wood, the Supreme Court granted certiorari to resolve whether, to satisfy
§ 2254(d)(2), "a petitioner must establish only that the state-court factual determination on which
the decision was based was 'unreasonable,' or whether § 2254(e)(1) additionally requires a
petitioner to rebut a presumption that the determination was correct with clear and convincing
evidence." Wood, 558 U.S. at 299. The Court ultimately found it unnecessary to reach that
issue, and left it open "for another day." Id. at 300-01, 303 (citing Rice, 546 U.S. at 339, in which
the Court recognized that it is unsettled whether there are some factual disputes to which §
2254( e )(1) is inapplicable). In Titlow, 134 S. Ct. at 15, the Supreme Court applied § 2254( e )(1 )' s
"clear and convincing" standard but cautioned that"[ w ]e have not defined the precise relationship
between§ 2254(d)(2) and§ 2254(e)(l), and we need not do so here."
13

For a claim to be exhausted, "[i]t is not enough that all the facts necessary to support the
federal claim were before the state courts, or that a somewhat similar state-law claim was made."
Anderson v. Harless, 459 U.S. 4, 6 (1982) (per curiam) (internal citation omitted). Nor is it
enough to make a general appeal to a broad constitutional guarantee. Gray v. Netherland, 518
U.S. 152, 163 (1996).
33

56a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17

Page 37 of 142

PagelD 7733

review, Baldwin v. Reese, 541 U.S. 27, 29 (2004), except where the state has explicitly disavowed
state supreme court review as an available state remedy, 0 'Sullivan v. Boerckel, 526 U.S. 838,
847-48 (1999). Tennessee Supreme Court Rule 39 eliminated the need to seek review before the
TSC to "be deemed to have exhausted all available state remedies." Adams v. Holland, 330 F.3d
398, 402 (6th Cir. 2003); see Smith v. Morgan, 371 F. App'x 575, 579 (6th Cir. 2010).
There is a procedural default doctrine ancillary to the exhaustion requirement.

See

Edwards v. Carpenter, 529 U.S. 446, 452-53 (2000) (noting the interplay between the exhaustion
rule and the procedural default doctrine). If the state court decides a claim on an independent and
adequate state ground, such as a procedural rule prohibiting the state court from reaching the
merits of the constitutional claim, the procedural default doctrine ordinarily bars a petitioner from
seeking federal habeas review.

Wainwright v. Sykes, 433 U.S. 72, 81-82 (1977); see Walker v.

Martin, 562 U.S. 307, 315 (2011) ("A federal habeas court will not review a claim rejected by a
state comt if the decision of the state court rests on a state law ground that is independent of the
federal question and adequate to support the judgment.") (internal quotation marks and citation
omitted)). 14 In general, a federal court "may only treat a state court order as enforcing the
procedural default rule when it unambiguously relied on that rule." Peoples v. Lafler, 734 F.3d
503, 512 (6th Cir. 2013).

14

The state-law ground may be a substantive rule dispositive of the case or a procedural
barrier to adjudication of the claim on the merits. Walker, 562 U.S. at 315. A state rule is an
"adequate" procedural ground if it is "firmly established and regularly followed." Id. at 316
(quoting Beard v. Kindler, 558 U.S. 53, 60-61 (2009)). "A discretionary state procedural rule ...
can serve as an adequate ground to bar federal habeas review ... even if the appropriate exercise of
discretion may permit consideration of a federal claim in some cases but not others." Id. (quoting
Kindler, 558 U.S. at 54) (internal quotation marks and citations omitted).
34

57a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 38 of 142

PagelD 7734

If a petitioner's claim has been procedurally defaulted at the state level, the petitioner must
show cause to excuse his failure to present the claim and actual prejudice stemming from the
constitutional violation or that a failure to review the claim will result in a fundamental miscarriage
of justice. Schlup v. Delo, 513 U.S. 298, 320-21 (1995); Coleman v. Thompson, 501 U.S. 722,
750 (1991 ). The latter showing requires a petitioner to establish that a constitutional error has
probably resulted in the conviction of a person who is actually innocent of the crime. Schlup, 513
U.S. at 321; see House v. Bell, 547 U.S. 518, 536-39 (2006) (restating the ways to overcome
procedural default and further explaining the actual innocence exception).

C.

Summary Judgment Standard

Under Federal Rule of Civil Procedure 56, on motion of a party, the court "shall grant
summary judgment if the movant shows that there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law." Fed. R. Civ. P. 56(a). The party moving
for summary judgment "bears the initial burden of demonstrating the absence of any genuine issue
of material fact." Mosholder v. Barnhardt, 679 F.3d 443, 448 (6th Cir. 2012) (citing Celotex

Corp. v. Catrett, 477 U.S. 317, 323 (1986)). "Once the moving party satisfies its initial burden,
the burden shifts to the nonrnoving party to set forth specific facts showing a triable issue of
material fact." Id. at 448-49 (citing Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S.
574, 587 (1986)).
In considering a motion for summary judgment, a court must draw all reasonable
inferences in favor of the nonrnoving party. Tolan v. Cotton, 134 S. Ct. 1861, 1863 (2014) (per
curiam) (citing Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255 (1986)). The central issue is
"whether the evidence presents a sufficient disagreement to require submission· to a jury or
35

58a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 39 of 142

PagelD 7735

whether it is so one-sided that one party must prevail as a matter of law." Anderson, 477 U.S. at
251-52.

"[A] mere 'scintilla' of evidence in support of the non-moving party's position is

insufficient to defeat summary judgment; rather, the non-moving party must present evidence
upon which a reasonable jury could find in [his] favor." Tingle v. Arbors at Hilliard, 692 F.3d
523,529 (6th Cir. 2012) (quoting Anderson, 477 U.S. at 251).
Rule 12 of the Rules Governing Section 2254 Cases in the United States District Courts
("Habeas Rules") permits federal courts to apply the Federal Rules of Civil Procedure to petitions
for habeas corpus "to the extent that they are not inconsistent with any statutory provision of these
rules." Habeas Rule 12; see Townsendv. Hoffi1er, No. 2:13-CV-14187, 2014 WL 2967949, at *2
(E.D. Mich. July 1, 2014). The AEDPA's significant deference to a state court's resolution of
factual issues guides summary judgment review in habeas cases. A federal habeas court must
presume the underlying factual detenninations of the state court to be correct, unless the petitioner
"rebut[s] the presumption of correctness by clear and convincing evidence."

28 U.S.C. §

2254(e)(l); see Malone v. Fortner, No. 3:09-0949, 2013 WL 1099799, at *2 n.3 (M.D. Tenn. Mar.
14, 2013) ("[S]ummary judgment rules in evaluating the evidence do not apply given the statutory
presumption of correctness of facts found by the state courts.").

The Court applies general

summary judgment standards on federal habeas review only insofar as they do not conflict with the
language and intent of the AEDPA.

VIII. ANALYSIS
The Court will review all claims to determine if Respondent is entitled to summary
judgment. However, Hugueley only addressed Claims A, E, F, H, I, and Kin his response.

36

59aFiled 08/03/17 Page 40 of 142
Case 1:09-cv-01181-JDB-egb Document 144

A.

PagelD 7736

Batson

Hugueley alleges that the State exercised peremptory challenges on the basis of race in
violation of Batson v. Kentucky, 476 U.S. 79 (1986), when it dismissed prospective jurors: Ida
Ferguson, Everette Woods, Phyllis McKinnie, Willie Heard, Helen Pruitt, Johnny Hudson,
Gertrude Gibbs, and Linda Pirtle. (ECF No. 58 at PageID 4663-64.)
Petitioner asserts that this claim was raised on direct appeal before the TCCA and the TSC.

(Id. at PageID 4664.) On direct appeal, the TSC addressed a Batson claim about Ferguson,
Woods, McKinnie, Heard, and Pruitt.

See Hugueley, 185 S.W.3d at 368-75.

Respondent

maintains that the claim is procedurally defaulted to the extent Hugueley seeks relief for
prospective jurors Johnny Hudson, Gertrude Gibbs, and Linda Pirtle. (ECF No. 112-1 at PageID
5463-64.) The Court will address the unexhausted aspects of the claim first.
1.

Procedural Default - Hudson, Gibbs & Pirtle

The Warden contends that Hugueley failed to object to the removal of prospective jurors
Hudson, Gibbs, and Pirtle during jury selection, and the state court determined the claim was
waived as it relates to these potential jurors. (ECF No. 112-1 at PageID 5463-64.) The TSC
considered the inmate's claim related to Hudson, Gibbs, and Pirtle waived because he failed to
object to the State's challenges to these potential jurors in a timely fashion. See Hugueley, 185
S.W.3d at 369. The court cited Tenn. R. App. P. 36(a) as support for the waiver. Id.

Rule 36(a)

states that "[n]othing in this rule shall be construed as requiring relief to be granted to a patty
responsible for an error or who failed to take whatever action was reasonably available to prevent
or nullify the harmful effect of the error." The TSC opined,

37

60a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 41 of 142

PagelD 7737

Before this Court, Defendant alleges that the prosecution improperly excluded
eight African-American venire persons, adding Mr. Johnny Hudson, Ms. Gertrude
Gibbs, and Ms. Linda Pirtle. Defendant's argument as to these additional three
venire persons is waived because Defendant failed to object to the State's
challenges to these three persons in a timely fashion. See State v. Peck, 719
S. W.2d 553, 555 (Tenn. Crim. App. 1986). This Court is not bound to grant relief
to a party who fails to take "whatever action was reasonably available to prevent or
nullify the harmful effect of an error." Tenn. R. App. P. 36(a). In this case,
Defendant had the opportunity at trial to object to each and every one of the State's
peremptory challenges, thereby giving the trial court the opportunity to assess the
constitutionality of the State's choices. Defendant did not do so with respect to Mr.
Hudson, Ms. Gibbs, and Ms. Pirtle. Accordingly, he will not now be heard to
complain about the State's challenges to these three venire persons. See State v.
Johnson, 980 S.W.2d 414,419 (Tenn. Crim. App. 1998). We will, therefore, limit
our examination of Defendant's race-based Batson claim to the five venire persons
previously named.

Hugueley, 185 S.W.3d at 369 (footnotes omitted).
Respondent argues that the claim is barred by procedural default as it relates to these jurors.
(ECF No. 112-1 at PageID 5463.) He notes that the TSC cited the applicable procedural rule and
two Tennessee cases applying the rule, which demonstrate that the waiver rule was established and
regularly enforced. (Id. at PageID 5463-64.)
A federal habeas claim is procedurally defaulted when:
(1) the petitioner fails to comply with a state procedural rule; (2) the state courts
enforce the rule; (3) the state procedural rule is an adequate and independent state
ground for denying review of a federal constitutional claim; and (4) the petitioner
cannot show cause and prejudice excusing the default.

Lovins v. Parker, 712 F.3d 283, 296 (6th Cir. 2013). The second prong of this test requires that

the state courts actually enforce the state procedural rule in denying relief. Id. To qualify as an
"adequate" procedural ground under the third prong, a state rule must be "firmly established and
regularly followed." Walker, 562 U.S. at 316. Even a discretionary state procedural rule can
serve as an adequate ground to bar federal habeas review. Id.
38

61a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 42 of 142

PagelD 7738

Hugueley argues that Rule 36(a) only applies in non-capital cases. (ECF No. 127 at
PageID 5667.)

He asserts, citing State v. Rimmer, 250 S.W.3d 12, 32 (Tenn. 2008), that

Tennessee has an exception to the waiver doctrine in capital cases. (Id. at PageID 5668.) The
inmate insists that the exception exists because of the statutory obligation to review a capital
defendant's conviction and death sentence. (Id.) He also contends that the "non-waiver" rule for
capital cases had existed for three decades beginning in 1985, before Hugueley's trial and appeal.
(Id.)

Petitioner claims that the waiver applied in his case has not been strictly and regularly
applied in capital cases and cannot bar his claim as to these prospective jurors in federal court.
(Id. at PageID 5670.) He asserts that there is a legion of capital cases in which the TSC has

addressed claims on the merits that were not raised below. (Id.) According to the inmate, the
TSC does not consistently rely on this rule of waiver and Respondent's allegations of procedural
default do not rest upon an adequate state ground. (Id. at PageID 5672.) He argues that the
Court should order further proceedings and a Batson evidentiary hearing. (Id. at PagelD 5673.)
In response, the Warden notes that a review of state cases reveals that Tennessee has routinely
denied Batson claims on the basis of waiver. (ECF No. 137 at PagelD 7686.)
The first prong is satisfied by Hugueley's counsel's failure to object to the State's
challenges to these three prospective jurors in violation of Tennessee Rule of Appellate Procedure
36.
With regard to the second and third prongs, although Petitioner contends that there is an
exception to the waiver rule in capital cases, Tennessee courts have enforced the waiver rule

39

62a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 43 of 142

PagelD 7739

against capital defendants. In Johnson v. State, the TCCA emphasized the importance of a timely

Batson challenge stating
In Griffith v. Kentucky, 479 U.S. 314,327, 107 S. Ct. 708, 715, 93 L.Ed.2d
649 (1987), the United States Supreme Court gave limited retroactivity to Batson
by ruling that it applies to all cases, state and federal, which raised a Batson
challenge and which were pending on direct appeal at the time Batson was
announced. There is nothing in either of these cases to suggest that a challenge to
the unconstitutional exercise of peremptory challenges can be made in other than a
timely fashion, that is, prior to the time the jury is actually selected and sworn.
Here, Defendant failed to raise the correct claim before the jury was sworn. At
voir dire, trial counsel did not cha) lenge the prosecution's use of peremptory
challenges. Instead, the Batson claim was not raised until the case was on direct
appeal to the supreme court.
Accordingly, we find that the applicable procedural barrier is waiver, rather
than, as the post-conviction court held, that the issue was previously determined.
See Tenn. Code Ann.§ 40-30-l 12(b)(l) (repealed).

Johnson v. State, No. 02C01-9707-CR-00292, 1999 WL 608861, at *13-14 (Tenn. Crim. App.
Aug. 12, 1999), aff'd, 38 S.W.3d 52 (Tenn. 2001); see State v. Johnson, 762 S.W.2d 110, 113-14
(Tenn. 1988) ("It would seem to us the appropriate procedure would be to call such matters to the
trial court's attention at the time the event occurs in order that a ruling on the issue may be either
made or reserved for consideration.").

15

The State has, at times, addressed the merits of a Batson claim even when some aspect of
that claim has been procedurally waived. State v. Keen, 31 S. W.3d 196, 227 n.9 (Tenn. 2000)
("As the State points out, the appellant only challenges the dismissal of three jurors in his motion
for a new trial. Although the challenge to the fourth juror has been waived, this Court opts to
consider this juror because of the qualitative difference between a death penalty sentence and other

15

The TSC cited Johnson when determining that the claim was waived. See Hugueley,
185 S.W.3d at 369.
40

63a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 44 of 142

PagelD 7740

sentences.") The Tennessee courts have applied the waiver rule to capital defendants in other
contexts. See State v. Austin, 87 S.W.3d 447, 479 (Tenn. 2002) (holding that failure to make a
contemporaneous objection to prosecution's closing argument resulted in waiver on appeal); see

State v. Kiser, 284 S.W.3d 227, 263 (Tenn. 2009) (finding waiver of claim about limited
cross-examination).
The exception Hugueley claims has not been applied consistently to capital defendants.
The state courts have used discretion to review the merits of these claims when it finds it
appropriate. Further, the Sixth Circuit has held that a similar contemporaneous-objection rule is
an adequate and independent state ground barring federal habeas review. See Awkal v. Mitchell,
613 F.3d 629,648 (6th Cir. 2010) (en bane); see also Amos v. Renico, 683 F.3d 720, 730 (6th Cir.
2012). A review of Tennessee cases demonstrates that the Tennessee procedural rule on which
the TSC relied is firmly established and has repeatedly been applied to Batson challenges. See,

e.g., Johnson, 980 S.W.2d at 419 (concluding that the issue of racial composition of the jury was
waived for failure to timely file the motion for new trial and make Batson challenges during jury
selection); State v. Borner, No. W2012-00473-CCA-R3-CD, 2013 WL 1644335, at *7 (Tenn.
Crim. App. Apr. 16, 2013) (holding that appellant waived the issue under Tenn. R. App. P. 36(a),
that, as an African-American, he was denied a jury of his peers by raising the challenge for the first
time at the motion for new trial); State v. Boston, No. 03C0 1-9509-CR-00284, 1996 WL 653821,
at *3 (Tenn. Crim. App. Nov. 8, 1996) ("This jurisdiction's rule requiring a Batson claim to be
raised before the jury is accepted and sworn was formulated in 1986, the same year the United
States Supreme Court decided Batson. This case was tried on July 6, 1995, approximately nine
years after the formulation of the waiver rule. Thus, the appellant knew, or should have known,
41

64a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17

Page 45 of 142

PagelD 7741

that either overtly or tacitly accepting the jury and permitting the trial court to swear the jurors
before raising the Batson claim would result in the waiver of the issue.")
With regard to the fourth factor, Hugueley has not argued cause and prejudice to overcome
the procedural default. He asserts only that the claim is not procedurally defaulted or barred from
federal habeas review. (ECF No. 127 at PageID 5670-73.)
The waiver provision under Tennessee Rule of Appellate Procedure 36(a) presents an
independent and adequate state procedural ground to bar habeas review, and Petitioner has not
overcome the procedural default of his Batson claim as it relates to prospective jurors Hudson,
Gibbs, and Pirtle. 16
2.

The Exhausted Batson Claim

With regard to the claim addressed by the TSC, the court opined:
1. Allegedly Race-based Peremptory Challenges

We first address Defendant's contention that his constitutional rights were
violated by the prosecution's exercise of peremptory challenges to certain potential
jurors. Defendant asserts in his appellate brief that the State struck eight jurors on
the basis of their race in violation of his equal protection rights under Batson v.
Kentucky, 476 U.S. 79, 106 S. Ct. 1712, 90 L.Ed.2d 69 (1986). The State responds
that no violation occurred because the basis of each challenge was race-neutral.
In Batson, the United States Supreme Court held that "the Equal Protection
Clause [of the United States Constitution] forbids the prosecutor to challenge
potential jurors solely on account of their race .... " Id. at 89, 106 S. Ct. 1712. The
Court crafted a three-pronged analysis for determining whether the suspect
challenges were impermissibly based on the potential juror's race. At the outset,
the defendant must establish a prima facie case of purposeful discrimination. In
doing so, the defendant may rely "solely on evidence concerning the prosecutor's
exercise of peremptory challenges at the defendant's trial." Id. at 96, 106 S. Ct.

16

Hugueley did not argue cause and prejudice to overcome the procedural default of his
related ineffective assistance of trial counsel claim (Claim J), see infra.
42

65a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 46 of 142

PagelD 7742

1712. That is, the defendant need not prove a past pattern of racially
discriminatory jury selection practices by the prosecution. Id. at 92-93, 106 S. Ct.
1712; cf Swain v. Alabama, 380 U.S. 202, 223, 85 S. Ct. 824, 13 L.Ed.2d 759
(1965), overruled in part by Batson, 476 U.S. at 91-92, 106 S. Ct. 1712
(recognizing that an inference of purposeful discrimination may be raised on proof
that the prosecution struck qualified blacks "in case after case, whatever the
circumstances, whatever the crime and whoever the defendant or the victim may be
... "). Once the defendant makes out a prima facie case, the State has the burden of
producing a neutral explanation for its challenge. Batson, 476 U.S. at 97, 106 S. Ct.
1712. This explanation must be a clear and reasonably specific account of the
prosecutor's legitimate reasons for exercising the challenge. Id. at 98 n. 20, I 06 S.
Ct. 1712. However, the race or gender neutral explanation need not be persuasive,
or even plausible. Purkett v. Elem, 514 U.S. 765, 767-68, 115 S. Ct. 1769, 131
L.Ed.2d 834 ( 1995). "' Unless a discriminatory intent is inherent in the
prosecutor's explanation, the reason offered will be deemed race neutral."' Id. at
768, 115 S. Ct. 1769 (quoting Hernandez v. New York, 500 U.S. 352, 360, 111 S.
Ct. 1859, 114 L.Ed.2d 395 (1991) (plurality opinion)). If a race-neutral
explanation is provided, the trial court. must then determine, from all of the
circumstances, whether the defendant has established purposeful discrimination.
Batson, 476 U.S. at 98, 106 S. Ct. 1712. The trial court may not simply accept a
proffered race-neutral reason at face value but must examine the prosecutor's
challenges in context to ensure that the reason is not merely pretextual. See
Miller-El v. Dretke, 545 U.S. 231, 125 S. Ct. 2317, 162 L.Ed.2d 196 (2005)
("Miller-El 11"). In that case, the Court reiterated that "the rule in Batson provides
an opportunity to the prosecutor to give the reason for striking the juror, and it
requires the judge to assess the plausibility of that reason in light of all evidence
with a bearing on it." Id. at 2331. If the trial court determines that the proffered
reason is merely pretextual and that a racial motive is in fact behind the challenge,
the juror may not be excluded. Woodson v. Porter Brown Limestone Co., 916
S.W.2d 896,903 (Tenn. 1996).
As this Court has noted in the past, "determination of the prosecutor's
discriminatory intent or lack thereof turns largely on the evaluation of the
prosecutor's credibility, of which the attorney's demeanor is often the best
evidence." State v. Smith, 893 S.W.2d 908,914 (Tenn. 1994). We accord a trial
court's findings in this regard great deference and will not set them aside unless
clearly erroneous. Woodson, 916 S.W.2d at 906; see also Batson, 476 U.S. at 98 n.
21, 106 S. Ct. 1712 ("Since the trial judge's findings in [this] context ... largely will
tum on evaluation of credibility, a reviewing court ordinarily should give those
findings great deference."). For this reason, "[t]he trial judge must carefully
articulate specific reasons for each finding on the record, i.e., whether a prima facie
case has been established; whether a neutral explanation has been given; and
43

66a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 47 of 142

PagelD 7743

whether the totality of the circumstances support a finding of purposeful
discrimination." Woodson, 916 S.W.2d at 906.
In this case, defense counsel objected at trial to the State's peremptory
challenge of five potential jurors: Ms. Ida Ferguson, Mr. Everette Woods, Ms.
Phyllis McKinnie, Ms. Willie Heard, and Ms. Helen Pruitt. The record indicates
that all of these persons are African-American; Defendant is Caucasian....
Ida Ferguson

During voir dire questioning by the State, Ms. Ferguson acknowledged that
she had a religious belief against the death penalty, but stated she could "follow the
law." She acknowledged having stated on her jury questionnaire that she felt a
sentence of life without parole was "adequate" and that she would not want to
consider the death penalty, but reiterated that she "ha[d] to obey the laws of the
land." In response to subsequent questions by defense counsel, Ms. Ferguson stated
that she "would have to have very hard eviden9e to consider" imposing either life in
prison with no opportunity for parole or the death penalty. The State thereafter used
one of its peremptory challenges to remove Ms. Ferguson from the panel. Upon
defense counsel's Batson objection, the prosecutor referred to Ms. Ferguson's
response in the jury questionnaire to the question, "do you have any personal, moral
or religious beliefs against imposition of the death penalty?" According to the
prosecutor, Ms. Ferguson had answered, "yes," with the explanation that she
believed that a "life sentence without parole is adequate, vengeance is mine said the
Lord." The prosecutor maintained that "the State is striking her based upon the
answer to that question." The trial court thereupon ovenuled defense counsel's
Batson objection.
Everette Woods

The State asked Mr. Woods during voir dire if he believed in the death
penalty. Mr. Woods responded that he did not believe in it. He stated further,
however, that he could follow the law and sign the death warrant if Defendant was
guilty. After the State peremptorily challenged Mr. Woods, defense counsel lodged
a Batson objection. The prosecutor responded that Mr. Woods had indicated on his
jury questionnaire that he did not believe in the death penalty. Defense counsel
claimed that Mr. Woods had been rehabilitated during voir dire. The trial court
stated nothing on the record but excused Mr. Woods.
Phyllis McKinnie

Defense counsel objected to the State's challenge of Ms. McKinnie, stating
that she was the sixth African-American struck by the State. The State had lodged

44

67a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 48 of 142

PagelD 7744

five peremptory challenges prior to challenging Ms. McKinnie. The State referred
to Ms. McKinnie's statement on her questionnaire that she "just [does not] want to
be a part of putting any person to death because it could tum out to be an innocent
person after you have put him or her to death." The prosecutor also averred that
"all six of the individuals [he] struck [had] indicated on the back of their jury
questionnaires they would have a problem with the death penalty." Defense counsel
claimed that Ms. McKinnie had been rehabilitated. The trial court found that the
State had established a racially neutral reason for its challenge and overruled the
objection.

Willie Heard
The State next challenged Ms. Heard, stating that she had indicated on her
questionnaire that she had personal, moral, or religious beliefs against the death
penalty, and that she did not like it but could not stop it. Defense counsel
responded,
this is their seventh black juror and it's their sixth woman that they
have struck. She, like the others, went through and said she could
listen to all three sentencing phases just like the others but we feel at
this point in time you've got seven black jurors that have been
stricken from the record.
The trial court then stated, "The Court finds that there is a racially neutral reason for
the challenge but you might be careful about rehabilitating. The Court will look at it
a little closer next time."

Helen Pruitt
On defense counsel's Batson objection to the State's challenge of Ms.
Pruitt, the prosecutor stated,
This is the one I challenged because when I was questioning her, Judge, her
eyes, she looked like she was going to cry to the point that I backed off asking
her questions because she was sitting on the far side over there and I really
felt that she was about to break out in tears and I backed off and I noticed
when she was going into the jury box she got teary-eyed again and was
shaking her head no. That's the reason.
Defense counsel replied, "Your Honor, we just want for the record that's
the eighth African-American person and it's the seventh African-American woman
stricken." The prosecutor retorted that they "still have four on there," and the trial
45

68a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17

Page 49 of 142

Pagel D 77 45

court ruled that the State's reason for challenging Ms. Pruitt was "not racially
motivated."
The State lodged no further peremptory challenges. The Report of Trial
Judge in Capital Cases, filed by the trial court pursuant to Tennessee Supreme
Court Rule 12.1 ("the Rule 12 Report"), indicates that seven of the twelve jurors
that decided Defendant's case were white.
As noted previously, this Court has instructed trial courts that, when making
a determination regarding a Batson objection, they "must carefully articulate
specific reasons for each finding on the record, i.e., whether a prima facie case has
been established; whether a neutral explanation has been given; and whether the
totality of the circumstances support a finding of purposeful discrimination."
Woodson, 916 S.W.2d at 906. Thus, we are initially constrained to point out that
the trial court's findings on Defendant's Batson objections at trial are barely
adequate to permit our review. After each of defense counsel's objections, the trial
court failed to make a specific finding that a prima facie case of purposeful
discrimination had been made. Nevertheless, the prosecutor's response to each
objection clearly implies that the trial court expected the State to proffer its reasons
for challenging the subject venire person. That is, after each Batson objection by
defense counsel, the trial court indicated in some fashion that the second prong of
the Batson analysis was called into play. Thus, we assume that the trial court
determined that, as to each of these five venire persons, Defendant had made out a
prima facie case of impermissible discrimination. See Woodson, 916 S.W.2d at
905 (even where trial court made no explicit finding that the objecting party had
made out a prima facie case, it was appropriate to conclude that the trial court had
done so because "[o]therwise, the court would not have required [the striker] to
explain the challenge"). Nor did the trial court offer much commentary on the
State's proffered reasons for its strikes, or render detailed findings about its reasons
for overruling each of Defendant's Batson claims. We are especially concerned
about the trial court's failure to make specific findings in light of the United States
Supreme Court's recent decision in Miller-El II. Although decided after the trial
of this case, Miller-El II demonstrates the importance of a complete record and
comprehensive findings by the trial court.
In Miller-El II, the United States Supreme Court expounded on the
methodology used to assess a Batson claim. In that case, the defendant was tried
and convicted on a capital murder charge and sentenced to death. 125 S. Ct. at
2322. During jury selection, the prosecution used peremptory strikes against ten
qualified African-American venire men. Id. The defendant argued, and the
Court agreed, that the prosecution's challenges were racially motivated. Id. at
2340. In analyzing the defendant's claim, the Court engaged in an exhaustive and
46

69a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 50 of 142

PagelD 7746

fact-intensive inquiry, relying upon not only the transcript of the voir dire, but the
completed juror questionnaires and the juror cards utilized by the prosecution.
As it examined the extensive evidence before it, the Court noted numerous
factors indicative of the prosecution's impermissible motive in challenging the
black venire members. Initially, the Court pointed to the fact that the prosecution
had peremptorily struck ten of the eleven, or 91 %, of the eligible African-American
venire members. Id. at 2325. What it found "[m]ore powerful than these bare
statistics," however, were the results of "side-by-side comparisons of some black
venire panelists who were struck and white panelists allowed to serve." Id. In
making these comparisons, the Court determined that, "[i]f a prosecutor's proffered
reason for striking a black panelist applies just as well to an otherwise-similar
nonblack who is permitted to serve, that is evidence tending to prove purposeful
discrimination to be considered at Batson's third step." Id. Thus, "disparate

treatment" of potential jurors who responded similarly to similar questions may be
indicative of impermissible discrimination where the only significant difference
between the persons is their race.
Another factor indicative of the prosecution's improper motive was its
"disparate questioning" of the venire members, depending upon the member's race.
The Court found that, for 94% of the white members, the prosecutors gave a "bland
description" of the death penalty before asking for individual feelings on the
subject. Id. at 2334. Only 47% of the African-American venire members heard the
"bland" description, with the remaining 53% hearing what the Court described as a
"graphic script." Id. The Court appeared to agree with the defendant that the
prosecution used this tactic in an attempt to "prompt some expression of hesitation
to consider the death penalty and thus to elicit plausibly neutral grounds for a
peremptory strike of a potential juror subjected to it, if not a strike for cause." Id.
at 2333. A second form of disparate questioning involved what the Court
described as "trickery." Id. at 2337. The Court elucidated:
The prosecutors asked members of the panel how low a sentence they would
consider imposing for murder. Most potential jurors were first told that Texas
law provided for a minimum term of five years, but some members of the
panel were not, and if a panel member then insisted on a minimum above five
years, the prosecutor would suppress his normal preference for tough jurors
and claim cause to strike.

Id. The State conceded that the manipulative questioning was used to create cause
to strike, but claimed that the five-year information was omitted not on the basis of
race, but on stated opposition to or ambivalence about the death penalty. Id. The
Court found, however, that, while all African-American panel members who had
expressed opposition to or ambivalence about the death penalty were asked the
47

70a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17

Page 51 of 142

PagelD 7747

trick question, "most white panel members who expressed similar opposition or
ambivalence were not subjected to it." Id. The Court then stated, "[ o ]nee again,
the implication of race in the prosecutors' choice of questioning cannot be
explained away." Id. at 2338.
In addition to examining the questions asked and treatment of venire
members, the Supreme Court relied upon history: "We know that for decades
leading up to the time this case was tried prosecutors in the Dallas County office
had followed a specific policy of systematically excluding blacks from juries .... "
Id. In the Miller-El II case, the prosecutors had marked the race of each venire
member on their juror cards and "took their cues [on jury selection] from a 20-year
old manual of tips" which included reasons for excluding minorities from jury
service. Id. at 2339-40.
The Court concluded:
It blinks reality to deny that the State struck Fields and Warren ... because
they were black. The strikes correlate with no fact as well as they correlate
with race, and they occurred during a selection infected by shuffling and
disparate questioning that race explains better than any race-neutral reason
advanced by the State. The State's pretextual positions confirm [the
defendant's] claim, and the prosecutors' own notes proclaim that the Sparling
Manual's emphasis on race was on their minds when they considered every
potential juror.
The state court's conclusion that the prosecutors' strikes of Fields and
Warren were not racially determined is shown up as wrong to a clear and
convincing degree; the state court's conclusion was unreasonable as well as
erroneous.

Id. at 2340. The Court thereupon granted the defendant's claim for habeas corpus
relief. Id.
In contrast to Miller-El II, the sole indication of purposeful impermissible
discrimination by the State in this case is the fact that each of the peremptory
challenges used by the State was employed against an African-American venire
person. A close examination of the record convinces us, however, that the
prosecution's exercise of these challenges was for race-neutral reasons.
With respect to the State's proffered reasons for its challenges, the
prosecutor maintained that, with respect to Ms. Ferguson, Mr. Woods, Ms.
McKinnie, and Ms. Heard, he was challenging each of these venire persons based
· upon his or her convictions about the death penalty. According to the State, each of
48

71a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 52 of 142

PagelD 7748

these persons had indicated some personal or religious disinclination to sentence an
individual to death. This is certainly a facially race-neutral reason for exercising a
peremptory challenge against a potential juror in a capital case. As to Ms. Pruitt, the
prosecutor stated that he excused her because, while he was questioning her, she
looked as though she was going to cry. She later became "teary-eyed" again and
"was shaking her head no." We are satisfied that the prosecutor also provided a
facially race-neutral reason for his challenge to this juror.
The trial court ultimately determined that, under all the circumstances,
Defendant failed to establish purposeful discrimination. "Because the core issue
is the prosecutor's discriminatory intent, or lack thereof, the trial court's finding
'largely will turn on evaluation of credibility."' State v. Ellison, 841 S.W.2d 824,
827 (Tenn. 1992) (quoting Batson, 476 U.S. at 98 n. 21, 106 S. Ct. 1712). Both this
Court and the United States Supreme Court have previously recognized that
'"[t]here will seldom be much evidence bearing on th[e] issue [of discriminatory
intent], and the best evidence often will be the demeanor of the attorney who
exercises the challenge."' Id. (quoting Hernandez v. New York, 500 U.S. 352,
365, 111 S. Ct. 1859, 114 L.Ed.2d 395 (1991) (plurality opinion)). Obviously, we
are in no position to second-guess the trial court's assessment of the prosecutor's
demeanor unless the record, as it did in Miller-El II, contains clear objective
indications that the prosecutor's averments concerning his or her reasons for
challenging a juror are simply not credible. We remain cognizant of Batson's
holding that the ultimate burden of establishing purposeful discrimination lies with
the party objecting to the peremptory challenge. 476 U.S. at 93, 106 S. Ct. 1712; see
also Purkett, 514 U.S. at 768, 115 S. Ct. 1769 (recognizing that "the ultimate
burden of persuasion regarding racial motivation rests with, and never shifts from,
the opponent of the strike"). We must, examine, therefore, whether the record
before us contains such strong evidence of impermissible discriminatory intent by
the prosecution as to render clearly erroneous the trial court's determination that
Defendant failed to establish purposeful discrimination by the prosecution in its
peremptory challenges.
Taking our cue from Miller-El II, we first examine the "bare statistics" in
this case regarding jury selection. The State exercised eight of its available fifteen
peremptory challenges. All of them were against African-American persons. We
do not know, however, how many eligible African-American venire members were
available. Defense counsel exercised sixteen peremptory challenges, one of which
was against an alternate. See Tenn. R. Crim. P. 24( e). The record indicates that the
State lodged Batson objections to two of these challenges, one of them on the basis
that the juror was white. The record indicates that at least one of the other venire
persons excused by the defense was white, but we are unable to ascertain the race of
the remaining fourteen venire persons peremptorily challenged by Defendant. The
United States 2000 Census provides that 41 % of the population of the county in
49

72a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 53 of 142

PagelD 7749

which Defendant was tried is black or African-American. It is reasonable to infer,
therefore, that a significant proportion of the venire panel was African-American.
The Rule 12 Report futther indicates that five of the eventual twelve jurors in this
case were non-Caucasian. The State had seven peremptory challenges remaining to
it at the time the jury, including these five nonwhites, was sworn. These bare
statistics do not, in and of themselves, convince us that the State's proffered
race-neutral reasons for excusing the five named persons were merely pretextual.
A close review of the transcript of the voir dire reveals no disparate
treatment based on race. All but one of the eight persons peremptorily challenged
by the State had expressed some hesitation about the death penalty. No other person
expressed such hesitation and was left unchallenged. That is, the State was
completely successful in eliminating every potential juror who. had indicated at
some point in the process that he or she had reservations about imposing the death
penalty. There is no indication in the record that any nonblack person who
expressed hesitation about the death penalty was left unchallenged by the State.
There is furthermore no indication in the record that the prosecution tailored
its questions regarding the death penalty depending on the race of the targeted
venire person(s). Nor does this Court observe any manipulative questioning by the
State during voir dire which we would describe as "trickery." Finally, there is
nothing before us to indicate that the prosecutors in Hardeman County have ever
followed a specific policy of systematically excluding African-Americans from
Junes.
Certainly, more thorough findings by the trial court upon Defendant's
Batson objections would have been helpful in our review of this issue. However,
our close and careful review of the record before us convinces us that there is no
basis for us to determine that the trial court erred during the third step of the Batson
analysis. This Court has previously recognized that a juror's reservations about the
death penalty may constitute a legitimate explanation for the State's exercise of a
peremptory strike. See Smith, 893 S.W.2d at 914. As to the State's dismissal of
Ms. Pruitt, we acknowledge that "neutral explanations that are based on subjective
assessments, such as the juror's demeanor, must be carefully scrutinized." State v.
Carroll, 34 S.W.3d 317, 320 (Tenn. Crim. App. 2000). We note, however, that
defense counsel did not in any way indicate during the jury selection process that
the prosecution's description of Ms. Pruitt's conduct in the jury box was inaccurate.
A potential juror who verges on tears and shakes her head "no" during voir dire
would, we are sure, prompt many a trial lawyer to exercise a peremptory challenge
for legitimate reasons. Thus, we are confident that the trial court accurately
assessed the prosecutor's credibility with regard to his explanations and properly
determined that, under all the circumstances, Defendant had not established
50

73aFiled 08/03/17 Page 54 of 142
Case 1:09-cv-01181-JDB-egb Document 144

PagelD 7750

purposeful discrimination by the State in its exercise of its peremptory challenges.
Accordingly, we hold that Defendant is not entitled to relief on this issue.
Hugueley, 185 S.W.3d at 368-375 (footnotes omitted).

A Batson challenge involves "three distinct and sequential steps: (1) the opponent of the
peremptory strike must make a prima facie case that the challenged strike was based on race; (2)
the burden then shifts to the proponent of the peremptory challenge to articulate a race-neutral
explanation for the strike; (3) finally, the trial court must determine whether the opponent of the
peremptory strike has proven purposeful discrimination." United States v. McAllister, 693 F.3d
572, 578 (6th Cir. 2012). An explanation for the peremptory strike will be deemed race-neutral
unless a discriminatory intent is inherent in the prosecutor's explanation. See Hernandez, 500
U.S. at 360. The trial court must assess whether the opponent of the strike has proved purposeful
discrimination; assess the proponent's credibility under all of the pertinent circumstances; weigh
the asserted justification against the strength of the opponent's prima facie case; and determine
whether the opponent of the strike has met the ultimate burden of persuasion. Gray v. Lafler, 541
F. App'x 518, 521 (6th Cir. 2013). The trial court's determination in a Batson hearing is afforded
great deference and "must be sustained unless it is clearly erroneous." Id.
The Warden argues that the TSC's rejection of Hugueley's Batson claim was not contrary
to or based on an unreasonable application of clearly established federal law but was founded upon
a reasonable determination of fact. (ECF No. 112-1 at PageID 5454.) Respondent contends that
Hugueley's mere assertion, without argument, factual support, or an explanation of the state
court's decision, that the State exercised peremptory challenges on the basis of race does not
demonstrate that the TSC's decision was unreasonable. (Id.) He further avers that the claim is
51

74aFiled 08/03/17 Page 55 of 142
Case 1:09-cv-01181-JDB-egb Document 144

PagelD 7751

inadequately pied under Habeas Rule 2( c) because Hugueley provides no argument or factual
support. (Id. at PageID 5476-77.)
Petitioner only disputed the TSC's findings as it relates to Pruitt.

He argued that

Respondent is not entitled to summary judgment and that further proceedings are necessary where
the State dismissed African-American jurors, provided a patently false justification for the
dismissal, and maintained that the strikes were valid because not all African-Americans had been
stricken. (ECF No. 127 at PageID 5525-26.)
Hugueley contends that the prosecution struck Juror Helen Pruitt 17 in violation of Batson.
(ECF No. 127 at PageID 5529.) He insists that the prosecutor tried to justify his strike by
claiming that he stopped asking questions because Pruitt looked like she was going to cry and
because there were still four African-Americans on the jury. (Id.) The prosecutor explained,
This is the one I challenged because when I was questioning her, Judge, her eyes,
she looked like she was going to cry to the point that I backed off asking her
questions because she was sitting on the far side over there and I really felt that she
was about to break out in tears and I backed off and I noticed when she was going
into the jury box: she got teary-eyed again and was shaking her head no. That's the
reason.
(ECF No. 41-3 at PageID 511.) The trial court stated that the proffered reason for striking Pruitt
was not racially motivated. (Id.)
The inmate submits that the prosecutor's reasons were pretext for racial discrimination and
not true, describing them as "but a house of cards that crumbles, built upon falsehoods." (ECF
No. 127 at PageID 5529-30.) He asserts that the voir dire transcript demonstrates that the

17

The juror's name is spelled "Prewitt" on her jury questionnaire, but "Pruitt" in the
transcript and the TSC opinion. (See ECF No. 127 at PageID 5529.)
52

75a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17

Page 56 of 142

PagelD 7752

prosecutor did not back off questioning Pruitt and that the statement that she was about to cry is
also false. (Id.) Hugueley contends that the prosecutor only asked Pruitt two focused questions
about whether she could judge others and sign a death verdict. (Id. at PageID 5537-38; see ECF
No. 41-3 at PageID 494-95.) He claims that Pruitt's answers were acceptable, showing her ability
to support the prosecution and identical to those of white jurors who the prosecution found to be
acceptable jurors. (ECF No. 127 at PageID 5538.)
Petitioner argues that the assertion that Pruitt was shaking her head going to the jury box is
untrue because she never reached the jury box. (ECF No. 127 at PagelD 5530.) He asserts that a
visual understanding of the seating arrangement demonstrates the falsity of the prosecutor's
Batson justification. (Id. at PageID 5533.) The trial court seated twenty-eight jurors at a time,

with twelve jurors in the box and sixteen seated in two rows in front of the box. (Id. at PageID
5534; see ECF No. 42-1 at PageID 377.) In that configuration, Pruitt was in the last seat on the
front row where the additional sixteen jurors were seated and she remained in that seat until she
was struck. (ECF No. 127 at PageID 5535-36.) Further, Hugueley states that it was clear from
the transcript that the jurors only took a seat in the jury box when ordered by the judge. (Id. at
PageID 5536.)
The inmate maintains that the prosecution's justifications for striking Pruitt "do not hold
up," and because the trial court never found the justifications to be true, but instead dismissed
Pruitt, Hugueley is entitled to Batson relief. (ECF No. 112-1 at PageID 5530.) He contends that
the state court's conclusion that Pruitt was not struck for racial reasons is wrong to a clear and
convincing degree. (Id. at PageID 5530-31.) The trial court never made a finding that the
prosecutor "backed off' questioning Pruitt or credited the prosecutor's underlying basis for
53

76a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 57 of 142

PagelD 7753

backing off questioning. (Id. at PageID 5540-41.) Based on McCurdy v. Montgome,y Cnty.,

Ohio, 240 F.3d 512,522 (6th Cir. 2001), Hugueley posits that "it is only when a trial judge makes
specific findings crediting a prosecutor's assertions about a juror's actual demeanor that the judge"
complies with the Batson requirements. (Id. at PageID 5544.)

a. Habeas Rule 2(c)
The Court first notes that Hugueley failed to plead facts supporting his claim in the Second
Amended Petition. (See ECF No. 58 at PageID 4663-64.) Habeas Rule 2(c) states that a petition
must "specify all the grounds for relief available to the petitioner" and "state the facts supporting
each ground." See McFarland v. Scott, 512 U.S. 849, 860 (1994) ("[T]he habeas petition, unlike
a complaint, must allege the factual underpinning of the petitioner's claims.") (O'Connor, J.,
concurring in part and dissenting in part); see Mayle, 545 U.S. at 669 (same) (Souter, J.,
dissenting).

b. Pruitt's Declaration
Petitioner provides Pruitt's declaration in support of his claims. (ECF No. 127-1.) She
did not recall the name of the defendant, but she described him as having "lots of tattoos on his
arms and a tattoo on his forehead." (Id. at PageID 5675.) 18 She stated,
When I was called to the jury box to talk to the attorney, I was not happy about it. I
did not want to be on the jury and was relieved when I was excused from service.

(Id.)

She disputed the statement that she was "teary eyed and shaking my head."

(Id.)

Hugueley also argues that Pruitt's declaration confirmed his trial counsel's and his appellate

18

Hugueley has numerous tattoos, including a "reversed, winged swastika on his
forehead." (ECF No. 41-7 at PageID 919.)
54

77a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 58 of 142

PagelD 7754

counsel's, statement in the appellate brief that no one in the courtroom saw this juror crying.
(ECF No. 127 at PageID 5543 n.8 & 5545; see ECF No. 41-9 at PageID 1296.) 19
The Warden asserts that, under Pinholster, the federal review of a claim adjudicated on the
merits is limited to the record before the state court and objects to Pruitt's declaration being
considered in the habeas proceeding. (ECF No. 137 at PageID 7668-69.) Respondent disputes
Hugueley's argument that the declaration can be considered because of his derivative ineffective
assistance of counsel claim, noting that the ineffectiveness claim is procedurally defaulted. (Id. at
PagelD 7669.) Respondent contends that Martinez2° provides no basis for considering new
evidence on Hugueley's BatsQn claim. (Id.) Citing his motion to dismiss, he further argues that
Hugueley's failure to timely disclose any evidence about his jury-selection ineffective assistance
claim precludes the introduction of new evidence. (Id.)
The inmate is limited to the record before the TSC on this claim. See Pinholster, 563 U.S.
at 181-82. Consideration of Pruitt's declaration is barred under Pinholster.

c. Unreasonable Determinations of Fact
Hugueley argues that the critical question in the third prong of the Batson analysis, whether
a prisoner has proved purposeful discrimination, is the persuasiveness of the prosecutor's
justification for the peremptory strike.

(ECF No. 127 at PageID 5532.)

He contends that

19

Although counsel made the argument in the appellate brief that no one saw Pruitt crying,
this same counsel did not object during voir dire or point out that Pruitt did not appear to be about
to cry or crying.
20

In Martinez v. Ryan, 566 U.S. 1, 17 (2012), the United States Supreme Court created an
equitable exception that allowed ineffective assistance of post-conviction (collateral review)
counsel to be used to overcome the procedural default of an ineffective assistance of trial counsel
claim.
55

78aFiled 08/03/17 Page 59 of 142
Case 1:09-cv-01181-JDB-egb Document 144

PagelD 7755

implausible and fantastic justifications will be found to be pretexts for discrimination. (Id.)
Likewise, deference to the trial court does not equate with abandonment or abdication of judicial
review.

(Id.)

He insists that the prosecutor's reasons are pretext and demonstrably false

because: (1) Pruitt never sat in the jury box; (2) the prosecution never "cut off' questioning; and
(3) Pruitt was not "teary-eyed" or going to cry.

(Id. at PageID 5533.)

Further, Hugueley

contends that the trial judge made no finding that the prosecution's reasons were true. (Id. at
PageID 5540.)
To the extent Hugueley seeks to show an unreasonable determination of fact as the basis
for the state court's decision, he must present clear and convincing evidence to overcome the
presumption of con-ectness. See 28 U.S.C. §§ 2254(d)(2) & (e)(l).
1.

Pruitt's Placement During Voir Dire

At trial, Hugueley's defense counsel did not argue about Pruitt's placement in the jury box.
He now attempts to create a visual picture of the potential jurors' location to dispute whether Pruitt
ever sat in the jury box and undermine the prosecutor's assertions about her demeanor.
Respondent asserts that where Pruitt was seated is in-elevant to her demeanor, which was the basis
for the State's peremptory strike. (ECF No. 137 at PageID 7668.)
There is nothing in the state court record specifically addressing Pruitt's location in relation
to the jury box. This information was not presented to the TSC. As stated supra, Pruitt's
declaration cannot be considered for purposes of gaining relief under § 2254(d)(l ). Further, her

56

79a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 60 of 142

PagelD 7756

position in the room during voir dire has limited importance given the fact that the neutral reason
proffered for the strike was her demeanor.2'
2.

Questioning Pruitt

Hugueley contends that the prosecution's comment that he "backed off' his questioning
because of Pruitt's demeanor was false because the prosecutor set forth two issues for questions.
(See ECF No. 127 at PageID 5543.) The Warden argues that the transcript does not undermine

the prosecutor's statement that he declined to question Pruitt further. (ECF No. 137 at PageID
7668.) Furthermore, Respondent avers that there is nothing in the record to show that the
prosecutor would not have questioned Pruitt further had it not been for her demeanor. (Id.)
The prosecutor's statement reflects an internal thought process about how he should
proceed, a process that would not be clearly indicated on the transcript. The transcript reveals that
the questioning of Pruitt was very limited, which is consistent with the prosecutor's statement.
(ECF No. 41-2 at PageID 494-95.) The TSC made no specific finding about the prosecutor
refraining from questioning Pruitt, but instead focused on her demeanor as the neutral reason for
the peremptory strike.
3.

Pruitt's Demeanor

Race-neutral reasons for peremptory challenges invoking a juror's demeanor make the trial
court's firsthand observations greater in importance. Snyder v. Louisiana, 552 U.S. 472, 477
(2008). The trial court must evaluate whether the prosecutor's demeanor belies a discriminatory

21

Pruitt's declaration, although Pinholster barred, actually supports the prosecution's
proffered reason because she admits being upset"[ w]hen [she] was called to the jury box to talk to
the attorneys." (See ECF No. 127-1 at PagelD 5675.)
57

80a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 61 of 142

PagelD 7757

intent and whether the juror's demeanor can be said credibly to have exhibited the basis for the
strike. Id.

The trial judge's evaluation of a prospective juror's demeanor is entitled to deference

in the absence of exceptional circumstances. Id. at 477, 479.
In Snyder, the trial court did not make a determination concerning the juror's demeanor,
but simply allowed the challenge. Id. at 479. The Supreme Court stated,
It is possible that the judge did not have any impression one way or the other
concerning Mr. Brooks' demeanor. Mr. Brooks was not challenged until the day
after he was questioned, and by that time dozens of other jurors had been
questioned. Thus, the trial judge may not have recalled Mr. Brooks' demeanor.
Or, the trial judge may have found it unnecessary to consider Mr. Brooks'
demeanor, instead basing his ruling completely on the second proffered
justification for the strike. For these reasons, we cannot presume that the trial
judge credited the prosecutor's assertion that Mr. Brooks was nervous.

Id.

The United States Supreme Court has held that none of its decisions clearly establish that a
judge must reject a Batson demeanor-based peremptory challenge unless he personally observes
and recalls that aspect of the juror's demeanor. Thaler v. Haynes, 559 U.S. 43, 44, 48 (2010) (per
curiam); see Russell v. Bunting, No. 3:15-CV-331, 2016 WL 1170883, at *8 (S.D. Ohio Mar. 25,
2016) ("[E]ven assuming there was some unexpressed demeanor component to the prosecutor's
decision, there is no constitutional difficulty with the fact that a successor judge ultimately decided
the Batson question.").
In White v. Stephens, 566 F. App'x 335, 338 (5th Cir. 2014), the prosecution struck an
African-American juror because of his reluctant and belligerent demeanor during questioning and
the fact that his brother or some relative had legal problems. The trial court failed to make
findings about the juror's demeanor and none were reflected in the record. Id.
58

The court noted

81a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 62 of 142

PagelD 7758

that Snyder does not require a trial court to make findings about a potential juror's demeanor for a

Batson challenge and thus, the court denied habeas relief in White. Id. at 338, 340.
The trial court record is also silent about Pruitt's demeanor with the exception of the
prosecutor's statement that Pruitt was teary-eyed or looked as if she were going to cry. As noted
above, the trial court is not required under Snyder to make a specific finding about Pruitt's
demeanor. The lack of objection from defense counsel supports the trial court's acceptance of the
prosecution's race-neutral reasons. See Hugueley, 185 S.W.3d at 375 ("[D]efense counsel did not
in any way indicate during the jury selection process that the prosecution's description of Ms.
Pruitt's conduct in the jury box was inaccurate."). Further, deference is giyen to the trial court to
determine the credibility of the prosecutor in stating his reasons for the peremptory strike. The
TSC relied on the trial court's assessment of the prosecutor's credibility and determined that there
was no purposeful discrimination. Id.
The TSC stated, "[t]he other person, Ms. Pruitt, had exhibited a demeanor that caused the
prosecutor to doubt her ability to sit on the jury in a composed manner." Hugueley, 185 S. W.3d at
376. To the extent that Hugueley contends that the TSC's decision is based on an unreasonable
determination of facts in light of the evidence presented, he must show clear and convincing
evidence to rebut the presumption of correctness. Even with Pruitt's declaration, stating that she
"was not happy about" being called to the jury box and that she "never had tears in [her] eyes or
cried in the court" (see ECF No. 127-1 at PageID 5675), Hugueley has not met the required
standard to rebut the presumption of correctness of the TSC's conclusion that she exhibited a
demeanor indicating that she could not sit "in a composed manner."

59

82a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 63 of 142

PagelD 7759

d. Contrary to Batson
Petitioner asserts that the justification for the strike was that four African-Americans
remained in the jury pool is contrary to Batson. (ECF No. 127 at PageID 5545.) He argues that
the trial court's decision allowing a peremptory strike because four African-Americans were
sitting on the petit jury is contrary to Batson based on the Sixth Circuit's unpublished decision in

Drain v. Woods, 595 F. App'x 558 (6th Cir. 2014). (Id. at PageID 5545-46.) Hugueley contends
that the reasons for the prosecution's strike were "implausible, incredible, and simply not true."

(Id. at PageID 5549-50.) Accordingly, he insists that the state court's denial ofrelief was contrary
to and an unreasonable application of Batson and based on an unreasonable determination of fact.

(Id. at PageID 5531, 5547, 5550.)
In Drain, the Michigan Court of Appeals' sole reason for rejecting the trial court's
conclusion that a prima face case of discrimination had been made was that the prosecutor struck
two white jurors, seven black jurors, and four black jurors remained. Drain, 595 F. App'x at 570.
The Michigan Court of Appeals based its decision on a state court case that held "[t]hat the
prosecutor did not try to remove all blacks from the jury is strong evidence against a showing of
discrimination." Id. (citing People v. Eccles, 677 N.W.2d 76, 83 (Mich. App. 2004). The Sixth
Circuit found that case to be "manifestly contrary to clearly established federal law" that "a single
racially discriminatory peremptory strike requires reversal." Drain, 595 F. App'x at 570.
The Warden contends that Hugueley's assertion that the prosecutor improperly justified
the strike by stating "'We still have four' African Americans on the jury" was an inaccurate
restatement taken out of context. (ECF No. 137 at PageID 7668.) Respondent submits that the
statement was made immediately after defense counsel's comment that Pruitt was the eighth
60

83aFiled 08/03/17 Page 64 of 142
Case 1:09-cv-01181-JDB-egb Document 144

African-American person and the seventh African-American woman stricken.

PagelD 7760

(Id.)

He

maintains that the prosecutor's reliance on Pruitt's demeanor alone was a sufficient basis for the
strike. (Id.)
Drain is not Supreme Court precedent and affects only a prima facie showing of a Batson

claim, which the TSC found in this instance. The transcript reveals and the TSC noted that it was
unclear whether the four jurors referenced were a combination of African-American men and
women or instead were four African-American women. (See ECF No. 41-3 at PageID 511.) See
Hugueley, 185 S.WJd at 371 n.8. The TSC noted that seven of the twelve jurors were white and

"assumed" that a prima face case of impermissible discrimination had been made unlike in Drain.
Id. at 371. Further, the TSC observed that the specific Batson findings required by Miller-EL II

did not become law until after Hugueley's trial. Hugueley, 185 S.W.3d at 371.

The TSC

followed the methodology for Batson from Miller-El II, about examining the "bare statistics" of
the jury pool, disparate questioning, disparate treatment, and a history of exclusion of jurors based
on race. Id. at 371-75. The "bare statistics" that 41% of the county's population was black and
the Rule 12 report indicating five of the twelve jurors were non-white did not convince the TSC
that the state's proffered race neutral reasons were pretextual. Id. at 374-75. Further, the TSC
found that there was "no indication in the record that the prosecution tailored its questions
regarding the death penalty depending on the race of the targeted venire person(s)," did not
"observe any manipulative questioning" and found no evidence of "a specific policy of
systematically excluding African-Americans from juries." Id. at 375. The TSC stated that, "[i]n
contrast to Miller-El II, the sole indication of the purposeful impermissible discrimination by the
State in this case is the fact that each of the peremptory challenges used by the State was employed
61

84a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 65 of 142

PagelD 7761

against an African-American venire person." Id. at 373, 375. The TSC noted the issues with the
trial court's inadequate findings, relied on the subjective assessment of Pruitt's demeanor, and the
trial court's credibility determinations and still found no intentional discrimination in the exercise
of peremptory challenges. Id. at 375.
As stated supra, the TSC cited and applied the correct Supreme Court precedent in Batson.

See Hugueley, 185 S.W.3d at 368-69. Hugueley has not demonstrated that the strike against
Pruitt was racially discriminatory. He has not established that the TSC's decision is contrary to or
an unreasonable application of clearly established Supreme Court precedent or based on an
unreasonable determination of facts in light of the evidence presented. Summary judgment is
GRANTED, and Claim A is DENIED.

B.

Peremptory Challenges Based on Gender

Petitioner alleges the State exercised peremptory challenges against female jurors on the
basis of their gender in violation of J.E.B. v. Alabama ex rel. T.B., 511 U.S. 127, 129 (1994).
(ECF No. 58 at PageID 4664.) He contends the prosecution's dismissal of potential jurors Pruitt,
Heard, McKinnie, and Ferguson violated his constitutional rights. (Id.) Hugueley asserts that
his claim was raised on direct appeal before the TCCA and the TSC. (Id.)
On this issue, the TSC ruled:

2. Allegedly Gender-based Peremptory Challenges
We turn now to Defendant's claim that the prosecution peremptorily
challenged Ms. Prewitt, Ms. Heard, Ms. McKinnie, and Ms. Ferguson because of
their gender. InJ.E.B. v. Alabama ex rel. T.B., 511 U.S. 127, 129, 114 S. Ct. 1419,
128 L.Ed.2d 89 (1994), the United States Supreme Court held that "gender, like
race, is an unconstitutional proxy for juror competence and impartiality." We
analyze a party's claim that a peremptory challenge is impermissibly gender-based
62

85a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 66 of 142

PagelD 7762

in the same manner as a claim that a challenge is racially motivated. See id. at
144-45, 114 S. Ct. 1419.
Initially, we note that Defendant first lodged a Batson objection to a
peremptory challenge by the State upon the prosecution's removal of Ida Ferguson.
By this time in the proceedings, the State had peremptorily challenged Linda Pirtle,
Gertrude Gibbs, and Johnny Hudson. Thus, the State used three of its first four
peremptory challenges to remove women from the jury. The record does not
indicate the specific basis for Defendant's Batson claim as to Ms. Ferguson. Nor do
the trial court's findings indicate a specific ruling as to what type of prima facie
case Defendant <;1pparently made out. Nevertheless, the trial court determined that
the State's rejection of Ms. Ferguson was permissible. We see nothing in the record
before us to indicate that the trial court's conclusion in this regard was clearly
erroneous.
The State peremptorily challenged four more jurors, three of them female.
Thus, of a total of eight peremptory challenges exercised by the prosecution, six
were utilized against female venire persons, or 75%. However, as to each of the
four women peremptorily challenged and to which Defendant lodged a Batson
objection, the State proffered gender-neutral reasons for their removal. The trial
court obviously determined that the State's proffered reasons were legitimate and
not merely pretextual. The record before us does not convince us that the trial court
thereby erred. The jury that tried Defendant included six female jurors. The State
had seven of its peremptory challenges remaining when the jury was empaneled.
All but one of the venire persons peremptorily challenged by the State and to which
Defendant lodged a Batson objection had indicated some disinclination to impose
the death penalty. The other person, Ms. Pruitt, had exhibited a demeanor that
caused the prosecutor to doubt her ability to sit on the jury in a composed manner.
In sum, we are satisfied that the trial court's findings on Defendant's gender-based
Batson claims are not clearly erroneous. Accordingly, Defendant is not entitled to
relief on this issue.

Hugueley, 185 S.W.3d at 375-376 (footnotes omitted).
The Warden argues that Hugueley has offered no argument or factual basis to support his
claim and has not demonstrated that the decision was unreasonable. (ECF No. 112-1 at PageID
5444-45.) Respondent further asserts that the TSC's rejection of the gender bias claim was not
contrary to or an unreasonable application of clearly established federal law and was based on a

63

86a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 67 of 142

PagelD 7763

reasonable determination of facts in light of the evidence presented. (Id. at PageID 5445.) He
contends that the claim is inadequately pied. (Id. at PageID 5476.)
Hugueley has failed to plead facts supporting his claim under Habeas Rule 2(c). (See ECF
No. 58 at PagelD 4664.) Hugueley also has not presented an argument in opposition to the
motion for summary judgment.
The TSC applied the correct legal precedent from J.E.B., 511 U.S. at 144-45, extending
Batson to intentional gender discrimination in the use of peremptory strikes. See Hugueley, 185

S.W.3d at 375. Three of the female jurors-Heard, McKinnie, and Ferguson-were removed
because of their opposition to the death penalty, and Pruitt was removed based on her demeanor as
discussed supra. See Hicks v. Collins, 384 F.3d 204, 224 (6th Cir. 2004) (explaining that the
prosecution's use of peremptory challenges to exclude jurors who opposed the death penalty does
not deny a capital defendant an impartial jury, as long the strike is not based on race or gender).
The proffered reasons for the strike were not pretextual, and there is no indication of purposeful
discrimination on the record. See Strickland v. Pitcher, 162 F. App'x 511, 518 (6th Cir. 2006)
(denying habeas relief where the prosecution presented facially valid reasons for the peremptory
strike without inherent discriminatory intent).

The TSC's decision is not contrary to or an

unreasonable application of clearly established Supreme Court precedent and is based on a
reasonable determination of facts in light of the evidence presented.

Summary judgment is

GRANTED, and Claim B is DENIED.
C.

Prospective Juror Barry Watkins

Hugueley next argues that the trial court erred in refusing to dismiss for cause prospective
juror Barry Watkins, whose brother Donald Watkins worked at HCCF and was a potential witness
64

87a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 68 of 142

PagelD 7764

for the prosecution. (ECF No. 58 at PagelD 4664.) He asserts that this claim was raised on
direct appeal before the TCCA and the TSC. (Id.)
The TSC held on this issue as follows:

B. Trial Court's Refusal to Dismiss Juror for Cause
Defendant also asserts in this appeal that the trial court erred in refusing to
dismiss potential juror Barry Watkins for cause. The State disagrees.
During the trial court's initial questioning of the venire, Mr. Barry Watkins
responded that he knew something about the case. When asked for the source of his
information, Mr. Watkins replied that one of his brothers worked at the prison
where the killing occurred. Mr. Watkins stated, however, that the information he
had obtained had not caused him to form an opinion about Defendant's guilt or
innocence. Defense counsel subsequently requested a sequestered voir dire of Mr.
Watkins, which the trial court granted. During this additional voir dire, defense
counsel asked Mr. Watkins ifhe was a convicted felon. Mr. Watkins responded that
he had been arrested but not convicted. He explained that more than twenty years
earlier, he had been arrested for a robbery. While he was being held, they arrested
"the guy that did it." The charges against Mr. Watkins were then dismissed. He
was under the impression that his arrest was still "on record" because he was not
allowed to buy guns.
Mr. Watkins stated that Mr. Donald Watkins was his half-brother. Mr.
Watkins explained that he knew his half-brother might be called as a prosecution
witness, but maintained that "that's all I knew." His half-brother told him that he
would need to advise the court of their relationship. When asked by the court if this
relationship would affect his judgment, Mr. Watkins replied, "I can listen to the
facts and what's been proven to me. He is my brother but he can be mistaken like
anybody else." Mr. Watkins maintained that he would not give his relative's
testimony any more weight or believability than that of the other witnesses. Mr.
Watkins told the trial court that his brother had not told him what his testimony
would be about, or what he claimed the facts to be. Mr. Watkins stated that he had
not heard Defendant's name until "today."
Following this individual voir dire, defense counsel moved to strike Mr.
Watkins for cause on the grounds that "it's too hard to overcome the bias of your
brother testifying in the State's case in chief." The trial court denied defense
counsel's request. Defendant now contends that the trial court's ruling resulted in
a violation of his constitutional rights to a fair and impartial jury.
65

88aFiled 08/03/17
Case 1:09-cv-01181-JDB-egb Document 144

Page 69 of 142

PagelD 7765

We are initially constrained to point out that Defendant did not raise this
issue in his motion for new trial. Accordingly, this issue has been waived. See
Tenn. R. App. P. 3(e) ("[I]n all cases tried by a jury, no issue presented for review
shall be predicated upon error in the admission or exclusion of evidence, jury
instructions granted or refused, misconduct of jurors, parties or counsel, or other
action committed or occurring during the trial of the case, or other ground upon
which a new trial is sought, unless the same was specifically stated in a motion for a
new trial; other-wise such issues will be treated as waived."). Nevertheless,
because this is a capital case, and because this issue involves Defendant's
fundamental constitutional rights to a fair and impartial jury, we choose to address
it on the merits.
Both the United States and Tennessee Constitutions guarantee criminal
defendants the right to a trial by an "impartial jury." U.S. Const. amend. VI; Tenn.

Const. art. I, § 9. "The impartial jury guaranteed by constitutional provisions is
one which is of impartial frame of mind at the beginning of trial, is influenced only
by legal and competent evidence produced during trial, and bases its verdict upon
evidence connecting defendant with the commission of the crime charged." State v.
Lawson, 794 S.W.2d 363, 367 (Tenn. Crim. App. 1990). To protect this right,
litigants have the right to lodge a "propter affectum" challenge for cause to a
potential juror on the basis that he or she is biased or prejudiced for or against one
of the parties. See Toombs v. State, 197 Tenn. 229, 270 S.W.2d 649, 650 (1954);
State v. Akins, 867 S.W.2d 350,355 (Tenn. Crim. App. 1993). A propter affectum
challenge should be upheld where some bias or partiality is either actually shown to
exist or is presumed to exist from circumstances. Durham v. State, 182 Tenn. 577,
188 S. W.2d 555, 559 (1945). Circumstances justifying a presumption of bias
include a juror's willful concealment of "ulterior and prejudicial motives" arising
from his prior conviction and prior involvement as prosecuting witness in a case
very similar to the defendant's, see id. at 559, and a juror's failure to disclose a
"very close" familial relationship between the juror and the prosecuting attorney's
wife, see Toombs, 270 S.W.2d at 651.
In this case, the trial court overruled defense counsel's challenge for cause
to Mr. Watkins after both the prosecution and defense counsel had an opportunity
to closely question him during a period of sequestered voir dire and after the trial
court itself probed Mr. Watkins' impartiality. The trial court was obviously
satisfied that Mr. Watkins' relationship would not prevent or substantially impair
the performance of his duties as a juror in accordance with his instructions and his
oath. A determination of the qualifications of a juror rests within the sound
discretion of the trial court. State v. Howell, 868 S.W.2d 238, 248 (Tenn. 1993).
We find no abuse of discretion in the trial court's refusal to excuse juror Watkins
for cause in this case.
66

89a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17

Page 70 of 142

PagelD 7766

Defendant relies heavily on the Court of Criminal Appeals' opinion in State
v. Pamplin, 138 S.W.3d 283 (Tenn. Crim. App. 2003). In that case, the defendant
was on trial for assaulting a city police officer and resisting an-est. One of the
potential jurors was a county deputy sheriff who knew both the assaulted officer
and the defendant. The deputy had previously served as a judicial commissioner for
eight years and his sister-in-law worked for the district attorney. The deputy was a
member of the same law enforcement agency as one of the prosecution's primary
witnesses; indeed, the deputy was a subordinate employee of that witness. The
deputy reported for jury duty in his uniform, including his badge and sidearm. The
trial court denied the defendant's challenge to excuse the deputy from jury duty for
cause. Because the defendant had exhausted all of his peremptory challenges, the
deputy remained on the jury and was subsequently elected its foreman.
On appeal, the intermediate appellate court detennined that the trial court
had committed manifest en-or in refusing to excuse the deputy juror, finding that his
"professional relationship and interest in the case was entirely too close to that of
[the State's witness] and [the victim]." Id. at 286. The court noted not only the
relationship between the deputy and the State's witnesses, but the nature of the case
(involving an assault on a police officer) and the fact that the deputy served on the
jury while in full uniform and wearing his sidearm. Id. The court emphasized that
"the jury selection process should endeavor to select jurors who are not only fair
and impartial but are also free from the suspicion of impartiality." Id. at 287.

We find the Pamplin case to be readily distinguishable from Defendant's.
The combination of factors present in the Pamplin case created an egregious set of
circumstances which are simply not present in the case before us. While we
certainly agree that a close familial relationship between a juror and a witness may
give rise to a suspicion of partiality, we are reluctant to conclude that a half-sibling
connection is sufficient, in and of itself, to raise a presumption of bias so as to
require a trial court to grant a propter affectum challenge. We recognize that many
ties of kinship do not result in close relationships, and we are therefore unwilling to
presume any particular level of bias arising from the familial relationship between
Mr. Watkins and the State's witness. Rather, we agree with Maryland's high court
on this point: "Although the relationship of a juror to one of the witnesses may
present an opportunity for prejudice, bias will not be presumed and the defendant is
not relieved of the burden of presenting facts in addition to mere relationship which
would give rise to a showing of actual prejudice." Bristow v. State, 242 Md. 283,
219 A.2d 33, 34 (1966); see also Bowman v. State, 598 S.W.2d 809, 812 (Tenn.
Crim. App. 1980) (recognizing that, when the challenged juror disclosed her social
relationship with one of the prosecuting attorneys, "[t]he burden is on the defendant
to demonstrate that the juror was in some way biased or prejudiced" because the
prosecuting attorney testified as a rebuttal witness).
67

90a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17

Page 71 of 142

PagelD 7767

In this case, Defendant has failed to present sufficient facts about juror
Watkin[s'] relationship with his half-brother to demonstrate either actual prejudice
or that a presumption of prejudice is justified. Juror Watkins was forthcoming
about his relationship with one of the State's witnesses. Moreover, he obviously
convinced the trial court that he could judge the evidence in a non-biased manner
and with no preconceived notion of Defendant's guilt. There is nothing in the
record before us that convinces us that the trial court erred in reaching this
conclusion.
Moreover, as this Court has previously held, "the failure to correctly
exclude a juror for cause is grounds for reversal only if the defendant exhausts all of
his peremptory challenges and an incompetent juror is forced upon him." Howell,
868 S.W.2d at 248 (emphasis added). In this case, Defendant did, indeed, exhaust
all of his peremptory challenges, using one of them to excuse Mr. Watkins.
However, we disagree with Defendant that an incompetent juror was thereby thrust
upon him. Defendant argues that "[b ]ased on the non-exclusion of ... Barry
Watkins for cause, [he] was forced to accept at least three (3) jurors that were
incompetent, biased and/or not impartial" because they had prior knowledge of the
allegations against Defendant from the media or personal relationships. Defendant
particularly targets the jury foreperson, Mr. Burrough, who acknowledged some
prior familiarity with the case from an acquaintance who worked at the Hardeman
County Correctional Facility.
Mr. Burrough answered affirmatively the trial court's initial inquiry as to
whether he had "heard or read anything at all about this case [.]" Mr. Burrough
explained that his source of information was an acquaintance that worked at the
prison. Mr. Burrough stated that the information he had heard had not caused him
to form an opinion about Defendant's guilt or innocence and stated further that he
would be able to base his verdict on the law and evidence charged by the trial court.
Similarly, jurors Edna Blake and Eric Bolden indicated that they had each gained
some information about the case from the media and/or "hearsay at work" prior to
trial. Each assured the trial court that they had not formed an opinion about
Defendant's guilt or innocence based on what they had heard.
Our rules of criminal procedure provide that a prospective juror may be
challenged for cause where
[t]he prospective juror's exposure to potentially prejudicial information
makes the person unacceptable as a juror. Both the degree of exposure and
the prospective· juror's testimony as to his or her state of mind shall be
considered in determining acceptability. A prospective juror who states that
he or she will be unable to overcome preconceptions shall be subject to
challenge for cause no matter how slight the exposure. If the prospective
68

91a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 72 of 142

PagelD 7768

juror has seen or heard and remembers infonnation that will be developed in
the course of trial, or that may be inadmissible but is not so prejudicial as to
create a substantial risk that his or her judgment will be affected, the
prospective juror's acceptability shall depend on whether the testimony as to
impartiality is believed. If the prospective juror admits to having formed an
opinion, he or she shall be subject to challenge for cause unless the
examination shows unequivocally that the prospective juror can be impartial.
Tenn. R. Crim. P. 24(b)(2). The record reveals that defense counsel made no
attempt to challenge Mr. Burrough, Ms. Blake, or· Mr. Bolden for cause.
Apparently, defense counsel determined that none of these persons was so biased or
prejudiced by the information they had heard prior to trial as to justify a for-cause
challenge. Yet, Defendant now contends that he was forced to accept these
"incompetent, biased and/or not impartial" jurors because he exercised a
peremptory challenge against Mr. Watkins.
Defendant fails to explain how these jurors' mild familiarity with the case
prior to trial rendered them incompetent as jurors. Defendant has demonstrated
neither partiality on the part of any of these jurors, nor any prejudice that he
suffered as a result of any of these three persons sitting on the jury. "Juror bias
must be shown, not just suspected." Lawson, 794 S.W.2d at 367 (citing Smith v.
Phillips, 455 U.S. 209, 102 S. Ct. 940, 71 L.Ed.2d 78 (1982)). We are not
persuaded that any of these three jurors was "incompetent" as required by Howell.
Defendant has simply failed to demonstrate that he is entitled to a new trial on the
basis of the trial court's refusal to dismiss Barry Watkins for cause. Accordingly,
Defendant is not entitled to relief on this issue.
Hugueley, 185 S.W.3d at 376-80 (footnote omitted).

The TSC determined that the claim was waived, but decided to address it on the merits.
Id. at 377. 22 The Court will therefore address the merits of the claim.

The Warden asserts that Barry Watkins did not sit on the jury, and there was no viable
constitutional claim. (ECF No. 121-1 at PageID 5455.) He notes that Hugueley has offered no
argument or factual basis for his claim. (Id.) Respondent argues that the TSC's rejection of

22

Respondent argues that, if the Court does not find this claim procedurally defaulted, it
should be denied as meritless. (ECF No. 121-1 at PageID 5455.)
69

92a

Case 1:09-cv-01181-JDB-eglJ Document 144 Filed 08/03/17 Page 73 of 142

PagelD 7769

Hugueley's claim was not contrary to or an unreasonable application of clearly established federal
law or based on an unreasonable determination of fact. (Id.) Hugueley does not address this
claim in his response to the motion for summary judgment.
The Sixth Amendment commands that every criminal defendant "shall enjoy the right to a
speedy and public trial, by an impartial jury."

U.S. Const. amend. VI. In addition to the

safeguards articulated in the Sixth Amendment, the Constitution's due process protections
likewise afford to criminal defendants the right to be tried by an impartial jury. Dennis v.
Mitchell, 354 F.3d 511,520 (6th Cir. 2003) (citing Morgan v. Illinois, 504 U.S. 719, 727 (1992)).

As is recognized, the voir dire process is designed to protect this right "by exposing possible
biases, both known and unknown, on the part of potential jurors."

Id. at 520 (quoting

McDonough Power Equip., Inc. v. Greenwood, 464 U.S. 548, 554 (1984)). "A court must excuse

a prospective juror if actual bias is discovered during voir dire." Hughes v. United States, 258
F.3d 453, 459 (6th Cir. 2001 ). Actual bias or "bias in fact" is "the existence of a state of mind that

leads to an inference that the person will not act with entire impartiality." Id. at 463. The
doctrine of presumed or implied bias provides that, in exceptional cases, courts should employ a
conclusive presumption that a juror is biased when "the relationship between a prospective juror
and some aspect of the litigation is such that it is highly unlikely that the average person could
remain impartial in his deliberations under the circumstances." Treesh v. Bagley, 612 F.3d 424,
437 (6th Cir. 2010). Implied bias may be found when a juror has "a relationship in which the
potential for substantial emotional involvement, adversely affecting impartiality, is inherent," such
as when there juror is a close relative of one of the trial participants.

United States v. Russell, 595

F.3d 633,641 (6th Cir. 2010). The Sixth Circuit has questioned the continued viability of implied
70

93a

Case 1:09-cv-01181-JDB-eglJ Document 144 Filed 08/03/17 Page 74 of 142

PagelD 7770

bias. Treesh, 612 F.3d at 437. Further, the implied-bias doctrine is not supported by clearly
established Supreme Court precedent. See Lang v. Bobby, No. 5:12 CV 2923, 2015 WL 1423490,
at *45 (N.D. Ohio Mar. 27, 2015).
The relevant question for juror impartiality is "did [the] juror swear that he could set aside
any opinion he might hold and decide the case on the evidence, and should the juror's protestation
of impartiality have been believed." See Patton v. Yount, 467 U.S. 1025, 1036 (1984). The
Supreme Court has stated:
To hold that the mere existence of any preconceived notion as to the guilt or
innocence of an accused, without more, is sufficient to rebut the presumption of a
prospective juror's impartiality would be to establish an impossible standard. It is
sufficient if the juror can lay aside his impression or opinion and render a verdict
based on the evidence presented in court.
Irvin v. Dowd, 366 U.S. 717, 723 (1961).
In Treesh, the Sixth Circuit did not find implied bias based on a "mere student-teacher
relationship" and noted that the record did· not establish actual bias where the juror and defense
counsel did not appear to have a close relationship. Treesh, 612 F.3d at 437-38.
In Lang, a potential juror's stepfather was the brother of the victim. Lang, 2015 WL
1423490, at *46. The juror attended the victim's funeral with her stepfather without knowing
anything about his brother's death other than what was in the newspaper. Id.

The court did not

find implied-bias where the juror had not seen the victim in some time, did not live with her
stepfather, and did not talk to anyone in her family about the case. Id.

Further, the juror assured

the court that her relationship to the victim did not cause her any personal problem or prevent her
from being impartial. Id.

71

94aFiled 08/03/17 Page 75 of 142
Case 1:09-cv-01181-JDB-egb Document 144

PagelD 7771

In United States v. Weir, 587 F. App'x 300, 305-06 (6th Cir. 2014), the Sixth Circuit
analyzed implied bias of a juror because of a loose familial relationship with the kidnapping
victim.

The juror's sister's husband's brother (brother-in-law's brother) was married to the

victim's daughter. Id. at 305. The victim's daughter was a godparent to the juror's nephews.

Id.

However, the juror said the relationship would not impact her ability to be objective. Id.

The Sixth Circuit held that, "even assuming implied bias is still a basis for juror disqualification,"
the relationship was not sufficiently close to warrant the doctrine of implied bias. Id. at 305-06.
In the instant case, Watkins informed the court that "[o]ne of my brothers works out at the
prison." (ECF No. 41-2 at Page!D 394.) The court followed up with questions:
THE COURT:
Has that caused you to fonn an opinion about the
guilt or innocence of the accused?
MR. WATKINS:

No.

THE COURT:
Would you be able to judge this case on the law and
evidence you hear today and tomorrow and the next day? Could you do that?
MR. WATKINS:

Yes, sir.

(Id. at PagelD 394-95.) Watkins said that his brother worked at HCC[F] where the incident took
place. (Id. at PageID 421.)
The prosecutor continued:
GENERAL DYCUS: HCC[F]? You know that's where this incident is
alleged to have taken place. I think the judge asked if you heard about it but you
can sit fairly in this case. You realize what you heard is not proof; it's going to
come from the stand?
MR. WATKINS:

Right.

GENERAL DYCUS: All right. And you sat on a Jury once before,
criminal jury, about twelve years ago, I think.
72

95a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17

MR. WATKINS:

PagelD 7772

I was dismissed.

GENERAL DYCUS: You were dismissed.
death warrant?
MR. WATKINS:

Page 76 of 142

Okay.

Could you sign a

I could.

(Id.)
Barry Watkins stated that he was the half-brother of Donald L. Watkins. (Id. at PageID
440.) The State indicated that Donald Watkins would be one of its witnesses, and Barry Watkins
was aware that his half-brother might be called as a witness for the State. (Id.) Barry Watkins
said that it would not affect him. (Id.)

He said, "I can listen to the facts and what's been proven

to me. He is my brother but he can be mistaken like anybody else." (Id.) Donald Watkins only
told Barry "that something happened at the prison and that he would be a witness and that's all that
I know." (Id. at PageID 440-41.) Donald told Barry that "I needed to let y'all know." (Id. at

PageID 441.) Donald did not tell Barry about the facts of the case. (Id.) Barry Watkins had not
heard the defendant's name until voir dire; two or three days before voir dire, Barry had read a
headline about the case. (Id.)
Defense counsel objected for cause saying, "I believe it's too hard to overcome the bias of
your brother testifying .... " (Id. at PagelD 444.) The prosecution noted that Barry Watkins
specifically said "brothers are sometimes wrong, too, and he said he'd be open-minded about it and
listen to all the proof ...." (Id.) The court overruled the motion to strike Barry Watkins for
cause. (Id.)

73

96a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 77 of 142

PagelD 7773

Barry Watkins exhibited that he was impartial and not influenced by his half-brother's
involvement. Neither actual or implied bias has been shown, and the trial court's denial of the
strike for cause is reasonable.
After the denial of defense counsel's for cause challenge, Watkins was excluded from the
jury based on a peremptory strike. The United States Supreme Court has held,
we reject the notion that the loss of a peremptory challenge constitutes a violation
of the constitutional right to an impartial jury. We have long recognized that
peremptory challenges are not of constitutional dimension. They are a means to
achieve the end of an impaitial jury.

Ross v. Oklahoma, 487 U.S. 81, 88 (1988) (citation omitted); United States v. Martinez-Salazar,
528 U.S. 304, 311 (2000) (noting that peremptory challenges are "auxiliary" and "not of federal
constitutional dimension"); see id. at 313 (stating that without more, the loss of a peremptory
challenge does not constitute a violation of the constitutional right to an impartial jury).
Consistent with Ross, the Sixth Circuit in Beuke v. Houk, 537 F.3d 618,638 (6th Cir. 2008), denied
habeas relief to a petitioner who claimed that the denial of four prospective jurors for cause forced
him to use valuable peremptory challenges. The court stated any claim that the jury was not
impartial must focus on the jurors who ultimately sat on the jury. Id.

Since Watkins did not sit

on Hugueley'sjury, his right to an impartial jury was not denied by the trial court's failure to strike
Watkins' for cause. Hugueley's constitutional rights have not been violated.
The TSC's decision was not contrary to or an unreasonable application of clearly
established Supreme Court precedent and was based on a reasonable determination of facts in light
of the evidence presented.
Summary judgment is GRANTED, and Claim C is DENIED.
74

97a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 78 of 142

D.

PagelD 7774

Insufficient Evidence of Aggravating Circumstances

Hugueley alleges the evidence was insufficient to support the jury's finding of the
aggravating circumstances that: (1) he had prior convictions involving the use of violence; (2) the
killing was especially heinous, atrocious, or cruel; (3) he was in lawful custody at the time of the
killing; and (4) the victim was a corrections employee. (ECF No. 58 at PageID 4665.)
On direct appeal, the TSC held on this issue:

B. Sufficiency of Aggravating Circumstances
We tum now to the sufficiency of the evidence supporting the jury's finding
of statutory aggravating circumstances. In this case, the jury determined that the
State had proven beyond a reasonable doubt four aggravating circumstances: (a)
Defendant was previously convicted of one or more felonies, other than the present
charge, whose statutory elements involve the use of violence to the person; (b)
Defendant's murder of the victim was especially heinous, atrocious, or cruel in that
it involved torture or serious physical abuse beyond that necessary to produce
death; (c) Defendant committed the murder while he was in lawful custody or in a
place of lawful confinement; and (d) the murder was committed against a
corrections employee who was engaged in the performance of official duties. See
Tenn. Code Ann. § 39-13-204(i)(2), (5), (8), (9) (Supp. 1999). We must now
review the evidence supporting each of these aggravating circumstances in the light
most favorable to the State and determine whether a rational trier of fact could have
found the existence of each beyond a reasonable doubt. State v. Bane, 57 S.W.3d
411,426 (Tenn. 2001).
1. Prior Convictions

During the sentencing phase of Defendant's trial, the State introduced by
stipulation three certified judgments against Defendant. These documents indicate
that judgments of conviction were entered against Defendant in 1986 for first
degree murder; in 1992 for first degree murder; and in 1998 for criminal attempt to
commit first degree murder. Obviously, the statutory elements of the felony of first
degree murder involve the use of violence to the person. See Tenn. Code Ann. §
39-13-202(a). This Court has further held that the statutory elements of attempted
murder involve the use of violence to the person. State v. Cribbs, 967 S.W.2d 773,
782-83 (Tenn. 1998). Accordingly, we hold that the evidence is sufficient to
support the jury's finding of the existence of this aggravating circumstance. See
Tenn. Code Ann.§ 39-13-204(i)(2) (Supp.1999).
75

98a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 79 of 142

PagelD 7775

2. Especially Heinous, Atrocious, or Cruel

The jury determined that Defendant's murder of Steed was especially
heinous, atrocious, or cruel in that it involved torture or serious physical abuse
beyond that necessary to produce death. See id. at (i)(5). This aggravating
circumstance may be applied if the evidence is sufficient to support either torture or
serious physical abuse beyond that necessary to produce death. State v. Suttles, 30
S.W.3d 252,262 (Tenn. 2000).
This Court has defined "serious physical abuse beyond that necessary to
produce death" as follows:
The word "serious" alludes to a matter of degree. The abuse must be physical,

as opposed to mental, and it must be "beyond that" or more than what is
"necessary to produce death." "Abuse" is defined as an act that is "excessive"
or which makes "improper use of a thing," or which uses a thing "in a manner
contrary to the natural or legal rules for its use."

State v. Odom, 928 S.W.2d 18, 26 (Tenn. 1996) (quoting Black's Law Dictionary
11 (6th ed. 1990)). The proof in this case established that Defendant stabbed Steed
a total of thirty-six times. Twelve of the wounds were fatal. Dr. Smith testified that
Defendant's infliction of so many wounds to the victim qualified for application of
the term "overkill." He explained: "there was excessive injury done to the body far
in excess of what would be necessary to cause death." The proof is more than
sufficient to support the jury's finding of this aggravating circumstance.
3. Defendant in Lawful Custody

The proof at trial that Defendant was in lawful custody or in a place of.
lawful confinement at the time he killed Steed is clear and uncontroverted. The
evidence is therefore sufficient to support the jury's finding of this aggravating
circumstance. See Tenn. Code Ann. § 39-13-204(i)(8) (Supp.1999).
4. Corrections Employee Victim

The record in this case contains a copy of the jury's verdict form which
includes the written jury instructions provided to the jury by the trial court. These
instructions informed the jury that it could apply as an aggravating circumstance
that "[t]he murder was committed against any law enforcement officer, corrections
official, corrections employee, engaged in the performance of official duties." The
verdict form returned by the jury contains a hand-written finding by the jury that it
applied as an aggravating circumstance that "the murder was committed against
76

99a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 80 of 142

PagelD 7776

any law enforcement officer, corrections official, corrections employee, engaged in
the performance of official duties."
The written instruction provided to the jury on this aggravating
circumstance was erroneous. Our criminal code provides that the fact-finder may
consider as an aggravating circumstance that
[t]he murder was committed against any law enforcement officer, corrections
official, corrections employee, emergency medical or rescue worker,
emergency medical technician, paramedic or fire-fighter, who was engaged
in the performance of official duties, and the defendant knew or reasonably

should have !mown that such victim was a law enforcement officer,
corrections official, corrections employee, emergency medical or rescue
worker, emergency medical technician, paramedic or.fire-fighter engaged in

the pe,formance of official duties.
Id. at (i)(9) (emphasis added). The trial court's written instruction to the jury in this
case omitted the element requiring that Defendant knew or reasonably should have
known that the victim was a law enforcement officer, corrections official, or
corrections employee engaged in the performance of official duties.
Defendant did not raise this issue at trial, in his motion for new trial, or on
appeal. Nevertheless, this Court will review a patently incomplete instruction at a
capital sentencing hearing under the "plain error" doctrine, regardless of a
defendant's failure to raise the issue. See State v. Stephenson, 878 S.W.2d 530, 554
(Tenn. 1994); see also State v. Hines, 758 S.W.2d 515, 523 (Tenn. 1988)
(characterizing as "plain error" the trial court's incomplete instructions on two of
three aggravating circumstances found by the jury). This Court will grant relief
under the plain error doctrine only "where necessary to do substantial justice."
Tenn. R. Crim. P. 52(b). As we have stated previously, "the error must be of such a
great magnitude that it probably changed the outcome of the trial." State v.
Faulkner, 154 S.W.3d 48, 58 (Tenn. 2005). An appellate court will reverse for plain
error only if:
(a) the record ... clearly establish[es] what occurred in the trial court;
(b) a clear and unequivocal rule of law [has] been breached;
(c) a substantial right of the accused [has] been adversely affected;
(d) the accused did not waive the issue for tactical reasons; and
(e) consideration of the error is "necessary to do substantial justice."
77

100a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17

Page 81 of 142

PagelD 7777

State v. Smith, 24 S.W.3d 274, 282 (Tenn. 2000) (quoting State v. Adkisson, 899
S.W.2d 626, 641-42 (Tenn. Crim. App. 1994)). All five factors must be established
and an appellate court need not consider all five factors if any one factor indicates
that relief is not warranted. Id. at 283.
In this case, the proof at trial was uncontroverted that Defendant knew the
victim was a corrections employee: [I]ndeed, Defendant committed the murder
because of the victim's performance in that role. The proof at trial was further
uncontroverted that Defendant knew the victim was engaged in the performance of
his official duties when Defendant brutally stabbed him to death. Defendant told
Mr. Dunaway that he approached the victim during a counseling session only to be
ignored. At that point, Defendant determined to kill the victim.

Hugueley, 185 S.W.3d at 381-83.
The Warden argues that the TSC's determination was not an umeasonable application of
clearly established federal law and was based on a reasonable determination of fact. (ECF No.
112-1 at PagelD 5456.)

Respondent argues that Hugueley's two prior murder convictions

involved the use of violence. (Id.) He notes that Petitioner, knowing that Steed was a prison
counselor, stabbed him 36 times with a homemade shank, which was clearly heinous, atrocious,
and cruel. (Id.) Respondent contends that Hugueley murdered Steed because of his performance
in his role as a prison counselor. (Id.) He insists that Hugueley has offered no argument or
factual basis to support his claim and has not shown that the court's decision was unreasonable.
(Id.) Respondent also asserts that the claim was inadequately pied under Habeas Rule 2 because

the inmate provided no argument or factual support for his conclusory assertion. (Id. at PageID
5477-78.)
Hugueley has failed to plead facts supporting his claim under Habeas Rule 2(c). (See ECF
No. 58 at PageID 4665.) Further, he has failed to present an argument in opposition to the motion
for summary judgment on this claim.
78

101a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 82 of 142

PagelD 7778

In Jackson v. Virginia, the Supreme Court held that, "in a challenge to a state criminal
conviction brought under 28 U.S.C. § 2254-if the settled procedural prerequisites for such a
claim have otherwise been satisfied-the applicant is entitled to habeas corpus relief if it is found
that upon the record evidence adduced at the trial no rational trier of fact could have found proof of
guilt beyond a reasonable doubt." Jackson, 443 U.S. at 324. This standard requires a federal
district court to examine the evidence in the light most favorable to the State. Id. at 326 ("[A]
federal habeas corpus court faced with a record of historical facts that supports conflicting
inferences must presume-even if it does not affirmatively appear in the record-that the trier of
fact resolved any such conflicts in favor of the prosecution, and must defer to that resolution.").
Hugueley has not stated the basis upon which he seeks habeas relief for this claim. The
TSC applied the correct legal standard from Jackson v. Virginia. Hugueley, 185 S.W.3d at 381.
The court found that the evidence was sufficient to support the jury's findings of the following four
statutory aggravating circumstances: (1) Hugueley had previously been convicted of one or more
violent felonies; (2) the murder was especially heinous, atrocious, or cruel; (3) the murder was
committed while the inmate was in lawful custody; and (4) the murder was committed against a
corrections employee who was engaged in the performance of his official duties and who
Hugueley knew or reasonably should have known was a corrections employee engaged in the
performance of his official duties. Id. at 3 81-83.
With regard to the prior violent felony aggravating circumstance, evidence was presented
at trial that Petitioner was convicted of murdering his mother in 1986, first degree murder of James
Shelton in 1992, and criminal attempt to commit first degree murder ofTimmerall Nelson in 1998.

79

102a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 83 of 142

Id.

PagelD 7779

(See ECF No. 41-5 at PageID 689-90, 825-27; see ECF No. 58 at PageID 4667-72.) The last

two convictions occurred while Hugueley was incarcerated.
With regard to the heinous, atrocious, or cruel aggravating circumstance, evidence was
presented that Hugueley stabbed Steed thirty-six times with twelve wounds being fatal. Id. at
364-65, 381. Smith described the wounds as "overkill" and causing "excessive injury" beyond
what was required to case death. Id. at 381-82. Petitioner testified,
I was stabbing Counselor Steed. He was laying on the floor, stomach down. I
was trying to drive it plumb through and hit the concrete below him. That was my
intentions.
(ECF No. 41-4 at Page ID 641.) He said "And, like I said, if my knife hadn't broke, there'd been
more people dead." (ECF No. 41-5 at PageID 791.) He described the incident, "the knife itself
didn't break. I ... I run it through a spinal c[]ord, I believe it was ... stuck in there, and when I
pulled out ... when I pulled out, it was still off in it, ... and I had the handle in my hand." (Id. at
PageID 792.) Hugueley said "I went for the most vital organs first . . . the heart and the lung."
(Id. at PagelD 795.) He related, "They stood there and watched me stab him a least another eight

times." (ECF No. 41-4 at PageID 643.) Hugueley said that he only quit stabbing Steed because
the knife handle came off and that otherwise he probably still would have been stabbing the victim
today. (Id. at PageID 655.)
With regard to the last two aggravating circumstances, the proof was that Hugueley was
incarcerated at HCCF at the time that he killed Steed, who was his corrections counselor in the
performance of his duties. Id. at 382.
Based on this Court's review of the transcript (see ECF No. 41 4 at PageID 685-92; see
also ECF No. 41-5 at PageID 702-841), the testimony and evidence were more than sufficient to

80

103a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 84 of 142

PagelD 7780

permit a rational trier of fact, examining the evidence in the light most favorable to the State, to
find these aggravating circumstances beyond a reasonable doubt. The TSC's decision is not
contrary or an unreasonable application of clearly established Supreme Court precedent and is
based on a reasonable determination of facts in light of the evidence presented.

Summary

judgment is GRANTED, and Claim Dis DENIED.

E.

Jury Instruction on the Aggravating Circumstance of Killing A Correctional
Employee

Hugueley alleges that the trial court erred in instrncting the jury on the aggravating
circumstance relating to the killing of a correctional employee by not charging the jury as to all of
the elements of the offense. (ECF No. 58 at 6.) He asserts that the trial court failed to inform the
jury as to the statutory requirement that the defendant "knew or reasonably should have known that
such victim was a law enforcement officer, corrections official, corrections employee, emergency
medical or rescue worker, emergency medical technician, paramedic or firefighter engaged in the
performance of official duties." (Id.) See Tenn. Code Ann.§ 39-13-204(i)(9).
The TSC addressed this claim on direct appeal and stated that "the proof was
uncontroverted that Defendant knew the victim was a corrections employee . . . . The ·proof at
trial was further uncontroverted that Defendant knew the victim was engaged in the performance
of his official duties when Defendant brutally stabbed him to death." Hugueley, 185 S.W.3d at
383. The court determined that Hugueley was not entitled to relief because he "admitted his
knowledge of the victim's employment and that the victim was engaged in official duties at the
time Defendant killed him." Id.

81

104a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17

Page 85 of 142

PagelD 7781

1. Plain Error Review & Procedural Default

The Warden argues that the claim is barred by procedural default because the TSC's
rejection of the claim rested on the enforcement of the independent and adequate state law ground
of waiver.

(ECF No. 112-1 at PageID 5465-66.)

See Hugueley, 185 S.W.3d at 382.

Respondent contends that the claim was reviewed on plain error, and in the Sixth Circuit, plain
error review is not equivalent to a review on the merits and does not save a claim from procedural
default. (Id. at PageID 5466.) He asserts that the TSC correctly noted Hugueley's failure to
preserve appellate review and "actually enforced" the state procedural bar of waiver. (Id.)
Petitioner claims that the state procedural bar does not apply. (ECF No. 127 at PageID
5651.) He argues that the TSC never used the word "waived" when it reviewed the claim on the
merits sua sponte, and the TSC's notation that the issue had not been previously raised is not a
finding of waiver and does not amount to an adequate procedural bar. (Id.) He relies on Harris
v. Reed, 489 U.S. 255 (I 989), for the proposition that consideration of a federal claim is not

prohibited unless the state court "clearly and expressly states that its judgment rests on a state
procedural bar." (Id. at PageID 5651-52.) Hugueley contends that in the absence of an express
invocation of waiver, Harris applies. (Id. at PageID 5652.) He cites Sixth Circuit cases Skinner
v. McLemore, 425 F. App'x 491 (6th Cir. 2011), and Henderson v. Palmer, 730 F.3d 554,561 (6th

Cir. 2013), which state that, where the procedural bar is not expressly invoked or it is ambiguous
whether the state court relied on a procedural default, there is no bar to habeas review. (Id. at
PageID 5653.)
The Sixth Circuit has held that a state court's plain error analysis does not save a petitioner
from procedural default. See Scott v. Mitchell, 209 F.3d 854, 866 (6th Cir. 2000). The court
82

105a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17

Page 86 of 142

PagelD 7782

stated that "[p]lain error analysis is more properly viewed as a court's right to overlook procedural
defects to prevent manifest injustice, but is not equivalent to a review of the merits." Lundgren v.
Mitchell, 440 F.3d 754, 765 (6th Cir. 2006).

AEDPA is not applicable based on plain error

review of an otherwise procedurally defaulted claim. Trimble v. Bobby, 804 F.3d 767, 788 (6th
Cir. 2015); see Leonard v. Warden, Ohio State Penitentiary, 846 F.3d 832, 851 (6th Cir. 2017)
(addressing the ambiguity over whether to apply AEDPA deference to a claim reviewed for plain
error after being procedurally waived and deciding not to address the ambiguity because the
petitioner could not prevail under the more lenient standard of de novo review).
The Supreme Court in Harris, 489 U.S. at 263, applied a "plain statement" rule to address
the problem of ambiguous state court references to state law. The Court said, "Faced with a
common problem, we adopt a common solution: a procedural default does not bar consideration of
a federal claim on either direct or habeas review unless the last state court rendering a judgment in
the case 'clearly and expressly' states that its judgment rests on a state procedural bar." Id. at 263.
Similarly, in Henderson, the Sixth Circuit stated,
"neither the mere availability nor the potential, or even obvious, applicability of
such a [procedural] rule is determinative. To operate as a bar to habeas review, such
a rule must be clearly and expressly invoked." Put another way, "there must be
unambiguous state-court reliance on a procedural default to block our [federal
habeas corpus] review."
Henderson, 730 F.3d at 561 (citations omitted) (quoting Skinner v. McLemore, 425 F. App'x 491,

495 (6th Cir. 2011).
In the instant case, the TSC stated, "Defendant did not raise this issue at trial, in his motion
for new trial, or on appeal." Hugueley, 185 S.W.3d at 382. The court did not specifically state

83

106a
Case 1:09-cv-01181-JDB-egb Document 144
Filed 08/03/17 Page 87 of 142

PagelD 7783

that the claim was waived or cite a procedural rule. Therefore, procedural default should not
apply.
Instead, the court cited State v. Stephenson, 878 S.W.2d 530 (Tenn. 1994), for application
of the plain error rule. In Stephenson, the TSC stated, "we note that the State's contention that the
issue is waived because of the defendant's failure to raise the issue at the time of the charge or in
the motion for new trial is completely without merit. . . . Clearly, the defendant's failure to raise
the issue in the motion for a new trial does not constitute waiver under the facts in this case."

Stephenson, 878 S.W.2d at 553-54, abrogated on other grounds by State v. Saylor, 117 S.W.3d
239 (Tenn. 2003).

The TSC explained that Tennessee Rule of Criminal Procedure 52(b ),

embodying the plain error rule, "has been previously applied ... to allow review of patently
incomplete instructions at a capital sentencing hearing despite defense counsel's failure to call
such error to the trial court's attention." Stephenson, 878 S.W.2d at 554 (citing Hines, 758
S.W.2d at 523-24 & n.4). In State v. Carter, 988 S.W.2d 145, 152 (Tenn. 1999), the TSC
determined that there was no waiver and cited Tennessee Rule of Appellate Procedure 36(b) and
Tennessee Rule of Criminal Procedure 52(b ), stating that "[ a]n error that affects a substantial right
of a defendant may be raised at any time where necessary to do substantial justice." Where, as in
the instant case, a procedural bar has not been clearly and expressly invoked and Tennessee case
law cited by the TSC indicates that the claim is not waived, this Court will not enforce a procedural
bar.

2.

Merits

The Warden argues alternatively that the claim should be denied as meritless. (ECF No.
112-1 at PagelD 5456.) He contends that the Court must determine whether the error in this jury
84

107a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 88 of 142

PagelD 7784

instruction had a substantial and injurious effect or influence on the verdict. (Id. at PageID 5457.)
Respondent argues that, on habeas review, the Brecht standard of whether an error had a
substantial and injurious effect or influence on the jury's verdict applies. (Id.) See Brecht v.

Abrahamson, 507 U.S. 619, 623 (1993). He contends that "a habeas court remains free, before
turning to Brecht, to inquire whether the state court's Chapman analysis" of whether the error is
"harmless beyond a reasonable doubt" is a reasonable determination. (Id.) See Chapman v.

Cal(fornia, 386 U.S. 18 (1967). If that state court's decision is reasonable, the inquiry ends.
(Id.)

Respondent submits that the TSC's decision reflects a reasonable application of Chapman

and illustrates that the jury instruction did not have a substantial and injurious effect or influence
on Hugueley's sentence. (Id.)
Petitioner maintains that the TSC's determination that the instruction was harmless was an
unreasonable determination of facts and is contrary to and an unreasonable application of clearly
established federal law. (ECF No. 127 at PageID 5640.)2 3 He asserts that the instructions were
incomplete, and Tenn. Code Ann. § 39-13-204(i)(9) requires that a defendant "knew or reasonably
should have known that such victim was a law enforcement officer, corrections official,
corrections employee, ... engaged in the performance of official duties" before he is subjected to
the aggravating circumstance. (Id. at PageID 5640-41.) He stated that that the trial court failed
to charge the mens rea element of the circumstance. (Id. at PagelD 5641.) See Hugueley, 185
S.W.3d at 382.

23

Hugueley argues Claim E in conjunction with Claim K(4), his ineffective assistance of
counsel claim related to this jury instruction. (See ECF No. 127 at PageID 5640.)
85

108a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 89 of 142

PagelD 7785

Hugueley submits that the TSC's substitution of its determination of the critical mens rea
element of this aggravating circumstance with that of the jury violates the clearly established
federal law of Apprendi v. New Jersey, 530 U.S. 466 (2000), and Ring v. Arizona, 536 U.S. 584
(2002). (Id. at PageID 5642.) He contends that the facts necessary to increase the sentence are
the functional equivalent of an element of the crime charged.

(Id.)

The inmate avers that

because this essential element of the aggravating circumstance was omitted, the jury never found
the i(9) circumstance. (Id. at PageID 5643.)24
Hugueley asserts that the TSC's decision mischaracterized trial testimony concluding that
he killed Steed because of his performance in the role of a correctional employee and knowing that
the victim was engaged in the performance of his official duties when Hugueley stabbed him.
(Id.) Petitioner claims that that the TSC's determination that he admitted Steed was engaged in

official duties at the time of the murder was unreasonable under 28 U.S.C. § 2254(d)(2). (Id. at
PageID 5644.)

He contends that he and Don Dunaway, an investigator for the Tennessee

Department of Corrections, presented testimony about Hugueley's mental state and knowledge at
the time of the killing. (Id.) Although the inmate referred to the victim as "Counselor Delbert
Steed," he did not address his knowledge of what Steed was doing at the time of the killing. (Id.)
Hugueley contends that his statements to Dunaway prove that he did not consider Steed to have
been engaged in official duties at the time of his death. (Id.) The prisoner told Dunaway that
Steed and "one of the little gang members that he talked to a lot there" were "just settin' there

24

This argument was not raised in the Tennessee courts and is not exhausted.
Additionally, the argument was not made in the habeas petition and is inadequately pied under
Habeas Rule 2(c). In the state court, Hugueley relied on Ring and Apprendi to assert that the
indictment failed to charge the capital offense. Hugueley, 185 S.W.3d at 392-93.
86

109a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 90 of 142

PagelD 7786

laugh in' and jokin' ." (Id. at PagelD 5644-45; see ECF No. 41-5 at PageID 792.) Hugueley had
reported Steed several times and filed grievances against the counselor for not doing his job.
(ECF No. 127 at PagelD 5645.) Hugueley asserts that he did not kill Steed while he was engaged
in his official duties but because Steed failed to fulfill his professional duties. (Id.) Petitioner
argues that the state court determination that he "admitted that [Steed] was engaged in official
duties at the time Defendant killed him" was an unreasonable determination of the facts in light of
the evidence presented at trial.

(Id.)

He asserts that Steed was "engaged in inappropriate

non-official conduct with various gang members at the time of his death." (Id. at PagelD 5646.)
Petitioner insists that the TSC's harmless en-or determination was contrary to and an
umeasonable application of clearly established federal law in Apprendi and Ring.

(Id.)

Hugueley asserts that the court violated this law when it substituted its finding of the facts for that
of a jury. (Id.)
The inmate argues that, even if application of harmless en-or doctrine did not violate the
Constitution, the Tennessee court's application of the harmless error rule was an umeasonable
application of Neder v. United States, 527 U.S. 1, 18-20 (1999). (Id. at PageID 5647.) He
observes that, in Neder, the United States Supreme Court found harmless en-or where the omitted
element was supported by uncontroverted evidence. (Id.) However, in his case, the TSC made
its decision based on an unreasonable determination of fact when there was contradictory
testimony at trial. (Id. at PageID 5647-48.) Hugueley argues that Neder does not support a
finding of harmlessness. (Id. at PageID 5648.)
The claimant further asserts that he is entitled to habeas relief because the en-or was not
harmless under Brecht. (Id. at PageID 5649.) He claims that, if one juror had determined that he
87

110a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 91 of 142

PagelD 7787

did not know that Steed was performing official duties, then the statutory aggravating
circumstance would not have applied. (Id.) Petitioner contends that, in Tennessee, the negation
of any aggravating circumstance changes the sentencing calculus because the aggravating
circumstances must outweigh the mitigating circumstances beyond a reasonable doubt. (/d.) He
argues that no court can determine how a jury would have weighed the remaining aggravating
circumstances had the i(9) circumstance not been applied, and therefore, the error was not
harmless beyond a reasonable doubt under Brecht. (Id. at PageID 5649-50.)
In reply, the Warden asserts that Hugueley can "hardly demonstrate" that the erroneous
instruction was not harmless under either Chapman or Brecht. (ECF No. 137 at PageID 7685.)
He argues that Hugueley's knowledge of the victim's employee status was evident from the
record, and the significance of this aggravating circumstance is "seriously diminished" by the fact
that three other aggravating circumstances remain.

(Id.)

Respondent notes that the inmate

presented "virtually no mitigation evidence to weigh against" these aggravators making the
significance of the i(9) aggravating circumstance "virtually nil." (Id.)
The evidence at trial indicated that Hugueley was incarcerated at HCCF and that Steed was
his counselor. (See ECF No. 41-4 at PagelD 649; see id. at PageID 686; see also ECF No. 41-5 at
PagelD 789-90, 798-99, 829-3025 .) Hugueley noted the difference in treatment at Corrections
Corporation of America and Tennessee Department of Corrections' (TDOC) facilities as he
explained why he had an altercation with Steed, a correctional employee,

25
·

Hugueley states that "[t]he State can prove at least four (4) aggravated circumstances,
and there are NO legitimate mitigating circumstances." (ECF No. 41-5 at PageID 830.)
88

111a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 92 of 142

PagelD 7788

Cause, I've always been treated de[]cent in TDOC. . . . I've never had a problem
or altercation with an employee. I mean, that should say something about ... why
in the hell am I going after an employee of the prison.

(Id. at PagelD 796.)
Steed was working on the day of his murder and Hugueley was waiting to speak with the
counselor. That Steed was laughing or joking with another inmate or that Hugueley disagreed
with the manner in which Steed performed his duties does not negate the finding that Hugueley
knew or should have known that Steed was a con-ections officer engaged in the performance of his
official duties. (See ECF No. 41-5 at PagelD 819-22 (inmate grievances & request for white
cellmate); see ECF No. 41-4 at PageID 649-50 (Hugueley's testimony about Steed); see ECF No.
41-7 at PageID 1183-91 (mitigation timeline documenting conflicts with Steed.) Hugueley has
not demonstrated that the TSC's decision was based on an unreasonable determination of facts in
light of the evidence presented. 26
The burden on a habeas petitioner who challenges an en-oneous jury instruction "is even
greater than that required to demonstrate plain error on direct appeal." Scott, 209 F.3d at 882.
"Allegations of 'trial error' raised in challenges to jury instructions are reviewed for whether they
had a substantial and injurious effect or influence on the verdict, and are subject to harmless-error
analysis." Id. (footnote omitted); see Brecht, 507 U.S. at 638 (noting that the harmless error
standard applies to "constitutional error of the trial type"); Coe v. Bell, 161 F.3d 320,335 (6th Cir.

26

Petitioner did not dispute the sufficiency of the evidence related to the TSC's findings
on aggravating circumstances (Claim D), and the Court determined that the TSC's decision was
reasonable under Jackson. However, he now asserts that the TSC's decision was based on an
unreasonable determination of facts in light of the evidence presented as it relates to this jury
instruction.
89

112a

Case 1:09-cv-01181-JDB-eglJ Document 144 Filed 08/03/17 Page 93 of 142

PagelD 7789

I998) (applying the Brecht harmless-en-or standard of a substantial and injurious effect on the
verdict to detennine whether habeas relief was required for a jury instruction). The relevant
question is whether the ailing instrnction so infected the entire trial that the resulting conviction
violates due process-not merely whether the instrnction is undesirable, erroneous, or even
"universally condemned."

Henderson v. Kibbe, 431 U.S. 145, 154 (1977).

"A habeas

petitioner's burden of showing prejudice is especially heavy when a petitioner claims that a jury
instrnction was incomplete, because an omission, or an incomplete instrnction, is less likely to be
prejudicial than a misstatement of the law." Hardaway v. Withrow, 305 F.3d 558, 565 (6th Cir.
2002). Federal habeas courts do not grant relief, as might a state appellate court, simply because a
jury instruction may have been deficient in comparison to a model state instrnction. Estelle v.
McGuire, 502 U.S. 62, 72 (1991).
In Neder, the Supreme Court held that an instrnction that omits an essential element is not
per se prejudicial error and the Chapman test applies. Neder, 527 U.S. at 8-11. In Davis v.
Ayala, the Supreme Court addressed the test for trial error in a collateral proceeding,
habeas petitioners are not entitled to habeas relief based on trial error unless they
can establish that it resulted in actual prejudice. Under this test, relief is proper
only if the federal court has grave doubt about whether a trial error of federal law
had substantial and injurious effect or influence in determining the jury's verdict.
There must be more than a reasonable possibility that the e1rnr was harmful. The
Brecht standard reflects the view that a State is not to be put to the arduous task of
retrying a defendant based on mere speculation that the defendant was prejudiced
by trial error; the court must find that the defendant was actually prejudiced by the
error.
Davis v. Ayala, 135 S. Ct. 2187, 2197-98 (2015) (internal quotations and citations omitted).
Where, as here, the evidence is sufficient to demonstrate that the aggravating circumstance was
satisfied, the State proved three other aggravating circumstances, and Hugueley waived the
90

113a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 94 of 142

PagelD 7790

presentation of mitigation evidence, the error in the juror instruction did not have a substantial and
injurious effect or deprive the inmate of a fair trial.
The TSC's decision applying plain error review may not be entitled to AEDPA deference
as an adjudication on the merits. See Leonard, 846 F.3d at 851(addressing ambiguity about
AEDPA deference and plain error review); see Fleming v. Metrish, 556 F.3d 520, 532 (6th Cir.
2009) ("[T]he heart of the disagreement between ourselves and our dissenting colleague thus boils
down to whether a federal constitutional claim reviewed by a state court for 'plain error' can be
considered 'adjudicated on the merits' for the purpose of receiving deference under AEDP A. To
our knowledge, there is no authority squarely ori point that decides this key question. We are
persuaded, however, that we would be acting contrary to Congress's intent to have AEDPA
'further the principles of comity, finality, and federalism,' if we simply ignored the Michigan
Court of Appeals's evaluation of Fleming's Fifth Amendment claim by reconsidering the issue de
novo.") (internal citation omitted); see also Langford v. Warden, 665 F. App'x 388, 389 (6th Cir.
2016) ("The crux of the Supreme Court's decision in Ayala is that courts on collateral review have
to give a heightened degree of deference to the state court's review of a harmless error decision.").
The TSC's decision is not contrary to or an unreasonable application of clearly established
Supreme Court precedent and was not based on an unreasonable determination of facts in light of
the evidence presented. Even on de novo review, the claim is without merit. Summary judgment
is GRANTED, and Claim E is DENIED.

F.

Waiver of Mitigation Evidence

Hugueley alleges that the trial court erred by allowing him to waive the presentation of
mitigation evidence. (ECF No. 58 at PageID 4665.) He asserts that this claim and the factual
91

114a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 95 of 142

PagelD 7791

allegations supporting it were not raised in the motion for new trial, on direct appeal, or during
state post-conviction proceedings because: (1) his counsel was ineffective at trial, on appeal and
during post-conviction proceedings; (2) Tennessee does not provide an adequate post-conviction
remedy to raise these claims; and/or (3) the trial court denied post-conviction counsel adequate
process, including but not limited to funding, resources, and time, to challenge Hugueley's
competency to waive post-conviction. (Id. at PageID 4665-66.)
Respondent insists that this claim is procedurally defaulted and that Hugueley has
conceded he did not raise it in state court. (ECF No. 112-1 at PagelD 5466.) He contends that
the ineffective-assistance claims on which Hugueley relies to excuse procedural default are also
procedurally defaulted because the inmate waived state post-conviction review. (Id. at PagelD
5467.) The Warden argues, based on Edwards, that an ineffective-assistance claim cannot serve
as cause to excuse a procedural default if that claim is also procedurally defaulted. (Id.) See
Edwards, 529 U.S. at 453.

Respondent asserts that Hugueley's allegations of ineffective

assistance do not provide a viable basis for excusing this or any other procedurally defaulted claim.
(Id.) He also maintains that the Court must not enable Hugueley "to make good on his promise to

throw a monkey wrench' into the process' by permitting review of this claim for the first time on
federal habeas review via a manufactured ineffective-assistance claim that is also defaulted."
(Id.)

Respondent asserts that this claim is inadequately pied under Habeas Rule 2(c) because
Hugueley does not provide authority, argument or factual support for his conclusory assertions.
(ECF No. 112-1 at PageID 5478.) The inmate has failed to plead facts supporting his claim under
Habeas Rule 2(c). (See ECF No. 58 at PagelD 4665.)
92

115a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 96 of 142

PagelD 7792

Petitioner argues that the trial court improperly allowed him to waive mitigation when it
was on notice of his incompetence. (ECF No. 127 at PageID 5623.) He avers that a trial judge
must conduct a competency determination where there is "a bona fide doubt as to a defendant's
competence to stand trial." (Id.) Relying on Filiaggi v. Bagley, 445 F.3d 851, 858 (6th Cir.
2006), Hugueley claims that the test of whether a trial judge should have held a competency
hearing is "whether a reasonable judge, situated as was the trial court judge whose failure to
conduct an evidentiary hearing is being reviewed, should have experienced doubt with respect to
competency to stand trial." (Id.) Hugueley argues that relevant factors to this determination
include irrational behavior, demeanor in court, and medical opinions on competency. (Id.)
The inmate contends that the trial court had a bona fide doubt as to his competency based
on his irrational behavior each time he was in court, including:
•

announcing his intention to represent himself;

•

attempting to plead guilty to capital murder;

•

announcing "attorneys don't matter";

•

accepting appointment of counsel "as long as he don't come see me. He ain't getting no
help out of me";

•

telling the trial court to "kiss my ass, that's all I've got to say";

•

responding to his attorney's request for a psychological evaluation by erupting, "are you
out of your fucking mind?";

•

calling his attorney a "stupid son-of-a-bitch";

•

announcing that he would not talk to his counsel, because they were "trying to drag out
[his] future"; and

•

stating that it was his "intention" to hamper his attorney's attempts to present a defense.
93

116a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 97 of 142

PagelD 7793

(Id. at PageID 5624; see ECF No. 131-20 at PagelD 7509-11; see also ECF No. 132-1 at PageID at

PagelD 7522-23.)
The court approved funding for expert assistance for determining Petitioner's competency
and brain scans, and Hugueley argues that the trial court's actions indicate that there was a genuine
question about his competence. (ECF No. 127 at PagelD 5624.) He points out that Tennessee
Supreme Court Rule 13 requires a finding that there was a genuine issue necessitating an expert for
the court to approve funding. (Id. at PageID 5625.) Hugueley argues that where there is a bona

fide question about his competency, it violates his constitutional right to a fair trial for the trial
court to fail to hold a competency hearing. (Id.)
Hugueley avers that the trial court's colloquy about the waiver of the presentation of
mitigation evidence did nothing to determine he was competent to make such a waiver and
consisted of the trial court asking him to affirm his "understanding" of legal concepts. (Id. at
PageID 5625-26.) Petitioner contends that the colloquy did not check his capacity to assist in his
defense and that the colloquy did not address his relationship with counsel, his understanding of
counsel's role in the proceedings, his trust of counsel, or his ability and capacity to assist counsel.

(Id. at PageID 5626-27.)

Hugueley asserts that, "[w]here the trial court failed to make a

competency determination but clearly had a bona.fide question as to Mr. Hugueley's competency,
the trial court erred in allowing Mr. Hugueley to waive presentation of mitigation evidence[,] and
Mr. Hugueley was prejudiced by that error because he was not in fact competent to waive the

post-conviction proceedings." (Id.)
The inmate relies on his argument that his ineffective assistance of counsel claims are
properly before this Court to overcome the procedural default of the instant claim. (Id. at PageID
94

117a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 98 of 142

PagelD 7794

5627; see id. at PageID 5598-5622.) The Warden argues that Hugueley offers nothing new to
excuse the default ofthis claim other than a reference to the default of his ineffective assistance of
counsel claims in Claims I and K. (ECF No. 137 at PageID 7684.) Respondent contends that
Hugueley cannot establish cause to excuse the default of Claim F based on the ineffective
assistance of counsel claims that are themselves procedurally defaulted. (Id.)
Petitioner did not exhaust Claim F in state court. He did not exhaust a related ineffective
assistance of counsel claim and cannot rely on an ineffective assistance of counsel as cause to
excuse the procedural default of Claim F. 27
The Supreme Court in Schriro v. Landrigan, 550 U.S. 465, 479 (2007), stated that it had
"never required a specific colloquy to ensure that a defendant knowingly and intelligently refused
to present mitigating evidence." The defendant in that case, much like Hugueley, expressed a
desire to proceed with a death sentence stating, "I think if you want to give me the death penalty,

27

Hugueley's counsel put mitigation evidence on the record despite the trial court's
acceptance of his client's waiver. (See ECF No. 41-5 at PageID 730-37; see ECF No. 41-7.)
Further, there is no indication that counsel was ineffective for following defendant's wishes in not
presenting a mitigation case. See Tyler v. Mitchell, 416 F.3d 500, 504 (6th Cir. 2005) ("[T]he
Constitution does not prohibit a competent capital defendant from waiving the presentation of
mitigation evidence."); see also Ryder ex rel. Ryder v. Warrior, 810 F.3d 724, 748 (10th Cir.), cert.
denied sub nom. Ryder v. Royal, 137 S. Ct. 498 (2016) (finding that "counsel's decision not to
investigate or present mitigating evidence was completely determined by petitioner and was
within the realm ofreasonable tactical decisions."); Ramirez v. Stephens, 641 F. App'x 312,327
(5th Cir.), cert. denied sub nom. Ramirez v. Davis, 137 S. Ct. 279 (2016) (noting that "reasonable
juris~s would not find that trial counsel rendered ineffective assistance when counsel decided to
stop their mitigation case at Ramirez's request. Ramirez's 'directions were entitled to be
followed'"); Wood v. Quarterman, 491 F.3d 196, 203-05 (5th Cir. 2007) (concluding there was no
ineffective assistance where counsel did not request mid-trial competency determination based on
defendant's decision to waive presentation of mitigation case); Singleton v. Lockhart, 962 F.2d
1315, 1321 (8th Cir. 1992) (ruling that in the face of a defendant's waiver of mitigating evidence,
defense counsel "was under no duty" to present a mitigation case).
95

118a
Case 1:09-cv-01181-JDB-egb Document 144
Filed 08/03/17 Page 99 of 142

just bring it right on.

PagelD 7795

I'm ready for it." Id. at 479-480. The fact that Landrigan failed to

develop the claim in state court prevented the district court from granting an evidentiary hearing.
Id. at 479. Much like Landrigan, Hugueley prevented the presentation of mitigation evidence at

the trial court level and continued to thwart the presentation of that evidence on state
post-conviction review, resulting in a failure to exhaust his claims.
To the extent the inmate may contend that ineffective assistance of post-conviction counsel
establishes cause to excuse the procedural default, Martinez does not apply to this trial error claim.
Hugueley has not otherwise established cause and prejudice or actual innocence to overcome the
procedural default of his trial error claim. Sulllll!ary judgment is GRANTED, and Claim F is
DENIED based on procedural default.
Further, Hugueley has not shown that he was not competent at trial. The outbursts cited
occurred at the arraignment on May 9, 2002, and a motion hearing on December 4, 2002. (See
ECF No. 121-20 at PageID 7506; see ECF No. 132-1 at PagelD 4509.) His trial was more than
nine months later in September 2003, and he was determined to be competent to stand trial. . (See
ECF No. 41-4 at PageID 625.) Hugueley does not dispute his competence to testify or to stand
trial, but only his competence to waive mitigation. He has not pointed to behavior, demeanor, or
outbursts at trial that might have ale1ted the court about his competence. Further, Hugueley was
determined to be competent in subsequent testing despite his unwillingness to participate in mental
evaluations and pursue post-conviction and appellate relief from his death sentence. 28

28

The first expert report opining that Hugueley was incompetent to stand trial was written
on September 17, 2014, by George Woods, M.D. based on his evaluations of Hugueley in 2001,
2011, 2013, and 2014. (See ECF No. 127-4 at PageID 5788.)
96

Case 1:09-cv-01181-JDB-egb Document119a
144 Filed 08/03/17
7796

Page 100 of 142

PagelD

Courts have found that uncooperativeness. and even outbursts from defendants do not
equate to incompetence or concerns about mental capacity. In Allen v. Secy, Florida Dep 't of

Corr., 611 F.3d 740, 765 (11th Cir. 2010), the Eleventh Circuit noted that the fact the defendant
chose death was his right:
Allen, a mentally competent, intelligent defendant, having been convicted
of a brutal murder, faced life imprisonment or death. Insisting on doing things his
way, he chose death and prevented his counsel from attempting to secure a life
sentence through the development and presentation of mitigating circumstances
evidence. That is not a choice that most people would have made, but it is one that
he had the right to make, and he made it voluntarily and with full awareness of the
consequences.
The Sixth Circuit in Cowans v. Bagley, 639 F.3d 241 (6th Cir. 2011), found it reasonable
for the trial court not to order a competency exam based on the defendant's demeanor at trial,
Also unavailing is Cowans' challenge to the district court's decision not to order
him to undergo a competency examination. If before or during trial "sufficient
doubt" arises about a defendant's competence-"the capacity to understand the
nature and object of the proceedings against him, to consult with counsel, and to
assist in preparing his defense"-the trial court should order a competency hearing.
"There are, of course, no fixed or immutable signs" of incompetence, the standard
is a high one, and the relevant factors-"evidence of a defendant's irrational
behavior, his demeanor at trial, and any prior medical opinion on
competence"-"are difficult to evaluate." These open-ended standards and the
high threshold for establishing incompetence give state courts wide latitude in a
habeas case. When virtually everything is potentially relevant and nothing is
dispositive, reasonable minds occasionally may come to different conclusions
about whether to hold a competency hearing.
That at most is what happened here. Although Cowans' demeanor at trial
and his decision not to present mitigating evidence raised concerns about his
mental capacity, the state appellate courts detennined that the trial court did not
·have to order a competency exam, a reasonable determination in view of the
universe of relevant circumstances. None of Cowans' outbursts suggested he was
"incompetent," meaning incapable of understanding the nature of the charges
against him or assisting in his defense. Cowans has no significant mental history,
whether before the trial or since. At the guilt phase of the trial, he showed himself
capable of self control and did not have any outbursts. His outbursts before trial and
97

120a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17
7797

Page 101 of 142

PagelD

at the penalty phase also were not irrational, as they coincided with negative
developments in the proceedings. His behavior-requesting new counsel and angry
outbursts at the jury, judge and counsel-could be read in one of two ways: as
evidence of mental incompetence or of an angry, hostile personality. The trial
court, which had the benefit of interacting with Cowans, concluded that he acted
out of pique, not out of mental incompetence. That was a reasonable determination
on this record.
Nor does the evidence obtained since trial undermine the trial court's
decision.

Cowans, 639 F.3d at 247-48 (citations omitted).
The record indicates that the psychologist found Hugueley competent although he may
suffer some disorders. (See ECF No. 41-4 at PageID 625.) He always insisted that he was guilty
and that he wanted the death penalty. (Id. at PageID 631.) There is no indication from the trial
transcript that Hugueley was incompetent to waive the presentation of mitigation or that the trial
court committed a constitutional error.
Claim Fis procedurally defaulted, without merit, and DENIED.
G.

Weighing of Aggravating & Mitigating Circumstances

Petitioner asserts that the proof presented for the aggravating circumstances was
insufficient to outweigh the mitigating circumstances "presented in the guilt/innocence portion of
the trial." (ECF No. 58 at PageID 4666.) The TSC addressed this claim on direct appeal. (See
id.) The court opined:

C. Aggravating Circumstances Outweigh Mitigating Circumstances

· After the close of the State's proof during the sentencing phase of
Defendant's trial, and while the jury was out, the trial court questioned Defendant
about his decision regarding the presentation of proof of mitigating circumstances.
Defendant stated that he did not want his lawyers to present any proof of mitigating
circumstances. Furthermore, Defendant chose not to testify on his own behalf
during the sentencing phase. Accordingly, the defense presented no proof during
98

121a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17
7798

Page 102 of 142

PagelD

the sentencing phase of Defendant's trial of any mitigating circumstances that
might counteract the State's proof of aggravating circumstances. The only proof in
the nature of mitigating circumstances presented during the guilt phase of
Defendant's trial was Defendant's testimony about how the victim had treated him.
We conclude that the State's proof of aggravating circumstances outweighs
any mitigating circumstances beyond a reasonable doubt.

See Hugueley, 185 S.W.3d at 383.
The Warden argues that the TSC's determination was not contrary to or an unreasonable
application of clearly established federal law and was based on a reasonable detennination of facts
and that Hugueley's claim is inadequately pled and should be dismissed under Habeas Rule 2(c).
(ECF No. 112-1 at PagelD 5458, 54 78.) Respondent asserts that Hugueley offers no argument or
factual basis to support his claim and has not disclosed what mitigation facts or evidence stack
against or outweigh the applicable aggravating circumstances. (Id.) Without any explanation of
his objection to the state court's decision, the Warden insists that Hugueley has not shown that the
decision was unreasonable. (Id. at PageID 5458.)
The inmate has failed to plead facts supporting his claim under Habeas Rule 2(c). (See
ECF No. 58 at PageID 4666.)

Further, he has not presented an argument for Claim G m

opposition to the motion for summary judgment.
Like for Claim D, Jackson v. Virginia, is the relevant Supreme Court precedent to analyze
the sufficiency of the evidence related to the weighing of aggravating and mitigating
circumstances. There was sufficient proof of the four aggravating circumstances, see supra pp.
74-80, and the only potentially mitigating evidence presented to the jury was Hugueley's
statements about his conflicts with Steed. Hugueley, 185 S.W.3d at 383. The evidence was
more than sufficient to permit a rational trier of fact to find that the aggravating circumstances

99

122a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 103 of 142
7799

PagelD

outweighed the mitigating circumstances beyond a reasonable doubt. The TSC's decision is not
contrary to or an unreasonable application of clearly established Supreme Court precedent and is
based on a reasonable determination of facts in light of the evidence presented.

Summary

judgment is GRANTED, and Claim G is DENIED.

H.

Death is a Disproportionate Penalty

Hugueley asserts that the death sentence is disproportionate to the penalty imposed in
similar cases and incorporates by reference the TSC's decision on direct appeal without further
explanation. (ECF No. 58 at PageID 4666.) The TSC conducted a proportionality review to
identify "aberrant, arbitrary, or capricious sentencing by determining whether the death sentence i~
'disproportionate to the punishment imposed on others convicted of the same crime."' Hugueley,
185 S.W.3d at 384 (citing State v. Bland, 958 S.W.2d 651, 662 (Tenn. 1997)). The court noted
the relevant factors, 29 considered other cases, and stated that it had upheld the death penalty in
numerous cases where the sole aggravating circumstance was the defendant's prior conviction of a

29

The TSC defined the factors to be consider in the proportionality review of Hugueley's

sentence,
In reviewing the applicable pool of cases, we consider numerous factors regarding
the offense: 1) the means of death; (2) the manner of death; (3) the motivation for
the killing; (4) the place of death; (5) the victim's age, physical condition, and
· psychological condition; (6) the absence or presence of premeditation; (7) the
absence or presence of provocation; (8) the absence or presence of justification;
and (9) the injury to and effect upon non-decedent victims. In addition, we
consider numerous factors about the defendant: (1) prior criminal record or
activity; (2) age, race, and gender; (3) mental, emotional, and physical condition;
(4) role in the murder; (5) cooperation with authorities; (6) level of remorse; (7)
knowledge of the victim's helplessness; and (8) potential for rehabilitation.

Hugueley, 185 S. W.3d at 384 (citation omitted).
100

Case 1:09-cv-01181-JDB-egb Document123a
144 Filed 08/03/17 Page 104 of 142
7800

PagelD

violent felony offense and also where the jury applied the heinous, atrocious, and cruel
aggravating circumstance for the stabbing death of a victim. Id. at 384-87. The TSC determined
that Hugueley's sentence was "not excessive or disproportionate." Id. at 387.
The Warden argues that comparative proportionality review is not constitutionally
mandated.

(ECF No. 112-1 at PagelD 5458.)

He insists that the TSC's comparative

proportionality review was not contrary to or an unreasonable application of clearly established
federal law or based on an unreasonable determination of facts. (Id.) Respondent contends that
the court reasonably applied Pulley v. Harris, 465 U.S. 37 (1984), to conclude that the capital
sentence was not arbitrary where Hugueley:
(1) armed himself with a weapon he had created specifically to use against another
human being; (2) walked up behind the seated and unarmed victim, a corrections
counselor, and began repeatedly stabbing him, aiming initially for the victim's vital
organs; (3) stabbed the victim thirty-six times; (4) committed the killing
intentionally and with premeditation; (5) expressed no remorse for the killing; (6)
made clear that he would commit the killing again if given the opportunity; and (7)
had killed two other persons and attempted to kill a third person.

(Id. at PageID 5459.) Respondent notes that Hugueley has offered no argument or factual basis to
support this claim and has not shown that the TSC's decision was unreasonable. (Id.)
Respondent further maintains that the claim is not cognizable because proportionality
review is not constitutionally required under Pulley and that the argument pertains solely to the
state court's application of Tennessee's capital sentencing statute. (Id. at PageID 5474-76.) The
Warden avers that the claim is inadequately pled under Habeas Rule 2(c) because Hugueley
provides no authority, argument, or factual support that his sentence is disproportionate to the
penalty in similar cases. (Id. at PageID 5479.)

101

Case 1:09-cv-01181-JDB-egb Document124a
144 Filed 08/03/17
7801

Page 105 of 142

PagelD

In response to the motion for summary judgment, Petitioner states that he is entitled to
habeas relief on this claim because the Tennessee court considered race in making the
determination. (ECF No. 127 at PageID 5660.) He observes that clear Supreme Court precedent
forbids the consideration of race in sentencing decisions. (Id. at PageID 5660-61.) The inmate
cites Rose v. Mitchell, 443 U.S. 545, 555 (1979), to assert that "[ d]iscrimination on the basis of
race, odious in all aspects, is especially pernicious in the administration of justice." (Id. at PageID
5661.) He references Batson to argue that the United States Supreme Court has "committed itself
to 'unceasing efforts' seeking to eradicate from the criminal justice process any consideration of
race." (Id. at PageID 5660.) Relying on Zant v. Stephens, 462 U.S. 862 (1983), Petitioner
maintains that the United States Supreme Court explicitly prohibits consideration of race during a
sentencing decision. (Id. at PageID 5661.) Hugueley contends that the TSC disregarded the
Supreme Court's admonition on eradicating racial prejudice in the criminal justice process when
performing proportionality review in a capital case and "includ[ing] in its calculus intuitive
feelings its members harbor respecting the defendant's race." (Id.)
Hugueley claims that Tennessee's proportionality review is contrary to clearly established
federal law. (Id.) He notes that Tennessee Code Annotated § 39-13-206(c)(l)(D) requires a
direct review of a capital case to determine whether a death sentence is excessive or
disproportionate to the sentence imposed in similar cases considering the nature of the crime and
the defendant. (Id. at PagelD 5662.) The inmate argues that the TSC considered the defendant's
race in its review, admitted that the review was not an "objective test," and that it did not employ
"mathematical or scientific techniques." (Id.) According to Petitioner, to assist the appellate
court with review, the trial court provided a form that specifically asked his race, and in
102

125a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 106 of 142
7802

PagelD

performing the review, the TSC stated that it would consider various factors including Hugueley's
race. (Id. at PageID 5663.) The inmate contends that it cannot be disputed that race entered into
the decision that his death sentence was proportionate to sentences given others in Tennessee.
(Id.)

He asserts that "[w]hile injecting racial predilections into any capital sentencing decision

offends the Federal Constitution, incorporating such biases in proportionality review
unequivocally violates clearly established federal law." (Id.)
To bolster his argument that his sentence was disproportionate to the penalty in similar
cases, he cites three cases in which the defendant was given a life sentence where a prison guard or
correctional officer was killed. (Id. at PageID 5663-64.)
The Warden asserts that Hugueley fails to respond to the argument that this claim does not
present a cognizable basis for federal habeas review because comparative proportionality is not
required by the Constitution. (ECF No. 137 at PageID 7685.) Respondent contends that without
such a response, he is entitled to summary judgment on this claim. (Id. at PageID 7686.) He
maintains that the egregious nature of Hugueley's crime and the aggravating factors is evident, that
"[h]e has killed twice before and finally received a capital sentence after repeatedly stabbing a
prison counselor with a homemade weapon." (Id.)
The comparative proportionality review that the TSC conducted to determine whether the
death sentence was imposed in an arbitrary fashion is not constitutionally mandated. The United
States Supreme Court has held that the Constitution does not require proportionality review, but
only requires proportionality between the punishment and the crime, not between the punishment
in this instance and that exacted in other cases. Pulley, 465 U.S. at 50. "There is no federal
constitutional requirement that a state appellate court conduct a comparative proportionality
103

126a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17
7803

Page 107 of 142

PagelD

review." McQueen v. Scroggy, 99 F.3d 1302, 1333-34 (6th Cir. 1996), overruled on other
grounds by In re Abdur 'Rahman, 392 F.3d 174 (6th Cir. 2004); see Hall v. Bell, No. 2:06-CV-56,
2010 WL 908933, at *44-45 (E.D. Tenn. Mar. 12,2010) (noting that a comparative proportionality
review by state appeals courts is not dictated by the Constitution). The Supreme Court has
generally rejected claims that a petitioner's death sentence is disproportionate to the sentences
received by individuals convicted of similar crimes. See, e.g., McCleskey v. Kemp, 481 U.S. 279,
306 (1987) ("[W]here the statutory procedures adequately channel the sentencer's discretion [in
imposing the death penalty], such proportionality review [of a death sentence to sentences
imposed in similar cases] is not constitutionally required."); Proffitt v. Florida, 428 U.S. 242, 254
(1976) (rejecting challenge based on prosecutor's discretion); Gregg v. Georgia, 428 U.S. 153,
199 (1976) (rejecting claim that discretionary decision making with respect to the imposition of
capital punishment, including the fact that "the state prosecutor has unfettered authority to select
those persons whom he wishes to prosecute for a capital offense and to plea bargain with them,"
violates the Eighth Amendment).

"Since proportionality review is not required by the

Constitution, states have great latitude in defining the pool of cases used for comparison";
therefore, "limiting proportionality review to other cases already decided by the reviewing court in
which the death penalty has been imposed" falls within this wide latitude. Williams v. Bagley,
380 F.3d 932, 962-63 (6th Cir. 2004) (citing seven prior Sixth Circuit cases that have upheld
Ohio's limited proportionality review against constitutional challenges); see Smith v. Mitchell, 567
F.3d 246, 261 (6th Cir. 2009) (finding that the Sixth Circuit has rejected habeas challenges to
Ohio's system of proportionality review); see also Coe, 161 F.3d at 351-52 (explaining that the

104

127a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 108 of 142
7804

PagelD

Tennessee mandatory death-penalty review statute did not create a liberty interest or a due process
right in proportionality review).
Hugueley failed to plead race as an impermissible factor or make an equal protection claim
in his Second Amended Petition. This aspect of his proportionality review claim is inadequately
pied under Habeas Rule 2( c).
Further, the mere consideration of race as a factor to determine the proportionality of
Hugueley's sentence to sentences in similar case is not discriminatory.

Comparative

proportionality review is considered "an additional safeguard against arbitrary or capricious
sentencing" and used to prevent the consideration of impermissible factors in sentencing. See

Pulley, 465 U.S. at 45. Race was not an issue in the comparison cases used by the TSC for
proportionality review. See Hugueley, 185 S.W.3d at 384-87. The TSC focused on cases were
the death sentence was imposed for the murder of a corrections officer or employee, a deputy, and
a fellow inmate; where the sole aggravating circumstance was the defendant's prior conviction of a
violent felony offense; and where the victim was stabbed to death and the jury applied the heinous,
atrocious, or cruel aggravating circumstance. Id.

Based on these legitimate factors, the TSC

found that Hugueley's death sentence was proportionate.

There has been no constitutional

violation.
Summary judgment is GRANTED, and Claim His DENIED.

I.

Ineffective Assistance of Counsel - Investigation, Preparation & Penalty
Phase Defense (Claims I & K)

In response to the motion for summary judgment, Petitioner argues Claims I and K jointly
asserted that his trial counsel were ineffective for failing to investigate and present proof that he
105

Case 1:09-cv-01181-JDB-egb Document128a
144 Filed 08/03/17 Page 109 of 142
7805

PagelD

was incompetent to stand trial and to waive the presentation of mitigation evidence. (ECF No.
127 at PageID 5551.)
In Claim I, Hugueley alleges that his counsel rendered ineffective assistance in their
investigation of and preparation for his capital case. (ECF No. 58 at PageID 4666.) He claims
that his trial attorneys Michie Gibson and T.J. Jones failed to:
1. fully investigate, raise, and litigate his competency to waive the presentation of mitigating
evidence;
2. investigate and discover the issues that were crucial to determining whether Hugueley was
competent to stand trial, assist in his defense, and waive mitigation;
3. fully investigate his social history in compliance with the American Bar Association
Guidelines for the Appointment and Performance of Defense Counsel in Death Penalty
Cases;
4. retain the proper experts for pre-trial consultation; and
5. investigate the circumstances surrounding Hugueley's prior violent convictions which
were used to support the statutory aggravating circumstances, including the investigation
of the deaths of his mother and James Shelton and the circumstances surrounding the
attempted murder of Timerall Nelson.
(Id. at PageID 4666-72.) The inmate contends that his counsel would have discovered that he

was incompetent to waive mitigation and that there was a reasonable probability that the jury
would not have convicted him of first-degree murder and/or sentenced him to death had his
counsel performed the tasks described above. (See id. at PageID 4666-72.)
In Claim K, Hugueley alleges that his counsel rendered ineffective assistance in their
defense at the penalty phase by failing to:
I. fully investigate his social history in compliance with the American Bar Association
Guidelines for the Appointment and Performance of Defense Counsel in Death Penalty
Cases;
106

Case 1:09-cv-01181-JDB-egb Document129a
144 Filed 08/03/17 Page 110 of 142
7806

PagelD

2. investigate and challenge the validity of any of Hugueley's convictions for prior violent
crimes which were used as aggravating circumstances during the penalty phase;
3. move for a hearing and establish that Hugueley was incompetent to waive the presentation
of mitigation evidence; and
4. object to the trial court's confusing and unconstitutional instruction to the jury regarding
the aggravating circumstance where a con-ection employee is a victim.
(Id. at PagelD 4673-76.)

Petitioner claims that had his counsel investigated, they would have discovered:
•

he was incompetent to waive the presentation of mitigating evidence;

•

he used PCP, marijuana and alcohol, severely impacting his cognitive processing on the
day that he shot his mother;
He was unable to form the necessary mental state required for first degree murder;
He was insane at the time of these incidents;
He was not competent to stand trial;
He was not competent to enter a plea;
He was misinformed that his brain tumor was fatal and pled guilty only because he
believed death was imminent;
With Nelson, he was acting in self-defense; and
The grand juries that indicted Hugueley were improperly constituted because blacks and
women had been systematically excluded as grand jury forepersons.

•
•
•
•
•
•
•

(Id. at PageID 4674-76.)
1.

The Strickland Standard

A claim that ineffective assistance of counsel has deprived a habeas petitioner of his Sixth
Amendment right to counsel is controlled by the standard stated in Strickland v. Washington, 466
U.S. 668 (1984).

To demonstrate deficient performance by counsel, a petitioner must

demonstrate that "counsel's representation fell below an objective standard of reasonableness."
Strickland, 466 U.S. at 687-88. "A court considering a claim of ineffective assistance must apply
a 'strong presumption' that counsel's representation was within the 'wide range' of reasonable
107

Case 1:09-cv-01181-JDB-egb Document130a
144 Filed 08/03/17
7807

Page 111 of 142

PagelD

professional assistance." Richter, 562 U.S. at 104 (citing Strickland, 466 U.S. at 689). "The
challenger's burden is to show 'that counsel made errors so serious that counsel was not
functioning as the "counsel" guaranteed the defendant by the Sixth Amendment."' Id. (quoting

Strickland, 466 U.S. at 687). To demonstrate prejudice, a prisoner must establish "a reasonable
probability that, but for counsel's unprofessional errors, the result of the proceeding would have
been different.'' Strickland, 466 U.S. at 694. 30

"A reasonable probability is a probability

sufficient to undermine confidence in the outcome." Id.

"It is not enough 'to show that the

errors had some conceivable effect on the outcome of the proceeding."' Richter, 562 U.S. at 104
(quoting Strickland, 466 U.S. at 693). "Counsel's errors must be 'so serious as to deprive the
defendant of a fair trial, a trial whose result is reliable."' Id. (quoting Strickland, 466 U.S. at 687).
"Surmounting Strickland's high bar is never an easy task." Padilla v. Kentucky, 559 U.S. 356,
371 (2010).

2.

Procedural Default

Hugueley states that Claims I and K were not raised in the state court proceedings because:
(1) his post-conviction counsel were ineffective; (2) Tennessee does not provide an adequate
post-conviction remedy; and (3) the trial court denied him adequate process to challenge his
competence to waive post-conviction, including funding resources and time to assert the
challenge. (ECF No. 58 at PageID 4672, 4677.)

30

"[A] court need not first determine whether counsel's performance was deficient before
examining the prejudice suffered by the defendant." Strickland, 466 U.S. at 697. If a reviewing
court finds a lack of prejudice, it need not determine whether, in fact, counsel's performance was
deficient. Id.
108

Case 1:09-cv-01181-JDB-egb Document131a
144 Filed 08/03/17
7808

Page 112 of 142

PagelD

The Warden argues that Hugueley cannot be permitted to manufacture a w1nnmg
ineffective assistance claim by sabotaging his defense and that the Court should not enable him to
"throw a 'monkey wrench' into the process if his request was not honored." (ECF No. 112-1 at
PageID 5468, 5471.) See Hugueley, 2011 WL 2361824, at *17. Respondent submits that the
Court should deny these claims as procedurally defaulted if it declines to find them time barred or
subject to dismissal based on the Warden's motion to dismiss. (ECF No. 112-1 at PagelD 5468,
5.471.)
The Warden asserts that Claims 1(1 & 2) and K(3) related to Hugueley's competence and
the waiver of mitigation are procedurally defaulted.

(ECF No. 137 at PageID 7669.) He

contends that the inmate had no right to post-conviction review, to post-conviction counsel, or to
dictate the manner in which he would be allowed to waive post-conviction proceedings. (Id. at
PageID 7669-70.) Respondent argues that Hugueley's arguments to overcome the procedural
default address "the adequacy and reliability of the resources and process afforded to determine
his competency" and that a state court's determination of competence is a factual finding owed
deference. (Id.)
Respondent insists that the state court's findings must be upheld unless there is clear and
convincing evidence to the contrary. (Id.) This Court's review of Hugueley's competence to
waive post-conviction review, says the Warden, is confined to the state court record. (Id.)
Relying on Richter, Respondent asserts that habeas relief is precluded so long as
fair-minded jurists could disagree on the correctness of the state court decision. (Id.) He states
that the TCCA offered an in-depth discussion on its finding that Hugueley was competent to
waive post-conviction review, reasonably deemed him competent to waive post-conviction
109

Case 1:09-cv-01181-JDB-egb Document132a
144 Filed 08/03/17 Page 113 of 142
7809

PagelD

review, and determined that his waiver was knowing, voluntary, and intelligent. (Id. at PageID
7671-79.) See Hugueley, 2011 WL 2361824, at *36-43.
Respondent notes that Hugueley's challenge to the state court's competency determination
is not a claim in the federal habeas petition. (Id. at Page!D 7679.) He claims that the inmate's
challenge to the competency determination as it relates to the adequacy of state post-conviction
proceedings is not an issue that is cognizable on federal habeas review. (Id. at PageID 7679-80.)
With regard to the ineffective assistance allegations in Claims I( 4) and K(2) about his prior
violent convictions, the Warden maintains that the new evidence Hugueley offers to excuse the
procedural default does not establish the merits of these ineffective assistance claims. (ECF No.
127 at PageID 7684.) Respondent relies on the state court's competency determination and
contends that Hugueley's default "is solely a product of his decision to forego asserting these
claims in state court." (Id.)

a. The State Court Claims
The Warden contends that Claims I and K were not raised in the motion for new trial, on
direct appeal, or during the state post-conviction proceedings. (ECF No. 58 at PageID 4672,
4677.) He asserts that Claims I and K first "appeared under Claims 7 through 10 of the amended
post-conviction petition." (ECF No. 137 at PageID 7682; see ECF No. 42-1 at PageID 1643-47.)
Hugueley's counsel filed an Amended Petition for Post-Conviction Relief on January 3,
2007, which raised several ineffective assistance claims. (See ECF No. 42-1 at PageID 1622-82.)
Claims 7 through 10 addressed ineffective assistance related to the guilt phase defense including
counsel's failure to present evidence of the inmate's diminished capacity, brain damage, mental
illness, and lifelong trauma (social history). (Id. at PageID 1641-42.)
110

133a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 114 of 142
7810

PagelD

In Claim 14 of that petition, Hugueley alleged that his counsel were ineffective for failing
to move for a hearing on his competency to stand trial and to waive presentation of mitigation
evidence. (Id. at PageID 1643.) The claim asserts that he suffered brain damage and mental
illness, which "affect his capacity to make knowing, intelligent, voluntary, and competent
decisions regarding his legal affairs." (Id. at PagelD 1644.) The petition notes Hugueley's head
injuries, brain surgery, CT scan, threats to harm himself, behaviors and psychological problems,
and psychiatric treatment. (Id. at PageID 1644-47.)

He argued that

[c ]ounsel were aware that Mr. Hugueley is prone to paranoid ideation and
transient psychotic symptoms when under stress. He has a history of impulsivity
which is likely biologically based; he suffers a severe mental dise~se as well. Mr.
Hugueley's judgment and impulse control are severely impaired on a continuing
basis ..
Nonetheless, counsel did not move for a competency hearing prior to trial or
before Mr. Hugueley was permitted to waive presentation of mitigating
circumstances. Counsel did not inform Mr. Hugueley of the full results of the
limited mitigation investigation performed before the trial, thus precluding him
from making a knowing, intelligent, and voluntary waiver of his right to present
mitigating evidence. It has only been since he was sentenced to death that Mr.
Hugueley has been provided with the results of that investigation.
Mr. Hugueley was in fact incompetent to stand trial and to waive
mitigation, which would have been discovered had appropriate measures been
taken.
(Id. at PageID 1647.)
This claim is essentially the same as Claim 1(1 & 2), and Claim K(3) also addresses the
social history aspects raised in Claims 1(3) and K( 1). Hugueley waived these claims in the state
post-conviction proceedings. Evidence was developed in the post-conviction proceedings about
his competence, and his refusal to cooperate with experts prevented the further development of
evidence. The reason for the state court's failure to hear these claims was Hugueley's desire to
111

134a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 115 of 142
7811

PagelD

withdraw them, and his subsequent failure to exhaust the claims at the appellate level. (See ECF
Nos. 43-7 & 43-12.) See Hugueley, 2011 WL 2361824, at *3-26.
When he attempted to revoke his waiver of the post-conviction proceedings after the time
period had expired, the TCCA found that Hugueley's "decision to resume post-conviction
proceedings may be understood as a part of the Petitioner's continuing course of conduct of
attempting to manipulate the system and protest the conditions of his incarceration." Id. at *20.
The court noted that he sought post-conviction relief to continue visitation with his girlfriend and
spre~d feces on the walls to protest jail conditions. Id.

The TCCA said Hugueley "now seeks to

protest the limitation placed by the prison on his telephone use by seeking to resume
post-conviction proceedings." Id.
Additionally, the TCCA addressed the denial of the funding for experts stating:
The post-conviction court found that the Petitioner had no constitutional
right to expert assistance in preparing for his competency hearing and that he was
not entitled to funding for his requested experts pursuant to Tennessee Supreme
Court Rules. Under Rule 15, section 5(b )(1 ), counsel must make "every effort" to
locate and retain experts within 150 miles of the court. The post-conviction court
denied funding for a neuropsychologist, neuropsychiatrist, and pharmacologist
because counsel failed to sufficiently set forth their efforts to locate experts within
150 miles of the court. With respect to the Petitioner's request for a phannacologist,
the court also determined that a psychiatrist or neuropsychologist should have
sufficient expertise to address any issues that might arise regarding psychiatric
drugs. The court denied the request for brain-imaging because current brain
imaging technology would not have been available to the Petitioner's trial counsel.
The court further found that any evidence that might be gleaned from the use of
such imaging would not be relevant to an ineffective assistance of counsel claim.
However, the court did not address the need for neurological imaging with regard
to ascertaining the Petitioner's competency.

Id. at *22.

112

135a

Case 1:09-cv-01181-JDB-eglJ Document 144 Filed 08/03/17 Page 116 of 142
7812

PagelD

The TCCA noted the post-conviction court's efforts to evaluate Hugueley's competency
by initially choosing two experts, the situation with Hutson being mistakenly compensated by the
State, Brown's inability to complete the evaluation in a timely manner, and the subsequent
appointment of Seidner as an expe1t. Id. The TCCA acknowledged that Ake v. Oklahoma, 470
U.S. 68, 77 (1985), established a right to access to a "competent psychiatrist who will conduct an
appropriate examination and assist in evaluation, preparation, and presentation of the defense."

Hugueley, 2011 WL 2361824, at *23 (citing Ake, 470 U.S. at 83). The court recognized that
Panetti establishes a "defendant's right to be heard and presented rebuttal evidence with respect to
a[] court-appointed expert's competency determination," but found that it did not "create a
constitutional guarantee of funding for a rebuttal expert of the Petitioner's choosing." Id. at
*23-24. The court also noted that Hugueley had no constitutional right to the appointment or the
effective assistance of post-conviction counsel and declined "the Petitioner's invitation to
overlook the express absence of each of these rights to suddenly create an ancillary constitutional
right at a competency hearing to the mental health experts and testing of his choosing." Id. at *24.

b. Martinez
Hugueley failed to exhaust any ineffective assistance claims in the state courts and relies
on Martinez v. Ryan, 566 U.S. 1, 17 (2012), in part, to overcome the procedural default.
Specifically, he asserts that ineffective assistance of post-conviction counsel caused the procedural
default of the following substantial claims of ineffective assistance of trial counsel related to his
competence and the waiver of the presentation of mitigation evidence: Claims 1(1 ), 1(2), and
K(l)(a), related to proof ofHugueley's incompetence and waiver of the presentation of mitigation
evidence. (ECF No. 127 at PagelD 5616-17.)
113

136a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 117 of 142
7813

PagelD

In 2012, the Supreme Court rendered its decision in Martinez, which recognized a narrow
exception to the rule stated in Coleman, "[ w]here, under state law, claims of ineffective assistance
of trial counsel must be raised in an initial-review collateral proceeding .... " Martinez, 566 U.S.
at 17. In such cases, "a procedural default will not bar a federal habeas court from hearing a
substantial claim of ineffective assistance of counsel if, in the initial-review collateral proceeding,
there was no counsel or counsel in that proceeding was ineffective." Id. The Supreme Court
emphasized that "[t]he rule of Coleman governs in all but the limited circumstances recognized
here. . . . It does not extend to attorney errors in any proceeding beyond the first occasion the
State allows a prisoner to raise a claim of ineffective assistance at trial ...." Id. at 16. The
requirements that must be satisfied to excuse a procedural default under Martinez are:
(1) the claim of "ineffective assistance of trial counsel" was a "substantial" claim 31 ;
(2) the "cause" consisted of there being "no counsel" or only "ineffective" counsel
during the state collateral review proceeding; (3) the state collateral review
proceeding was the "initial" review proceeding in respect to the
"ineffective-assistance-of-trial-counsel claim"; and (4) state law requires that an
"ineffective assistance of trial counsel [claim] ... be raised in an initial-review
collateral proceeding."
Trevino v. Thaler, 133 S. Ct. 1911, 1918 (2013) (quoting Martinez, 566 U.S. at 12-18)) (emphasis

and revisions in the original).
In Trevino, 133 S. Ct. at 1921, the Supreme Court extended its holding in Martinez to states
in which a "state procedural framework, by reason of its design and operation, makes it highly

31

To be "substantial" under Martinez, a claim must have "some merit" based on the
controlling standard for ineffective assistance of counsel stated in Strickland. Martinez, 566 U.S.
at 14; see Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) ("[R]easonable jurists could debate
whether (or, for that matter, agree that) the petition should have been resolved in a different
manner or that the issues presented were adequate to deserve encouragement to proceed further.")
114

137a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 118 of 142
7814

PagelD

unlikely in a typical case that a defendant will have a meaningful opportunity to raise a claim of
ineffective assistance of trial counsel on direct appeal ...." Thus, the decision in Trevino
modified the fourth requirement under Martinez for overcoming a procedural default. In Sutton v.
Carpenter, 745 F.3d 787 (6th Cir. 2014), the Sixth Circuit held that ineffective assistance of state
post-conviction counsel can establish cause to excuse a Tennessee prisoner's procedural default of
a substantial federal habeas claim that his trial counsel was constitutionally ineffective.
The Warden asserts that Martinez does not apply to these defaulted ineffective assistance
claims because the default is not attributable to post-conviction counsel. (ECF No. 137 at PageID
7682.) He argues that Hugueley's desire to waive collateral review proceedings is documented in
the state court record. (Id.) Thus, Respondent contends that Hugueley's claims fall outside the
purview of Martinez. (Id. at PageID 7682-83.)
Further, Respondent insists that Hugueley cannot establish that these claims are substantial
under Martinez.

(Id. at PageID 7683.) He contends that counsel investigated Hugueley's

competency and deemed him competent to stand trial. (Id.) Trial counsel filed a substantial
mitigation report including copious details about Hugueley's social, criminal, and psychological
history. (Id.) Respondent notes that the only apparent impediment to Hugueley's trial and
appellate counsel's investigation was his refusal to communicate or cooperate with counsel or
experts. (Id.) Consequently, Hugueley's counsel cannot be faulted for relying on the experts
who they consulted, and Hugueley should not be allowed to benefit from his decision to waive the
presentation of claims or evidence in state comt. (Id.) Respondent further argues that the
inmate has failed to timely disclose any evidence now offered in support of his defaulted
ineffective assistance claims. (Id.)
115

138a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 119 of 142
7815

PagelD

Hugueley maintains that his post-conviction counsel were ineffective in developing these
claims. He contends that his post-conviction counsel's constitutionally inadequate representation
prevented him from having the necessary evidence and expert assistance, including brain scans, to
prove these ineffective assistance of trial counsel claims. (Id. at PageID 5615.) He asserts that
because his post-conviction counsel failed to adhere to the state rules for funding experts, the state
court denied the requests for brain scans and expert assistance. (Id.) Hugueley focuses on the
post-conviction court's denial of funding for a neuropsychologist, neuropsychiatrist, and
pharmacologist because counsel failed to set forth their efforts to locate experts within 150 miles
of the court. (Id.) See Hugueley, 2011 WL 2361824, at *21. He claims that his post-conviction
counsel's failures to located qualified experts within the geographic region specified by the
Tennessee rules and provide documentation of those efforts constitute deficient performance, and
counsel did not have any strategic reason for failing to comply with the Tennessee rules. (Id. at
PageID 5615-16; see ECF No. 130-20 at PageID 7413-15.)
Petitioner contends that the post-conviction court denied brain imaging based on the
erroneous belief that brain imaging technology would not have been available to him at the time of
his trial. (ECF No. 127 at PagelD 5616.) He notes that, in 2003, the trial court signed an order
allowing MRI scans, and he faults his post-conviction counsel for failing to correct the trial court's
misinformation about the relevance of scans in the post-conviction proceedings. (Id.) He cites
the report of Siddhartha Nadkami showing, with medical certainty,that congenital or
developmental malformations existed in Hugueley's brain before his trial. (Id.; ECF No. 127-5 at
PageID 5836 ("This brain abnormality is likely is developmental in nature - having affected his
behavior since early in life-if not since birth.").)
116

139a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 120 of 142
7816

PagelD

The inmate claims that Martinez applies where post-conviction counsel failed to develop
the evidentiary basis of a claim of ineffective assistance of trial counsel. (ECF No. 127 at PageID
5617.)

He maintains that the brain scans would have allowed him to show that he was

incompetent to stand trial, that his ineffective assistance of trial counsel claims were substantial,
and also that he was irreparably prejudiced by post-conviction counsel's deficient performance.

(Id. at PagelD 5618.)
Hugueley's post-conviction counsel clearly raised claims that his trial counsel were
ineffective for failing to move for a hearing about his competence to stand trial and waive the
presentation of mitigation evidence (Claim 14). (See ECF No. 42-1 at PageID 1643.) The
petition raised issues about brain damage, head injuries, brain surgery for a tumor, psychological
problems, evaluations, and treatment.

(Id. at PageID 1644-47.)

As stated supra, multiple

attempts were made to evaluate Hugueley's competence in the post-conviction proceedings
resulting ultimately in a determination that he was competent to waive post-conviction
proceedings and ending consideration of his ineffective assistance of trial counsel claims. See
Hugueley, 2011 WL 2361824, at *3-20.

Although Petitioner's post-conviction counsel raised the ineffective assistance of trial
counsel claims, his waiver prevented the development of those claims despite counsel's efforts to
establish that he was incompetent to waive post-conviction review. Hugueley was determined to
be competent at the time of trial and in the post-conviction proceedings. The only available
evidence that is contrary to those determinations is George Woods' report in 2014, after the
post-conviction trial and appellate proceedings concluded.
5788-89.)

(See ECF No. 127-4 at PageID

Deference is owed the state courts on the TCCA's finding that Hugueley was
117

140a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17 Page 121 of 142
7817

PagelD

competent to waive post-conviction review. See id. at *41 ("Petitioner is competent to withdraw
his petition for post-conviction relief.")

Hugueley has not presented clear and convincing

evidence to rebut the presumption of correctness of the TCCA' s factual finding. Based on the
validity of the post-conviction waiver, he cannot demonstrate prejudice associated with his
post-conviction counsel's performance. Therefore, he could not meet his burden under Martinez
to overcome procedural default.
After Hugueley waived his claims, the ineffective assistance of trial counsel claims were
not exhausted on post-conviction appeal. (See ECF No. 43-7.) Martinez does not extend to
etTors of counsel beyond the first opportunity to present the claim on collateral review. Martinez,
566 U.S. at 16.
Further, Hugueley would have difficulty demonstrating that his trial counsel's
performance was deficient where there is a detailed history of his mental health issues,
evaluations, treatment, and refusal to cooperate with counsel over the course of his life resulting in
multiple and varying diagnoses.

The TCCA referred to Pamela Auble's neuropsychological

evaluation of Hugueley in 2007. The court noted that "[c]ompetency is not static, but rather a
function of the individual's present state" and that Auble was unable to "venture an opinion on
[Hugueley's] present competency" because she had not seen him in four years. See Hugueley,
2011 WL 2361824, at *13. (ECF No. 130-11 at PageID 7365 (competency changes over time).)
The TCCA also referenced Caruso's evaluation of Hugueley and that Caruso "could not offer an
opinion as to [Hugueley's] present competency because he has not seen him in more than four
years." The TCCA stated "[t]he competency of individuals such as this can wax and wane
depending upon the circumstances." Id. There is not a reasonable probability that the outcome
118

141a

Case 1:09-cv-01181-JDB-egb Document 144 Filed 08/03/17
7818

Page 122 of 142

PagelD

at trial would have been different because: (I) approximately fifteen years has passed since the
crime; (2) the trial court and Hugueley's counsel noted no apparent issue with his demeanor and
competence (see ECF No. 41-5 at PageID 755; see ECF No. 130-8 at Page ID 7293 ("I thought Mr.
Hugueley was competent. He seemed like a smart guy. . . .

When I say Mr. Hugueley was

competent, I mean he knew what was going on."); and (3) the only concurrent evaluation of
Hugueley's competence at trial indicated that he was competent to stand trial. See Harries v. Bell,
417 F.3d 631, 635-37 (6th Cir. 2005) (denying habeas claims about the defendant's competence to
stand trial and ineffective assistance for counsel's failure to challenge the defendant's competence
where two doctors found the defendant competent to stand trial, trial counsel bolstered the
competency determination, and the evidence of incompetence was submitted nineteen years
post-trial)32; see also Sully v. Ayers, 725 F.3d I 057, I 070-72 (9th Cir. 2013) (denying habeas relief
based on retrospective determination of incompetence) 33 ; Johnson v. United States, 860 F. Supp.
2d 663, 809-810 (N.D. Iowa 2012) (finding that "[t]he fact that Johnson was later able to find a
mental health expert, Dr. [George] Woods, to opine that she was not competent to stand trial does
not make trial counsel's conduct at the time of trial unreasonable" where trial counsel had not
received any indication from the mental health experts or observations of Johnson's demeanor and
behavior to indicate that she was incompetent).

32

The Harries case is similar to Hugueley's because, like Hugueley, Harries demanded
the death penalty at times, talked with press, and attempted to manipulate the system through his
jailhouse behavior, while also engaging in coherent discussion during the trial proceedings.
Harries, 417 F.3d at 636.
33

In Sully, the court stated that it generally disfavored "retrospective determinations of
incompetence like that of Dr. Woods" where there was "strong evidence that Sully was competent
to stand trial" based on his testimony and discussion of the charges. Sully, 725 F.3d at 1071-72.
119

Case 1:09-cv-01181-JDB-egb Document142a
144 Filed 08/03/17
7819

Page 123 of 142

PagelD

To the extent that Petitioner argues that trial counsel was ineffective for failing to develop
and present evidence of his social history as mitigation, his counsel did develop his social history
and put that evidence in the record despite Hugueley's waiver.
appears reasonable under the circumstances.

His counsel's performance

See Ryder ex rel. Ryder, 810 F.3d at 748-50

(denying ineffective assistance claim for failure to present mitigation evidence where legally
competent defendant waived mitigation); Ramirez, 641 F. App'x at 327 (denying claim of
ineffective assistance where counsel stopped mitigation case at defendant's request where
defendant was competent "and wanted to avoid spending the rest of his life in jail").
Further, the Court acknowledges that Hugueley has presented evidence m these
proceedings of a personal and family history of mental illness, sexual abuse, and brain damage.
That evidence is juxtaposed against a violent criminal history with the inmate as a young adult
murdering his mother, killing two individuals in prison, and attempting the murder of a third
individual while in custody. Hugueley's testimony about the manner in which he murdered Steed
was grotesque and showed no empathy or remorse.

Woods' conclusions about Hugueley's

mental disorders do not humanize him and make no attempt to explain how they relate to his
violent nature other than stating that his disorders created "a depth of impaired functioning and
disruptive behavior." (See ECF No. 127-4 at PagelD 5805.) This evidence does not establish a
reasonable probability that the outcome at sentencing would have been different had the jury heard
the evidence now presented.
Claims 1(1-3) and K(l & 3) are procedurally defaulted, without merit, and DENIED.
With regard to the sub-claims 1(5) and K(2) related to the investigation and presentation of
evidence about Hugueley's prior violent convictions, he asserts that his ability to reasonably assist
120

Case 1:09-cv-01181-JDB-egb Document143a
144 Filed 08/03/17
7820

Page 124 of 142

PagelD

counsel was compromised by his developmental, if not congenital, brain defects and resulting
mental illness. (ECF No. 127 at PageID 5636.) He contends that these conditions vitiated his
competency to plead guilty to the three prior crimes used to support the aggravating circumstance
of prior violent felony convictions under Tenn. Code Ann. § 39-13-204(i)(2). (Id.) Hugueley
contends that his trial counsel's failure to collaterally attack these convictions prejudiced him.
(Id.)

Petitioner argues that these claims were not raised in the state courts due to the ineffective
assistance of post-conviction counsel. (ECF No. 127 at PagelD 5636.) He provides Gleason's
declaration that the claims were not made because of "the time constraints and my focus on other
cases, coupled with lack of resources to begin investigation on Mr. Hugueley's social history."
(Id. at PageID 5636-37; see ECF No. 130-20 at PageID 7406-07.) Hugueley contends that this
failure to investigate and collaterally attack these prior convictions, along with investigating his
social history and mental health is constitutionally inadequate for both trial and post-conviction
counsel. (ECF No. 127 at PageID 5637.) He asserts that, under Martinez, he has cause for the
procedural default of his ineffective assistance of trial counsel claims. (Id. at PageID 5638-39.)
He also argues that his incompetency at the time of the prior convictions renders those convictions
unconstitutional and overcomes procedural default and that he has suffered prejudice. (Id. at
PageID 5639.)
The inmate relies on Nadkarni's letter that he was incompetent at the time of his prior
convictions. (See ECF No. 127 at PageID 5636.) However, Nadkami does not come to that
conclusion.

Nadkami opined that Hugueley suffered "a virtually global neurocognitive

syndrome, with marked dysexecutive features" and that Hugueley had severe brain abnormality
121

Case 1:09-cv-01181-JDB-egb Document144a
144 Filed 08/03/17 Page 125 of 142
7821

PagelD

that "impairs his judgments, tending toward explosive behavior, with an organically based lack of
empathy" which is likely developmental in nature.

(ECF No. 127-5 at PagelD 5836.) 34

Nadkami further concluded that "Hugueley's thinking may be irrational and not based in reality."
(Id. (emphasis added).)

However, Nadkami never examined or interviewed Hugueley or

reviewed his records and admitted that his opinions might be modified based on that information.
(Id.)

Nadkarni makes no assertions about Hugueley's competence. Woods' report is also silent

about Hugueley's competence at the time of the prior convictions. Without some showing that
Petitioner was actually incompetent at the time of Jhose convictions, his prejudice argument fails.
Hugueley has not demonstrated ineffective assistance of post-conviction counsel. Martinez does
not assist Hugueley in overcoming the procedural default of his claims of ineffective assistance of
trial counsel related to his prior convictions in Claims 1(5) and K(2).
c. Panetti

The inmate asserts that the state court's adjudication of his waiver of the post-conviction
process under Tennessee Supreme Court Rule 28 did not comport with due process and resulted in
an erroneous determination that he was competent. (ECF No. 127 at PagelD 5598.) He argues
that, as a result, there is not an adequate state procedural ground for the default of his claims for
which he is entitled to de nova review. (Id.)
Tennessee Supreme Court Rule 28, § 11 (B)(2) provides the state procedure required when
a defendant seeks to withdraw a post-conviction petition:

34

Nadkarni made no reference to Hugueley's brain tumor or how the removal of that
tumor related to the abnormalities referenced in the report.
122

Case 1:09-cv-01181-JDB-egb Document145a
144 Filed 08/03/17 Page 126 of 142
7822

PagelD

A petitioner is presumed competent to withdraw a post-conviction petition and
waive post-conviction relief; however, if a genuine issue regarding the petitioner's
present competency arises during the hearing provided for in (A), supra, the trial
court shall enter an order appointing at least one, but no more than two, mental
health professionals from lists submitted by the State and counsel for the petitioner.
The order shall direct that the petitioner be evaluated by the appointed mental
health professionals to determine the petitioner's competency and that the
appointed mental health professionals file written evaluations with the trial court
within ten days of the appointment unless good cause is shown for later filing.
Upon filing, the trial court clerk shall forward a copy of the written evaluations to
counsel for the petitioner and to the State.
Hugueley outlines the proceedings in the state post-conviction courts (see supra pp. 4-12)

to assert that he was denied due process when the state post-conviction court allowed him to
withdraw his ineffective assistance claims. (Id. at PageID 5599-5608.) He claims that the state
court unconstitutionally precluded consideration of evidence of his incompetence in
contravention of Panetti v. Quarterman, 551 U.S. 930 (2007), because he was not afforded a fair.
hearing in accord with fundamental due process. (Id. at PageID 5608-12.) Hugueley contends
that, in violation of Panetti, the Tennessee courts denied funding for brain scans or expert
assistance to challenge the state's competency determination.

(Id. at PageID 5610.)

He

maintains that he was entitled to the assistance of his own expert. (Id.)
Although post-conviction counsel repeatedly asked for brain scans and expert assistance
for the competency hearing, Hugueley asserts that the post-conviction appellate court refused.
(Id. at Page!D 5611.) He cites the TCCA's determination that Hugueley has no constitutional
right to expert assistance at all stages of competency proceedings and no constitutional right to
the funding or appointment of experts.

(Id. at PageID 5612.)

See Hugueley, 2011 WL

2361824, at *24 ("Absent the creation of a new constitutional right, due process merely requires
the postconviction court to follow the procedures established by state rules."). He argues that,
123

Case 1:09-cv-01181-JDB-egb Document146a
144 Filed 08/03/17
7823

Page 127 of 142

PagelD

"[h]eedless of Panetti," the Tennessee court decided his competency only based on the
examination performed by the court-appointed expert and contravened his due process rights.
(Id. at PageID 5612.)

The Warden counters that, as the TCCA noted, neither Ake, 470 U.S. 68, nor Panetti, 551
U.S. 930, established a constitutional right to funding for experts of a petitioner's choosing in a
collateral review proceeding. (ECF No. 137 at PageID 7680.) Hugueley, 2011 WL 2361824, at
*23. He argues that these cases do not support Hugueley's argument that due process required
funding of an expert of his selection to litigate his competency to waive state post-conviction
proceedings. (Id. at PageID 7680-81.)
Panetti specifically addresses the competency of a prisoner to be executed. Panetti is not

directly applicable to Hugueley's claim because competence to stand trial and waive mitigation is
not the equivalent to competence to be executed, and the timelines for these determinations are
different. The Supreme Court in Panetti held that "no deference [was] due" to a state court's
adjudication of a prisoner's claim that he was not competent to be executed because "[t]he state
court's failure to provide the procedures mandated by Ford [v. Wainwright, 477 U.S. 399 (1986),]
constituted an unreasonable application of clearly established federal law as determined by this
Court." Panetti, 551 U.S. at 948. In Panetti, the court stated that, once a prisoner seeking a stay
of execution makes a "substantial threshold showing of insanity," procedural due process affords
him a "fair hearing" or an "opportunity to be heard." Id. at 949. The Court noted that the state
procedures in Ford were deficient because the determination of sanity was "made solely on the
basis of the examinations performed by state-appointed psychiatrists."

Id.

The basic

requirements of due process were described as "an opportunity to submit 'evidence and argument
124

Case 1:09-cv-01181-JDB-egb Document147a
144 Filed 08/03/17
7824

Page 128 of 142

PagelD

from the prisoner's counsel, including expert psychiatric evidence that may differ from the
State's own psychiatric examination."' Id. at 950.
The Sixth Circuit has addressed the process required for a determination of an inmate's
competence to be executed. Due process requires more than a determination based "solely on
the examinations performed by state-appointed psychiatrists." Ford, 477 U.S. at 424; see also
Bedford v. Bobby, 645 F.3d 372, 380 (6th Cir. 2011 ). However, a full hearing is not mandated as

a part of a threshold determination of competency. Bedford, 645 F.3d at 379. So long as the
inmate is afforded "the opportunity to be heard," there is no due process violation. Id. at 380.
Although Hugueley contends that he was not provided resources to respond to the state's
evidence, he ignores the fact that he was granted the opportunity to select an expert of his own
choosing and that Peter Brown could not complete the evaluation in a timely manner, in part
because of Hugueley's refusal to cooperate. His post-conviction proceedings began in 2006, and
continued until 2011.

See Hugueley, 2011 WL 2361824, at *3.

Seidner was ultimately

appointed and evaluated Hugueley in 2008. Id. at *11. The inmate provided the affidavits of
Auble and Caruso in the post-conviction proceedings in contrast to Seidner's opinion. Id. at *13.
The TCCA also reviewed TDOC records about Hugueley's previous psychiatric diagnoses of
intermittent explosive, antisocial, narcissistic personality, borderline personality, and delusional
disorder, the brain tumor that was removed in 1986, and his IQ. Id. at *16.
Hugueley's case differs from a situation involving the competency to be executed. Still,
he was provided an opportunity to be heard and due process with regard to the competency

125

Case 1:09-cv-01181-JDB-egb Document148a
144 Filed 08/03/17 Page 129 of 142
7825

PagelD

dete1mination for his waiver of post-conviction review. 35 He has not demonstrated cause and
prejudice to overcome the procedural default of his ineffective assistance claims in Claims I and
K based on constitutionally inadequate post-conviction proceedings.

d. Adequate State Procedural Ground
Hugueley contends that, given the fundamental unfairness of the state post-conviction
proceedings, there is not an adequate state ground precluding federal review of his claim. (ECF
No. 127 at PageID 5612.) He asserts that the adequacy of his waiver is dependent on the
adequacy of Tennessee Supreme Court Rule 28.

(Id. at PagelD 5613.) Hugueley submits that

because the competency dete1mination did not comport with basic due process, federal review _is
not barred.
Petitioner insists that, without the brain scans, the state court had no proof of the
congenital, physical abnormalities that were the basis of his irrational and self-destructive
decisions. (Id. at PageID 5614.) He argues the state court's erroneous determination that he
was competent to waive post-conviction proceedings is the direct result of the denial ofresources
and establishes cause for the procedural default of Hugueley's claims. (Id. at PagelD 5614.)
Respondent counters that the relevant question is whether Hugueley's waiver of
post-conviction review and the one-year limitation on post-conviction petitions are independent
and adequate grounds to support the default. (ECF No. 37 at PageID 7681.) He notes that
Hugueley's ineffective assistance claims are defaulted due to improper exhaustion, rather than

35

The TCCA noted that Hugueley had no constitutional right to post-conviction review or
to post-conviction counsel and declined "to suddenly create an ancillary constitutional right at a
competency hearing to the mental health experts and testing of his choosing." Hugueley, 2011
WL 2361824, at *24.
126

Case 1:09-cv-01181-JDB-egb Document149a
144 Filed 08/03/17
7826

Page 130 of 142

PagelD

the express enforcement of an applicable state procedural bar. (Id.) The Warden observes that
under Coleman, the claims are defaulted notwithstanding the lack of a state court decision
enforcing a procedural bar. (Id.) These well-established and regularly applied procedural bars,
argues Respondent, are adequate to support a finding of procedural default.
As stated herein, Hugueley has not demonstrated that the state court proceedings denied
him due process as it relates to the competency determination. Tennessee Rule 28 did not act as
a procedural bar to the exhaustion of Hugueley's claims. He made a valid waiver of those claims

and subsequently failed to exhaust them in the state courts.
Hugueley has not demonstrated that his failure to exhaust the allegations in Claims I and K
are based on the ineffective assistance of post-conviction counsel, nor has he established cause
and prejudice to excuse procedural default based on a denial of funding and due process in the
post-conviction proceedings. See Hugueley, 2011 WL 2361824, at *25 ("The record reflects
that the court provided the defense team with every reasonable opportunity to have a report
prepared by the expert of their choosing."). The allegations in Claim I and K are procedurally
defaulted.
3.

Merits

Alternatively, the Warden submits that Hugueley's claims that his trial counsel failed to
investigate or consult with experts about his competency, social history, and prior convictions
(Claim I and K) are belied by the state-court record and without merit. (ECF No. 112-1 at
PageID 5468-69, 5471-72.)

Respondent contends that the record reflects trial counsel's

extensive consultation with experts and those experts' exhaustive investigation into Hugueley's
social, criminal, and psychological history.
127

(Id.)

Hugueley's counsel investigated his

Case 1:09-cv-01181-JDB-egb Document150a
144 Filed 08/03/17 Page 131 of 142
7827

PagelD

competency, and the expert deemed him competent to stand trial. (Id. at PagelD 5469, 5471-72.)
Respondent points out that Hugueley's trial counsel filed "a several-hundred-page report"
prepared by a mitigation expert and that document includes details about Hugueley's social,
criminal, and psychological history. (Id. at PageID 5469, 5472; see ECF No. 41-7.)
Petitioner asserts that he is brain-damaged, traumatized, and mentally ill and that he was
incompetent to stand trial and waive mitigation.

(ECF No. 127 at PageID 5551-5570.) He

believes that his trial counsel were ineffective for failing to investigate the brain damage and
incompetence issues and that his counsel ignored their own experts' requests for additional
information.

(Id. at PageID 5570-85.)

Hugueley contends that his counsel's inactions

undermined their experts' ability to make an accurate assessment and did not understand the law of
competency.

(Id. at PagelD 5586-89.)

As a result of his counsel's failures to conduct an

adequate social history and appropriate legal research, he asse1ts that they failed to investigate
brain dysfunction and did not present significant evidence of his incompetence. (Id. at PagelD
5589-94.) The inmate avers that, had his counsel investigated and developed "the clear proof that
Mr. Hugueley's behaviors and decisions are not merely 'unconventional' but rather the irrational
product of his organic brain malformation and resulting serious mental illness," he never would
have been convicted or sentenced to death. (Id. at PageID 5597.) He contends that, had his
counsel investigated and prepared a social history that comported with professional norms, they
would have realized the critical need for MRI scans and understood that his history of suicide
attempts and self-injurious behavior was an irrational product of mental illness. (Id.) At least
one juror, claims Hugueley, would have voted for life had his trial counsel presented the mitigation
proof documented and illustrated in the biopsychosocial evaluation. (Id. at PagelD 5597-98.)
128

Case 1:09-cv-01181-JDB-egb Document151a
144 Filed 08/03/17
7828

Page 132 of 142

PagelD

The Court further notes that Hugueley has not clearly demonstrated deficient performance
or prejudice as it relates to Claims I and K. The record indicates that Petitioner's trial counsel
attempted to litigate his mental health issues without much cooperation from Hugueley. With a
mitigation investigator, counsel developed themes of early childhood trauma, inadequate
community response, institutional failure, cognitive and emotional disorder, and cultural distortion
of perception.

(See ECF No. 41-7 at PageID 908.)

The mitigation investigation included

Hugueley's social history including his mother's background, his childhood, problems setting
fires, the Faith Tabernacle Baptist Church and assertions that he had been sexually assaulted by the
preacher, behavior problems, his father's suicide, Hugueley's belief that his father was killed by
his mother's family to prevent him from gaining custody, juvenile delinquency, incidents of
self-mutilation and psychiatric treatment while in state custody as a juvenile, his multiple suicide
attempts, hearing voices to "kill mama and take the car," his mother's fear of him, and Hugueley's
murder of his mother in 1986. (Id. at PagelD 909-17, 923-27, 930-31.) The records address his
mental health evaluations, surgery for a brain tumor, treatment with various psychiatric
medications, and varied psychiatric diagnoses including, but not limited to intermittent explosive
disorder, bi-polar disorder, paranoid schizophrenia, delusion disorder (persecutory type), and
alcohol and cannabis abuse. (Id. at PagelD 916-18.) Hugueley was classified as "a maximum
security offender" and described as "the most dangerous prisoner they have ever had" and "a
hopeless and dangerous case."

(Id. at PageID 918.)

The mitigation history addresses

Hugueley's murder of James Shelton in I 991, the attempted murder ofTimmerall Nelson in 1997,
and his psychiatric treatment and medications while incarcerated, his relationship with Robin
Thomas, and his conflict with Delbert Steed. (Id. at PagelD 919-22, 931-32.) The mitigation
129

Case 1:09-cv-01181-JDB-egb Document152a
144 Filed 08/03/17
7829

Page 133 of 142

PagelD

history also addresses Hugueley's belief that he should have received the death penalty for the
murders of his mother and James Shelton. (Id. at PageID 933-34.)
Although Hugueley has a substantial record of mental health issues, the record before this
Comt demonstrates that trial counsel investigated his mental health and developed mitigation
theories but were unable to present those theories because of Hugueley's refusal to cooperate.
The record indicates that Petitioner was deemed competent at the time of trial and knowingly,
voluntarily, and intelligently waived his mitigation case. Further, given that he admitted to the
crime before internal affairs and the jury and had a violent history, having, at age 18, murdered his
mother, murdered another inmate during his incarceration, and attempted to murder a third inmate,
there is not a reasonable probability that the outcome of Hugueley's conviction or sentence would
have been different.
With regard to Claims 1(5) and K(2), Hugueley contends that, in 2003, it was standard
capital litigation practice for counsel to investigate, develop, and present evidence to collaterally
attack prior convictions that the State intended to use as basis for the prior crime of violence
aggravating circumstance. (ECF No. 127 at PageID 5627.) He contends that his trial counsel
failed to investigate his prior convictions and that, if they had investigated and developed proof of
his developmental brain malformation, they would have realized that he was incompetent to enter
pleas to the three prior crimes of violence. (Id. at PageID 5628.) Hugueley argues that he was
insane when he killed his mother.

(Id. at PageID 5628-36.) He asserts, based on declarations,

that his mother physically, emotionally, and sexually abused him. (Id. at PageID 5629-31; see
ECF No. 130-2 at PageID 7270 (Mary Carter states "he confided in me that his mama, Rachel, was
sexually abusing him. Steve told me Rachel made him sleep with her. It was clear that he meant
130

Case 1:09-cv-01181-JDB-egb Document153a
144 Filed 08/03/17
7830

Page 134 of 142

PagelD

that she made him have sex with her."); see ECF No. 132-4 at PagelD 7543 (Marcella Laster
states, "After Steve killed her, I wondered if Rachel might have been sexually inappropriate with
him. I just can't think of anything else that would cause a child to kill their mother."); see ECF
No. 130-6 at PageID 7284 (Freddie Chears states, "One day Stephen told me that his mother
coerced him into having sex with her."); see ECF No. 132-5 at PageID 7545 (Anthony Brandon
states, "When we were in school, people used to say that his mother was sexually abusing him.");

see also ECF No. 132-6 at PagelD 7548 (Danny Walden states, "[a]fter he killed his mother, I
wondered whether she had abused him. It would seem like it would take something deep-seated
like chronic sexual abuse to make a kid do something like that"). Hugueley provides declarations
from people who claim that his relationship with his mother had "a strange and inappropriate
sexual overtone," that they acted "more like husband and wife," and that she told her son, "[i]f I
can't have you, no one can!" (ECF No. 127 at Page ID 5631; see ECF No. 132-7 at PageID 7551;

see also ECF No. 132-15 at PageID 7648.) 36
The inmate relies on the report of David Lisak, Ph.D., a clinical psychologist and
international expert in child sexual abuse, to support his claim. (ECF No. 127 at PagelD 5632;

see ECF No. 130-1 at PagelD 7205.) Lisak was asked to provide an opinion on the long term
impact on a child of incestuous sexual abuse by his mother and to provide "a general opinion

36

Despite the assertions of incest, the declarations state that "I never saw Rachel hug
Steve. She was not affectionate toward him." (See ECF No. 132-15 at PagelD 7648.)
Petitioner also cited Lucille Permenter's comments about Hugueley not letting his mother hug
him. (ECF No. 127 at PageID 5631.) The comments were not related to incest but to
Hugueley's resentment of his mother and "the way he treated her. Although he was physically
affectionate and would give me and other people hugs, he never let Rachel hug him." (ECF No.
130-12 at PageID 7372.)
131

Case 1:09-cv-01181-JDB-egb Docun1ent154a
144 Filed 08/03/17 Page 135 of 142
7831

PagelD

regarding the likelihood that Mr. Hugueley was capable of conforming his conduct to the law
when he killed his mother." (Id. at PageID 7207.) Lisak summarily concludes based on a
document review that Petitioner was "subjected to the most severe form of sexual abuse possible
- maternal incest" and that "[t]he most catastrophic of the traumas that befell Steve Hugueley was
the long term incestuous abuse perpetrated by his mother."

(Id. at PageID 7208.)

The

psychologist relied on the declarations of Carter and Chears and stated "Mr. Hugueley disclosed
that the incest had been ongoing at least twice, both times during his adolescence within two years
of when he fatally shot his mother."

(Id. at PagelD 7208-10.)

Lisak contends that the

incestuous abuse is "indirectly corroborated by the very severe mental disturbance that
characterized Mr. Hugueley's childhood and adolescence." (Id. at PageID 7210.)
Hugueley's trial counsel stated, "[t]hough I suspected that Mr. Hugueley was a victim of
maternal incest, Ms. Charvat did not locate any information or witnesses to substantiate that
suspicion." (ECF No. 130-18 at PagelD 7396.) The declarations cited do not provide any
first-hand knowledge of sexual abuse. They are based on purported reports from Hugueley,
hearsay, or speculation. No evidence of this type has been presented previously despite years of
mental health evaluations and treatment.

The inmate has not made any statement in these

proceedings about the incest allegations.
Nearly thirty years after Rachael Hugueley's murder, Lisak, having never met Stephen
Hugueley or his mother and based solely on a document review, concluded that Hugueley had
been sexually abused by his mother and that "it is quite plausible that during the fatal encounter
with his mother Steve Hugueley was incapable of conforming his conduct to the law." (Id. at
PageID 7212; see ECF No. 127 at PagelD 5633.) Petitioner has not shown either that he was
132

Case 1:09-cv-01181-JDB-egb Document155a
144 Filed 08/03/17
7832

Page 136 of 142

PagelD

sexually abused by his mother or that he was incapable of conforming his conduct to the law, and
therefore has not demonstrated that the conviction for the murder of his mother should not be
considered as a violent felony conviction in support of the aggravating circumstance. To the
extent this evidence could be used for purposes of mitigation, its reliability is questionable.
Hugueley cites to Johnson v. Mississippi, 486 U.S. 578 (1988), to support his argument that
defense counsel have understood the professional obligation to collaterally challenge a capital
defendant's prior convictions. (ECF No. 127 at PageID 5635.) Johnson, however, did not

involve a claim of ineffective assistance.
In Rompilla v. Beard, 545 U.S. 374, 384-86 (2005), the Supreme Court found counsel's
performance to be deficient where counsel failed to view the file on a prior rape conviction and a
transcript from the rape victim which counsel knew the prosecution intended to use to support an
aggravating circumstance. The Court, however, noted that its analysis does not create "a 'rigid,

per se' rule that requires defense counsel to do a complete review of the file on any prior
conviction introduced." Id. at 389. In Rompilla, the Court found prejudice because the file
contained a range of mitigation leads that was otherwise unavailable, as well as prison files and
information about the victims' juvenile history and background. Id. at 390-91. Rompilla states
that a "lawyer is bound to make reasonable effort to obtain and review material that counsel
knows the prosecution will probably rely on as evidence of aggravation at the sentencing phase of
trial." Id. at 377.
In the instant case, unlike Rompilla, there was no evidence related to the prior violent
felony conviction that was being presented which was detrimental to Hugueley other than the fact
of the conviction and the violent nature of the crime. See Hamm v. Comm 'r, Alabama Dep 't of
133

Case 1:09-cv-01181-JDB-egb Document156a
144 Filed 08/03/17
7833

Page 137 of 142

PagelD

Corr., 620 F. App'x 752, 773 (11th Cir. 2015), cert. denied sub nom. Hamm v. Allen, 137 S. Ct. 39

(2016), reh'g denied, 137 S. Ct. 584 (2016) (distinguishing the case from Rompilla because
counsel had no notice that any underlying facts from the Tennessee convictions other than the
convictions themselves would be used in the penalty phase). The purported failure was not the
failure to discover the evidence of incest that Hugueley now claims predicated his mother's
murder. As stated earlier, trial counsel suspected but had no proof from his investigation to
cmrnborate the suspicion of incest. Further, the evidence of incest presented in these habeas
proceedings is not reliable. There is not a reasonable probability that the outcome at trial would
have changed for this three-time murderer who had admitted his responsibility for the crime had
his trial counsel investigated further and presented the evidence now available to this habeas court.
With regard to the other two convictions, Hugueley asserts that his counsel were
ineffective for failure to challenge these convictions as voidable due to his incompetence. (ECF
No. 127 at PageID 5636.) He relies on Nadkarni's report, developmental brain defects, and
mental illness to argu~ that he was incompetent to plead guilty to those crimes and maintains that
his trial counsel's failure to attack those convictions was deficient performance prejudicial to him.
(Id.) Nadkarni notes "significant deficits resulting in a virtually global neurocognitive syndrome"

and that the "striking abnormalities" found in Hugueley would likely be exhibited as "poor
judgment, apathy, outbursts, and difficulty organizing and planning." (ECF No. 127-5 at PagelD
5836.)

He highlighted the developmental nature of these abnormalities and opined that

Hugueley's behavior has been affected "since early in his life - if not since birth."

(Id.)

Nadkarni does not make a finding as to Hugueley's competence at present or at the time of these

134

Case 1:09-cv-01181-JDB-egb Document157a
144 Filed 08/03/17
7834

Page 138 of 142

PagelD

prior convictions. As stated supra, without some evidence that Petitioner was not competent to
stand trial for those prior convictions, he cannot demonstrate prejudice for Claims 1(5) and K(2).
Hugueley does not develop an argument for Claim 1(4)---counsel's failure to retain the
proper experts for pre-trial consultation-and fails to plead this claim with specificity under
Habeas Rule 2.
With regard to Claim K(4), that the inmate's counsel rendered ineffective assistance in
their defense at the penalty phase by failing to object to the jury instruction on the aggravating
circumstance related to the murder of a correctional employee, this Court has determined that
Hugueley is not entitled to habeas relief for that jury instruction (Claim E) as it did not affect the
fairness of his trial. Similarly, he cannot demonstrate prejudice. Claim K( 4) is not substantial,
and therefore procedurally defaulted, without merit, and DENIED.
Claims I and Kare procedurally defaulted, without merit, and DENIED.

J.

Ineffective Assistance of Counsel - Jury Selection (Claim J)

In Claim J, Hugueley alleges that his trial counsel was ineffective during the jury selection

process. (ECF No. 58 at PageID 4672.) He argues that his counsel failed to object to the State's
race and gender biased exercise of peremptory challenges for potential jurors Johnny Hudson,
Gertrude Gibbs, and Linda Pirtle. (Id.) He contends that his counsel failed to perfect a Batson
claim by neglecting to obtain specific findings by the trial court about the State's proffered reasons
for striking African-American jurors. (Id. at PageID 4673.) Hugueley also insists that his trial
counsel failed to elicit all available facts to demonstrate bias in support of the motion to strike
potential juror Barry Watkins for cause and for failing to object to the denial of the motion to strike
in the motion for a new trial. (Id.)
135

Case 1:09-cv-01181-JDB-egb Document158a
144 Filed 08/03/17 Page 139 of 142
7835

PagelD

Hugueley asserts that the claims were not raised in the state court proceedings because of
the ineffectiveness of post-conviction counsel, that Tennessee does not provide an adequate
prost-conviction remedy, and/or because the trial court denied Hugueley adequate process to
challenge his competence to waive post-conviction. (Id.)
The Warden responds that these claims were waived on post-conviction review and are
now procedurally defaulted. (ECF No. 112-1 at Page ID 5469.) He asserts that the TSC correctly
rejected Hugueley's Batson claims, and Hugueley cannot establish that the unpreserved Batson
claims would have been different than those rejected. (Id.) Respondent contends that these
claims are also meritless because Petitioner has failed to demonstrate that he was convicted or
sentenced by an impartial jury. (Id.)
Hugueley does not address this claim in response to the motion for summary judgment.
The claim was not exhausted in the state court and Hugueley has not argued cause and prejudice or
actual innocence to overcome the procedural default. The allegations in Claim J are procedurally
defaulted. Summary judgment is GRANTED, and Claim J is DENIED.

K.

Ineffective Assistance of Counsel - Direct Appeal (Claim L)

Hugueley asserts that his appellate counsel was ineffective for failing to raise and litigate
his incompetence to waive the presentation of mitigating evidence (Claim L(l)) and to challenge
Hugueley's prior violent convictions, which were used as aggravating factors (Claim L(2)). (ECF
No. 58 at PageID 4677.) The inmate argues that these claims were not raised in the state
proceedings because of the ineffectiveness of post-conviction counsel, that Tennessee does not
provide an adequate post-conviction remedy, and that the trial court denied Hugueley adequate
process to challenge his competency to waive post-conviction. (Id. at PageID 4677-78.)
136

Case 1:09-cv-01181-JDB-egb Document159a
144 Filed 08/03/17
7836

Page 140 of 142

PagelD

The Warden counters that Hugueley failed to present Claim L in state court because he
waived post-conviction review and the claims are procedurally defaulted. (Id. at PageID 5472.)
Respondent contends that the claim is also time-barred. (Id. at PageID 5473.) He asserts that the
claims are meritless because Hugueley had the same counsel for trial and direct appeal, and
state-court record demonstrates trial counsel's extensive consultation with experts, exhaustive
investigation into Hugueley's social, criminal, and psychological history, and a determination of
his competence. (Id.) Further, Respondent maintains that the claim is inadequately pled under

Habeas Rule 2(c) because Hugueley provides no argument or factual support. (Id. at PageID
5479.)
Petitioner does not directly address Claim L in response to the motion for summary
judgment. The claim was not exhausted in the state court, and he has not demonstrated cause and
prejudice or actual innocence to overcome the procedural default. Although Hugueley submits
that he has cause for any procedural default under Martinez, the Sixth Circuit does not apply
Martinez to overcome the procedural default of ineffective assistance of appellate counsel claims.

(SeeECFNo.127atPageID5615.) SeeHodgesv. Colson, 727F.3d517,531 (6thCir.2013);see
also Porter v. Genovese, 676 F. App'x 428, 434 (6th Cir. 2017) (recognizing circuit split in

application of Martinez to ineffective assistance of appellate counsel claims). The allegations in
Claim L are procedurally defaulted.

Summary judgment is GRANTED, and Claim L is

DENIED.
IX.

CONCLUSION

Claims A in part, B, C, D, E, F, G, H, I, Kare without merit.

137

Case 1:09-cv-01181-JDB-egb Document160a
144 Filed 08/03/17 Page 141 of 142
7837

PagelD

Claims F, I, J, K, Land A, as it relates to prospective jurors Hudson, Gibbs, and Pirtle, are
procedurally defaulted.
Respondent's motion for summary judgment is GRANTED.
All claims in the petition have been determined to be procedurally defaulted and/or without
merit, and therefore, the petition is DENIED in its entirety.

X.

APPEAL ISSUES
There is no absolute entitlement to appeal a district court's denial of a § 2254 petition.

Miller-El, 537 U.S. at 335; Bradley v. Birkett, 156 F. App'x 771, 772 (6th Cir. 2005). The Court
must issue or deny a certificate of appealability ("COA'') when it enters a final order adverse to a §
2254 petitioner. Rule 11, § 2254 Rules. A petitioner may not take an appeal unless a circuit or
district judge issues a COA. 28 U.S.C. § 2253(c)(l); Fed. R. App. P. 22(b)(l).
A COA may issue only if the petitioner has made a substantial showing of the denial of a
constitutional right, and the COA must indicate the specific issue or issues that satisfy the required
showing. 28 U.S.C. §§ 2253(c)(2) & (3). A "substantial showing" is made when the petitioner
demonstrates that "reasonable jurists could debate whether (or, for that matter, agree that) the
petition should have been resolved in a different manner or that the issues presented were adequate
to deserve encouragement to proceed further." Miller-El, 537 U.S. at 336; see also Henley v. Bell,
308 F. App'x 989, 990 (6th Cir. 2009) (unpublished table decision). A COA does not require a
showing that the appeal will succeed, Miller-El, 537 U.S. at 337; Caldwell v. Lewis, 414 F. App'x
809, 814-15 (6th Cir. 2011), however, courts should not issue a COA as a matter of course.

Bradley, 156 F. App'x at 773.

138

Case 1:09-cv-01181-JDB-egb Document161a
144 Filed 08/03/17 Page 142 of 142
7838

PagelD

In this case, Hugueley has asserted that Martinez applies to overcome the procedural
default of his ineffective assistance of appellate counsel claims (Claim L). Reasonable jurists
could disagree about the resolution of Claim L. See Davila v. Davis, 137 S. Ct. 810 (U.S. Jan. 13,
2017) (cert. granted). Because reasonable jurists could not disagree about the remaining claims,
the Court DENIES a COA on Claims A through K.
Rule 24(a)(l) of the Federal Rules of Appellate Procedure provides that a party seeking
pauper status on appeal must first file a motion in the district court, along with a supporting

affidavit. If the district court certifies that an appeal would not be taken in good faith, or
otherwise denies leave to appeal informa pauperis, the prisoner must file his motion to proceed in

formapauperis in the appellate court. See Fed. R. App. P. 24(a) (4)-(5).
The Court CERTIFIES, pursuant to Federal Rule of Appellate Procedure 24(a), that an
appeal in this matter would be taken in good faith to the extent it addresses Claim L for which the
Court has granted a COA. An appeal that does not address that issue would not be taken in good
faith, and the petitioner should follow the procedures of Rule 24 to obtain in forma pauperis
status. 37
IT IS SO ORDERED this 3rd day of August 2017.
s/ J. DANIEL BREEN
UNITED STATES DISTRICT JUDGE

37

If Petitioner files a notice of appeal that does not address Claim L, he must pay the full
$505 appellate filing fee or file a motion to proceed in Jonna pauperis and supporting affidavit in
the Sixth Circuit Court of Appeals within 30 days of the date of entry of this order. See Fed. R.
App. P. 24(a)(5).
139

